<html>
<title> - FOREIGN AFFAIRS BUDGET</title>
<body><pre>[Senate Hearing 108-19]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-19

                         FOREIGN AFFAIRS BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 6, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


86-894              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Brownback, Hon. Sam, U.S. Senator from Kansas, prepared statement    47
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    44
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Powell, Hon. Colin L., Secretary of State, Department of State, 
  Washington, DC.................................................     8
    Prepared statement...........................................    14
    Responses to additional questions for the record from:
      Senator Lugar..............................................    62
      Senator Biden..............................................    81
      Senator Voinovich..........................................    94
      Senator Dodd...............................................   100
      Senator Feingold...........................................   103
      Senator Boxer..............................................   106
      Senator Bill Nelson........................................   107
Voinovich, Hon. George V., U.S. Senator from Ohio, prepared 
  statement......................................................    53

                                 (iii)

  

 
                         FOREIGN AFFAIRS BUDGET

                              ----------                              


                       THURSDAY, FEBRUARY 6, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SR-325, Russell Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Allen, Brownback, 
Voinovich, Alexander, Coleman, Sununu, Biden, Dodd, Kerry, 
Feingold, Boxer, Bill Nelson, and Corzine.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    Mr. Secretary, we welcome you. The purpose of the hearing 
this morning is to exchange views on the State Department 
budget for the coming year, and we want to hear from you about 
the needs of the State Department in this era when it occupies 
the front lines in the war against terrorism.
    I want to compliment you, as I know all members will, on 
your efforts to expand funding for the State Department and for 
foreign assistance programs. You have brought a very important 
strategic understanding to budgetary questions involving the 
Department. This committee could not ask for a better partner 
in explaining why your work and the work of all those at the 
Department is so critical in protecting American citizens from 
future acts of terrorism.
    The progress you have made in the last 2 years has begun to 
reverse the damaging slide in diplomatic capabilities that 
occurred through much of the 1990s. In the years following the 
fall of the Berlin Wall, the United States slashed the 
resources available to diplomatic activities and to foreign 
assistance. In 2001, the share of the United States budget 
devoted to the international affairs account stood at a paltry 
1.18 percent, barely above its post-World War II low, and only 
about half of its share in the mid-1980s. This slide occurred 
even as the State Department was incurring the heavy added cost 
of establishing new missions in the 15 States of the Former 
Soviet Union.
    Even after a healthy increase in the last fiscal year, the 
U.S. foreign assistance in constant dollars has declined about 
44 percent since Ronald Reagan's Presidency in 1985, and about 
18 percent since the collapse of the Soviet Union in 1991. The 
United States devotes about one-tenth of 1 percent of our gross 
national product to economic assistance, ranking in this 
category last among the 21 major providers of aid in the 
developing world.
    The September 11 attacks jarred our country out of its 
complacency toward foreign threats, and your efforts have 
translated this renewed awareness into more resources. What is 
still missing from American political discourse is support for 
the painstaking work of foreign policy, and the indisputable 
role that diplomacy plays in our strategic efforts to win the 
war on terrorism.
    Mr. Secretary, even as we convene here to discuss 
diplomatic budgeting and capabilities, there is not a soul in 
the room who is not aware that you are joining us on this day 
after a very important mission to the United Nations. A few of 
our questions today will surely stray from the intricacies of 
the 150 budget account, but even as we bring up Iraq, North 
Korea, the war against terrorism, I hope that members will keep 
in mind the connection between the immediate crises that we 
will be talking about and the broader questions of our foreign 
policy capabilities.
    The ability of our military to defeat Iraq has never been 
in question. What has been in doubt are factors related to our 
diplomatic strength and our standing in the world. Can we get a 
positive vote in the Security Council? Can we secure the 
necessary basing and overflight rights? Can we limit anti-
American reaction to the war in the Arab world or elsewhere? 
Can we secure allied participants in the work of reconstructing 
Iraq in the event that war is necessary? Successful answers to 
these questions depend largely on diplomatic work done by your 
Department between crises, and they depend on the work funded 
by the very budget that we discuss today.
    Mr. Secretary, recently I outlined the five foreign policy 
campaigns that I believe must be undertaken to win the war on 
terrorism, and I use ``win'' in this case very deliberately. 
Our soldiers can fight the war against terrorism, and they are 
doing so in Afghanistan bravely, selflessly, and successfully, 
but we will not win this war through attrition.
    To win the war against terrorism, the United States must 
assign United States economic and diplomatic capabilities the 
same strategic priority we assign to military capabilities, and 
the first of these five campaigns necessary to win the war is 
expending our investments in diplomats, embassy security, 
foreign assistance, and other tools of foreign policy. If a 
greater commitment of resources can prevent the bombing of one 
of our embassies, secure alliance participation in expensive 
peacekeeping efforts, or improve detection of terrorists 
seeking visas, the investment will have yielded dividends far 
beyond its cost.
    Second, we need to expand and globalize the Nunn-Lugar 
cooperative threat reduction programs to assure to the maximum 
extent possible that weapons of mass destruction are not 
transferred to terrorists.
    And third, we must promote trade, which is essential in 
building the prosperity that can dampen terrorist recruitment 
and political resentment.
    Fourth, we must strengthen alliances so that we have 
partners who will share financial burdens and support our 
efforts against terrorism.
    And fifth, we must reinvigorate our commitment to 
democracy, expanding global energy supplies, protecting the 
international environment, and accelerating development.
    How will we know when we are winning? First, when every 
other nation also rallies against al-Qaeda. Second, when 
foreign law enforcement officials are willing and able to track 
down and arrest al-Qaeda cells operating in their territory. 
Third, when al-Qaeda's message no longer strikes a responsive 
chord in the Muslim world. Fourth, when whole sections of 
Islamic society have been lifted from conditions of abject 
poverty, and fifth, when failed States can no longer harbor al-
Qaeda.
    No military force, no matter how big, can achieve those 
goals. They can only be achieved diplomatically and with a 
strong and effective foreign policy. We are spending less than 
8 cents on foreign policy of every dollar that goes to defense. 
Your job here today, Mr. Secretary, is to convince us and, 
through us, our colleagues, that we have the will, the 
capacity, and the resources to win the war on terrorism.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    Mr. Secretary, the purpose of this hearing is to exchange views on 
the State Department budget for the coming year. We want to hear from 
you about the needs of your Department in this era when it occupies the 
front lines in the war on terrorism. I want to compliment you on your 
efforts to expand funding for the State Department and foreign 
assistance programs. You have brought a very important strategic 
understanding to budgetary questions involving the Department. This 
Committee could not ask for a better partner in explaining why your 
work and the work of all those at the Department is so crucial in 
protecting American citizens from future acts of terrorism.
    The progress you have made in the last two years has begun to 
reverse the damaging slide in diplomatic capabilities that occurred 
during the 1990s. In the years following the fall of the Berlin Wall, 
the United States slashed the resources available to diplomatic 
activities and foreign assistance.
    In 2001, the share of the U.S. budget devoted to the international 
affairs account stood at a paltry 1.18 percent--barely above its post-
World War II low and only about half of its share in the mid-1980s. 
This slide occurred even as the State Department was incurring the 
heavy added costs of establishing new missions in the 15 States of the 
Former Soviet Union.
    Even after a healthy increase in the last fiscal year, U.S. foreign 
assistance in constant dollars has declined about 44 percent since its 
Reagan presidency peak in 1985 and about 18 percent since the collapse 
of the Soviet Union in 1991. The United States devotes about one-tenth 
of one percent of our GNP to economic assistance--ranking us last in 
this category among the 21 major providers of aid to the developing 
world.
    The September 11 attacks jarred our country out of its complacency 
toward foreign threats, and your efforts have translated this renewed 
awareness into more resources. What is still missing from American 
political discourse is support for the painstaking work of foreign 
policy and the indispensable role that diplomacy plays in our strategic 
effort to win the war on terrorism.
    Mr. Secretary, even as we convene here to discuss diplomatic 
budgeting and capabilities, there is not a soul in this room who is not 
aware that you are joining us the day after a very important mission at 
the United Nations. A few of our questions today will stray from the 
intricacies of the 150 Budget Account. But even as we bring up Iraq, 
North Korea, and the war against terrorism, I hope that members will 
keep in mind the connection between the immediate crises and the 
broader question of our foreign policy capabilities.
    The ability of our military to defeat Iraq has not been in 
question. What has been in doubt are factors related to our diplomatic 
strength and our standing in the world. Can we get a positive vote in 
the Security Council? Can we secure the necessary basing and overflight 
rights? Can we limit anti-American reactions to war in the Arab world? 
Can we secure allied participation in the work of reconstructing Iraq 
after a war? Successful answers to these questions depend largely on 
the diplomatic work done by your Department between crises. They depend 
on the work funded by the very budget that we discuss today.
    Mr. Secretary, recently I outlined five foreign policy campaigns 
that must be undertaken to win the war on terrorism. I use the word WIN 
in this case very deliberately. Our soldiers can FIGHT the war against 
terrorism and they are doing that in Afghanistan--bravely, selflessly, 
and successfully. But we will not win this war through attrition. To 
win the war against terrorism, the United States must assign U.S. 
economic and diplomatic capabilities the same strategic priority that 
we assign to military capabilities.
    The first of these five campaigns necessary to win the war is 
expanding our investments in diplomats, embassy security, foreign 
assistance and other tools of foreign policy. If a greater commitment 
of resources can prevent the bombing of one of our embassies, secure 
alliance participation in expensive peacekeeping efforts, or improve 
detection of terrorists seeking visas, the investment will have yielded 
dividends far beyond its cost.
    Second, we will need to expand and globalize Nunn-Lugar Cooperative 
Threat Reduction Programs, to ensure to the maximum extent possible 
that weapons of mass destruction are not transferred to terrorists.
    Third, we must promote trade, which is essential to building the 
prosperity that can dampen terrorist recruitment and political 
resentment.
    Fourth, we must strengthen alliances so that we have partners who 
will share financial burdens and support our efforts against terrorism.
    And fifth, we must reinvigorate our commitment to democracy, 
expanding global energy supplies, protecting the international 
environment, and accelerating development.
    How will we know when we are winning?

          1. When every other nation also rallies against the al-Qaeda 
        threat.

          2. When foreign law enforcement officials are willing and 
        able to track down and arrest every al-Qaeda cell operating in 
        their territory.

          3. When al-Qaeda's message no longer strikes a responsive 
        chord in the Muslim world.

          4. When whole sections of Islamic society have been lifted 
        from conditions of abject poverty.

          5. When failed states that can harbor al-Qaeda no longer 
        exist.

    No military force, no matter how valiant, can achieve these goals. 
They can only be achieved diplomatically with a strong and effective 
foreign policy. Yet we are spending less than 8 cents on foreign policy 
for every dollar that goes to defense. Your job here today, Mr. 
Secretary, is to convince us that we have the will, the capacity, and 
the resources to win the war on terrorism.

    The Chairman. It is my privilege now to turn to the 
distinguished ranking member of our committee, Senator Biden, 
for his opening statement.
    Senator Biden. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary. As a matter of fact, I was waiting in the other room 
to welcome you. I went to the wrong room. I went over to our 
committee meeting room. Let me say at the outset, I am proud to 
be associated with you. I think you did better than anyone 
could have because of your standing, your reputation, and your 
integrity, as it is understood by our European friends as well 
as others around the world. No Democrat or Republican, I think, 
could have presented the case better than you did yesterday. I 
do not want to embarrass you, but I think a large part of the 
success was the way--the way, the manner, the language, the 
verbiage you used in presenting a case that you and I and 
everyone on this committee knew existed, but it took you to do 
it, and I want to tell you I am proud to be associated with 
you.
    Secretary Powell. Thank you, sir.
    Senator Biden. This hearing, although scheduled some weeks 
ago, in keeping with a very important practice is, one of the 
first orders of business for this committee--to determine what 
the new Congress is likely to do relative to the authorization 
of funding for what I think my chairman has accurately pointed 
out, and that is, these are new forms of conflict that, 
although we need a powerful military, a powerful military will 
not solve them. A powerful military and lack of the will to use 
it will put us in a much more damaging and vulnerable position, 
but no matter how powerful, no matter how incredible the 
technology and the bravery of our warriors, it will not solve 
the new conflicts that we face that do not lend themselves to 
the neat categories that we are accustomed to.
    So I think your budget and your leadership in the State 
Department takes on a whole new dimension. I would suggest that 
the tools available to Statecraft are the most likely tools to 
be able to render this country more secure, even--even more 
than our military, because we have noted that, and everyone has 
noted, but notwithstanding our incredible efforts thus far, al-
Qaeda is still alive, not as well, but well. There is a whole 
province in northwestern Pakistan which I am of the view is 
essentially owned and operated by the Taliban, al-Qaeda, and 
tribal sympathies to extremist groups.
    I am not suggesting that it lends itself to an easy 
military solution, but the desperation, the poverty, the 
despair that exists in large parts of the world, coupled with 
the sense, unfairly in many cases, the sense that we are only 
concerned about our immediate interests, and I know we are not, 
I think puts us in a very different position and ups the ante 
for an imaginative and creative and 21st century form of 
diplomacy that I do not think any of us 4, 6, 8 years ago would 
have anticipated, so I think this is a new deal in a big way, 
and I think you are just the guy to be there to try to craft 
it.
    The fact is that we are going to discuss the 
administration's proposed budget, and this is not meant to be a 
political pun, we cannot proceed without first focusing on the 
elephants that are in the room, North Korea and Iraq, so let me 
say a very brief few words about those at the outset.
    Mr. Secretary, along with millions of Americans and 
millions of people around the world, you made, we all watched 
you make a powerful case, and once again I want to commend you 
for making that case, but suggest I think something you will 
not disagree with. It is now--the question for Saddam is war or 
peace. It is in his hands, but the question for the Security 
Council is relevance or irrelevance, and I hope they are seized 
of that understanding, and I, for one--I do not want to raise 
the bar on you. I guess I have.
    I believe--although it is a Herculean task, I believe that 
it is possible to bring most nations along and leave others in 
a position where they are not objecting, because I think that 
is important. We are at a very critical moment, as you know, 
and I think you have a very delicate balancing act, and I am 
not going to be second-guessing it, but I do want to state what 
I think it is, and that is that, to the degree to which our 
friends around the world and those who are maybe not 
traditionally viewed as our friends ask for more time to deal 
with Iraq, I personally think that should be balanced against 
whether or not they are likely to come along with us if, in 
fact, a reasonable amount of time is given, and that balanced 
against what the downside of giving time is.
    If the Lord Almighty came down and sat in the middle of 
this table and said, Joe, I know if you all give 6 more weeks, 
even though that puts us in a militarily more difficult 
position, that you will get a uniform view at the United 
Nations that there is a deadline set and war is the option, war 
will follow if he does not act, I would say take the chance. I 
know that is a hard call. That is your business. You know those 
people better than we do, and I am confident of your advice to 
the President, but I do think that the Security Council has to 
decide whether it is going to be relevant or not.
    The other important task for the President is, in my view, 
the first task has been accomplished: What is the threat? You 
did that, and you did that very well. But the second part of 
it, and you and I have talked about this often, and I presumed 
to talk about it with the President, and that is, foreign 
policy, no matter how well-conceived, cannot be sustained with 
out the informed consent of the American people. I know of no 
warrior who believes that more than you, having been through 
Vietnam, and having led our troops in the field, as well as 
having been the Chairman of the Joint Chiefs of Staff.
    This is not a criticism of the administration, because 
maybe it is not the appropriate time yet, but I do think it is 
important that we begin to tell the American people what may be 
expected of them in terms of the days and the weeks, and Lord 
knows how long after. I believe, from my exposure to my 
constituency at home, which is every day, that notwithstanding 
the growing support, based on the additional evidence put 
forward, for the use of force if need be, there is an 
overwhelming expectation that this will be a repeat of what 
happened in the early 1990s, and that is that we will be 
swiftly successful--and I, for one, think that is a probability 
that is the most likely outcome, although you have to plan for 
the worst, but that Johnny is going to come marching home very, 
very rapidly. In my view Johnny and Jane are not going to come 
home immediately. It may be 8 months, it may be 16 months, it 
may be 3 years, but it is going to be some period of time that 
they are going to be there.
    I do not think the American people understand that yet, and 
when I had the opportunity and the privilege to meet with our 
forces under General Franks' command in Qatar about a month 
ago, Senator Hagel and I were asked whether we would address 
several hundred generals--I never saw so many stars in one 
room. We were asked whether we would say a few words and take a 
few questions, and the one thing on the minds of these warriors 
was not whether they would win, if sent, but whether or not we 
would be there a year and a year-and-a-half and 2 years and 3 
years down the road, when we had to make hard choices between 
another $18 to $20 billion, which is the estimate we got on 
this committee to maintain forces in the region, or in Iraq, or 
whether we would be using that money for a tax cut, or whether 
we would be using that money for health care, we would be using 
that money for something else.
    And so I think we not only owe it to the American people, I 
think every one of us who say we support this effort ought to 
understand, if asked, we are prepared. The single most 
important, first requirement that we will have will be to fund 
that effort above every other thing that we are concerned 
about, and we have deep concerns about a number of these 
issues, and so I think it is a second reason why we should be 
now discussing--and I will not press you today on this--what 
are the plans, how detailed are the plans that exist for the 
day, the week, the month, the years after.
    I also think that North Korea is an equally urgent a 
problem as Saddam Hussein at the moment, notwithstanding the 
fact that we propositioned tens of thousands of forces, and we 
are on--unless he chooses otherwise--the brink of war.
    This morning, North Korea announced they have reopened 
their small nuclear power plant. There is no doubt that 
everyone involved with the U.S. Government understands that 
they have the capacity to very quickly produce plutonium, which 
is very quickly available, within 1 month maybe one bomb, 
within 6 or 8 months or a year, somewhere between 6 and 8 
additional nuclear weapons, and quite frankly, in light of the 
comments, the concluding comments made by the chairman, that 
worries me less than the fact that they have become a small 
plutonium factory with a history of miscalculating what the 
rest of the world thinks, with a history of proliferation, with 
a history of supporting terror, with a history that worries me 
that 3 years from now, we may find that plutonium in a suitcase 
in a homemade nuclear weapon in some city in the United States 
of America.
    So I would like you to be able to discuss with us very 
briefly at some point the degree to which you think we have 
some time. I understand the administration's proposal of a 
multilateral umbrella. It makes sense. I think that is the best 
way, but as the President said in his State of the Union 
Message, and I am paraphrasing, he is interested in results, 
not in form. I hope we do not let form trump substance here, 
notwithstanding the fact that we are in somewhat of a difficult 
position.
    So Mr. Secretary, let me stop there. I do have specific 
questions about the budget, but it is inescapable, in light of 
the news of the day and your brilliant performance yesterday, 
for us not to discuss at some point North Korea and Iraq. I 
think your budget is positive an increase, but if you take out 
the Millennium Challenge Account [MCA] as part of the request, 
we are basically a flat budget compared to the fiscal year just 
completed, and you had $27.2 billion for fiscal year 2002. That 
is how much we spent in that year, counting supplemental 
funding. You take the Millennium Challenge Account out of this, 
we are essentially back to where it was in 2002. You have 
always been candid with us. I would like to know if you really 
think that can get this new job done.
    Again, thank you. Congratulations, and Mr. Chairman, I 
appreciate the time.
    The Chairman. Thank you very much, Senator Biden.
    Let me just announce quickly that one of the concerns of 
the distinguished Senator from Delaware, namely, the future 
governance of Iraq, will be the subject of our hearing next 
Tuesday, and that will have, I think, a great deal of interest 
for members of the committee as well as the country, and on 
Wednesday, we will be talking about the future governance of 
Afghanistan, our role there, and what we may be able to do 
through American diplomacy to assist the valiant people of 
Afghanistan.
    Mr. Secretary, I want to announce to the committee that, 
due to the understandable commitments you have here and 
elsewhere in the world, that we will try to conclude your 
testimony at noon or before, and therefore, with the 
concurrence of the ranking member, we will have a 5-minute 
questioning period so all members can be accommodated, and we 
will try to get to each member's questions.
    I thank you very much for coming, sir. Please proceed with 
your testimony.

    STATEMENT OF HON. COLIN L. POWELL, SECRETARY OF STATE, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Powell. Thank you very much, Mr. Chairman. Thank 
you for your kind remarks, and Senator Biden, thank you for 
your kind remarks. It is a great pleasure to come before the 
committee for the third year in a row to defend the State 
Department's needs for a world that is in transformation, a 
world with new requirements that we must meet, and a world 
especially that does require, as you said, sir, the very best 
we can put on the front line of diplomacy.
    Mr. Chairman, I do have a statement for the record which I 
would like to submit, and then I have a short oral statement I 
would like to present.
    The Chairman. It will be printed in full in the record.
    Secretary Powell. Thank you very much, Mr. Chairman.
    Let me begin first by thanking the committee for the strong 
support that you have provided to the Department over the past 
2 years. It has been a source of great personal inspiration to 
me, but beyond that, it has been a source of inspiration to the 
men and women of the Department of State to know that their 
Congress, and especially this committee, is firmly behind them, 
and firmly behind what they are doing on this front line of 
diplomacy.
    At one time, when I first came into the Department, I would 
say, ``we are the front line, we are the defense of our 
national interest.'' And my staff corrected this old soldier by 
saying ``no, we are on the offense.'' Our diplomacy should be 
offensive in nature; taking the message, and taking our value 
system and taking what we believe out to the rest of the world. 
And that is the attitude we have tried to convey throughout the 
Department.
    We also take our casualties. Last year, I lost three 
members of my State Department family, two dependents killed in 
a bomb attack in Pakistan, and a member of our AID family in an 
assassination in Amman, Jordan. So as we sit here today, as we 
worry about the military conflict that may or may not be ahead 
of us, diplomats of the United States of America, AID 
employees, Peace Corps employees, and all sorts of individuals 
who are out in our diplomatic force are at risk every single 
day from terrorism and from those who would try to destroy our 
way of life--those who believe that by attacking our diplomats 
they are attacking the United States directly--and I just am 
pleased that this committee understands the sacrifice that they 
make--them and their families--and you support us so strongly.
    I was struck by one statistic you mentioned, Mr. Chairman, 
and that was, since the days of Ronald Reagan, the overall 
budget for this kind of assistance, our foreign assistance, has 
dropped 44 percent. The other thing that is significant about 
that statistic is that it also suggests that the filter through 
which we used to look at foreign affairs funding has changed. 
It used to be through the filter of the cold war. How do we 
influence different parties on different sides of the cold war 
border?
    Now, it is a lot different. Now, we have to worry about 
poverty, we have to worry about HIV/AIDS, we have to worry 
about nations that are no longer behind an iron curtain or a 
bamboo curtain, and are trying to find their way forward to 
democracy and the free enterprise system. And I think what we 
are trying to do reflects that changed world, and that is why I 
believe that the budget I am defending today on behalf of the 
President is deserving of your full support. And obviously, I 
am here to defend the President's budget. But I know that there 
will be adjustments that will be made and different members of 
the committee, different Members of the Congress will have 
different ideas as to priorities and as to amounts that should 
go to the various priorities. And we look forward to working 
with you on that prioritization as we go forward.
    The statistics as to whether it is an increase, or how much 
of an increase, will also be a factor that has to be considered 
later, after we see what we get in 2003. And so I once again 
encourage all support possible for bringing to a closure the 
2003 process in a way that supports the efforts of the 
Department of State.
    To my opening statement, then, Mr. Chairman. I just want to 
say that I am pleased to appear before you in support of the 
President's international affairs budget for fiscal year 2004. 
Funding requested for 2004 for the Department of State, USAID, 
and other foreign affairs agencies is $28.5 billion. The 
President's budget will allow the United States to target 
security and economic assistance to sustain key countries 
supporting us in the war on terrorism, and helping us to stem 
the proliferation of weapons of mass destruction.
    It will also help us launch the Millennium Challenge 
Account: a new partnership generating support to countries that 
rule justly, invest in their people, and encourage economic 
freedom; to help us strengthen the U.S. and global commitment 
to fighting HIV/AIDS and alleviating humanitarian hardships; 
combat illegal drugs in the Andean region of South America, as 
well as bolster democracy in one of that region's most 
important countries, a country that is under siege, Colombia. 
The budget request will also reinforce America's world-class 
diplomatic force, focusing on the people, places, and tools 
needed to promote our foreign policies around the world.
    I am particularly proud of that last goal, Mr. Chairman, 
because for the past 2 years, I have concentrated on each of my 
jobs, first as primary foreign policy advisor to the President, 
but also, and in my judgment just as important, Chief Executive 
Officer of the State Department. Under my CEO hat, we are 
asking for about $8.5 billion, and let me give you some 
highlights of what these funds are for.
    First, we have been reinforcing our diplomatic force for 2 
years, and will continue to do so in fiscal year 2004. We will 
hire 399 more professionals to help the President carry out the 
Nation's foreign policy. This hiring will bring us to the 
1,100-plus new Foreign and Civil Service officers we set out to 
hire over the first 3 years of my tenure to bring the 
Department's personnel back in line with the diplomatic 
workload.
    Mr. Chairman, I am so proud of the young men and women who 
want to be a part of the Diplomatic Service and the Civil 
Service that supports the State Department. In the 2 years that 
I have been Secretary, and I really want to blow the 
Department's horn on this, 80,000 Americans--80,000 Americans--
have turned up to take the Foreign Service exam to be a part of 
this diplomatic force, to be part of our outreach into the 
community. This is a significant increase over any other period 
you may wish to look at in past years. It did not happen just 
because it happened. It happened because we made an effort to 
take our case to the American people and encouraged young 
people to come into the force.
    When I first arrived at the State Department, I was 
distressed to find that for a number of years in the 1990s, we 
did not hire any Foreign Service officers. Some years, we did 
not even give the Foreign Service examination. That was 
outrageous. You know, if you want a battalion commander 15 
years from now, you have got to hire a second lieutenant now. 
If you want an ambassador, career ambassador fully qualified, 
speaking four languages, knowing all that he or she should know 
15 years from now, you have got to bring in a junior Foreign 
Service officer now, and we had not done that for years.
    It would be a tragedy, after encouraging 80,000 young 
people to get interested in the Foreign Service, to discover 
that we cannot even hire 399 in any one year. So please, I 
implore the members of this committee to give me what I need to 
support our Diplomatic Readiness Initiative--bringing young 
people who really want to be a part of this Department, who 
really want to be a part of our diplomatic force--to bring them 
into the Department so that they can come to the Department, to 
learn what it is to be a young Foreign Service officer. And I 
invite you to come down to one of our swearing-ins, when either 
Rich Armitage or I talk to these youngsters, they raise their 
right hand, and you have never seen such enthusiasm on the face 
of youngsters to go out and serve their Nation. So please 
support that initiative.
    Second, I promised members of the Department I would bring 
state-of-the-art telecommunications and computers and Internet 
capability to the Department, because people who cannot 
communicate rapidly and effectively in today's inter-connected 
world cannot carry out our foreign policy. And we are 
approaching our goal in that regard as well: Internet 
capability on every desk, everywhere in the State Department, 
at every embassy, at every mission, at every far-flung post.
    Yesterday, after I spoke at the U.N, within minutes, it was 
all being translated, it was all being put on CD-ROM, it was 
all being fired over the Internet to every U.S. Embassy in 
order to get the word out. It goes to one of the goals you 
touched on earlier, Mr. Chairman: getting the word out, 
touching the world, letting people know what we think, what we 
believe. And this morning, my staff is proudly showing me all 
of the Web site products that they have produced overnight and 
everything else they have done to get the word out.
    I was musing with my staff this morning that increasingly 
we live in a world of pictures, and a world of television. My 
presentation yesterday went out around the world, and people 
saw it, and there was a picture in one of our newspapers this 
morning of a group of young marines sitting in an aircraft 
carrier watching the presentation live. They are not waiting 
for it to be written up. They are not waiting for somebody to 
comment on it. They are not waiting for a talking head to tell 
them what they saw. They were seeing it, 10,000 miles away, in 
real time, and making their own judgment.
    We have to make sure that we get all of our diplomats in 
every embassy the same kind of real-time capability to know 
what is going on and to convey that message to all of the 
audiences that we have to deal with around the world in both 
unclassified and classified communications capability, 
including desktop access to the Internet. Every man and woman 
in the State Department must be connected, and this budget will 
put us there, at least move us well along in that direction.
    Finally, with respect to my CEO role, I really wanted to 
sweep the slate clean and completely revamp the way we 
construct our embassies and other overseas buildings, as well 
as improve the way we secure our men and women who occupy them, 
men and women who are in danger. That task is a long-term one, 
an almost never-ending one, particularly in this time of 
heightened terrorist activities. But we are well on the way to 
implementing both the construction and the security tasks in a 
better way, in a less expensive way, in a way that subsequent 
CEO's of the State Department can continue and improve on. And 
I want to brag about our overseas building operation under the 
leadership of retired General Chuck Williams, and what a great 
job they are doing in bringing the costs down of our embassy 
facilities around the world, and doing it in a way that makes 
maximum use of modern technology, modern construction 
techniques, and modern construction management techniques, 
standardization of our products, but at the same time, doing it 
in a way that is sensitive to the culture of each country in 
which our facilities are located.
    Mr. Chairman, as the principal foreign policy advisor to 
President Bush, I have priorities as well. Let me highlight our 
key foreign policy priorities before I stop and take your 
questions, and while I am talking about foreign policy, I want 
to thank this committee for the 19 to 0 vote yesterday for the 
Moscow treaty. I hope this committee will continue to give its 
full support to this important treaty, as the full Senate 
considers its ratification.
    I would hope, Mr. Chairman, that it would be possible to 
have this treaty ratified by the end of this month, if at all 
possible. Yesterday, I spoke to my Russian Federation 
colleague, Igor Ivanov, Foreign Minister Ivanov, and they are 
prepared to move it through the Duma as well. And I hope that 
before this spring, or perhaps maybe before the fall is out, we 
will be in a position to exchange the instruments of 
ratification between the United States of America and the 
Russian Federation.
    Mr. Chairman, the 2004 budget proposes several initiatives 
to advance U.S. national security interests and preserve 
American leadership. The 2004 foreign operations budget that 
funds programs for the Department of State, USAID, and other 
agencies is $18.8 billion. Today, our No. 1 priority is to 
fight and win the global war on terrorism. The budget furthers 
this goal by providing economic, military, and democracy 
assistance to key foreign partners and allies, including $4.7 
billion to countries that have joined us in the war on 
terrorism.
    Of this amount, the President's budget provides $657 
million for Afghanistan, $460 million for Jordan, $395 million 
for Pakistan, $255 million for Turkey, $136 million for 
Indonesia, and $87 million for the Philippines. In Afghanistan, 
this funding will be used to fulfill our commitment to rebuild 
Afghanistan's road network. It is not just a road, it is 
something that will connect this country, connect its 
commercial centers, connect it politically, and start to bring 
this nation into a sense of unity, and not just different 
regions that are off pursuing their own destiny.
    In addition, it will establish security through a national 
military and national police force, it will establish 
broadbased and accountable governance to democratic 
institutions in an active civil society. It will ensure a peace 
dividend for the Afghan people through economic reconstruction, 
and provide humanitarian assistance to sustain returning 
refugees and displaced persons.
    United States assistance will continue to be coordinated 
with the Afghan Government, the United Nations, and other 
international donors.
    Mr. Chairman, I also want to emphasize our efforts to 
decrease the threats posed by terrorist groups, rogue states, 
and other non-state actors with regard to weapons of mass 
destruction and related technology. To achieve this goal, we 
must strengthen partnerships with countries that share our 
views in dealing with the threat of terrorism and in resolving 
regional conflicts. The 2004 budget requests $35 million for 
the nonproliferation and disarmament fund, more than double the 
2003 request, increases funding for overseas export controls 
and border security to $40 million, and supports additional 
funding for science centers and bio-chem redirection programs.
    The funding increases requested for these programs will 
help us prevent weapons of mass destruction from falling into 
the hands of terrorist groups or States by preventing their 
movement across borders and by destroying or safeguarding known 
quantities of weapons or source materials. The science centers 
and bio-chem redirection programs support the same goals by 
engaging former Soviet weapons scientists and engineers, 
engaging them in peaceful scientific activities, providing them 
with an alternative to marketing their skills to States or 
groups of concern.
    The budget also promotes international peace and prosperity 
by launching the most innovative approach to U.S. foreign 
assistance in more than 40 years. The new Millennium Challenge 
Account, an independent government corporation funded at $1.3 
billion, will redefine development aid. As President Bush told 
African leaders meeting in Mauritius recently, this aid will go 
to nations that encourage economic freedom, root out 
corruption, and respect the rights of the people. This, I 
think, is one of our most significant initiatives. I am so 
proud of it, and the President really is showing enormous 
leadership by instituting this Millennium Challenge Account.
    As opposed to looking at foreign aid through who was on the 
right or wrong side of the cold war, now we want to know who is 
on the right or wrong side of democracy, economic democracy, 
the individual rights of men and women, transparency in 
government, and the end of corruption. We want to know who is 
on the right and wrong side of those values as we move into 
this new century. And those nations that are on the right side, 
and are developing, will find the United States is there to 
help them through the Millennium Challenge Account.
    Moreover, this budget offers hope and a helping hand to 
countries that are facing health catastrophes, poverty and 
despair, and humanitarian disasters. The budget includes more 
than $1 billion to meet the needs of refugees and internally 
displaced peoples.
    The budget also provides more than $1.3 billion to combat 
the global HIV/AIDS epidemic. The President's total budget for 
HIV/AIDS is $2 billion, which includes the first year's funding 
for the new emergency plan for HIV/AIDS relief announced by the 
President in his State of the Union Address. These funds will 
target 14 of the hardest-hit countries in Africa and the 
Caribbean.
    This budget also includes almost a half a billion dollars 
for Colombia. The funding will support Colombian President 
Uribe's unified campaign against terrorists and the drug trade 
that fuels their activities. The aim is to secure democracy, 
extend security, and restore economic prosperity to Colombia, 
and prevent the narcoterrorists from spreading instability 
through the broader Andean region.
    To accomplish this goal requires more than simply funding 
for Colombia. Therefore, our total Andean Counterdrug 
Initiative is $731 million. Critical components of this effort 
include resumption of the Air Bridge Denial program to stop 
internal and cross-border aerial trafficking in illegal drugs, 
stepped-up eradication and alternative development efforts, as 
well as technical assistance to strengthen Colombia's police 
and judicial institutions.
    Mr. Chairman, members of the committee, to advance 
America's interests around the world, we need the dollars in 
the President's budget for fiscal year 2004. We need the 
dollars under both of my hats, CEO and principal foreign policy 
advisor. The times we live in are troubled, to be sure, but I 
believe there is every bit as much opportunity in the days 
ahead as there is danger. American leadership is essential with 
regard to both the danger and the opportunity. With regard to 
the Department of State, the President's 2004 budget is crucial 
to the exercise of that leadership.
    I have given you far more detail on the President's budget 
in my written statement and, without objection, of course, you 
have accepted that statement. I think I will stop at this 
point, Mr. Chairman, and answer your questions, and I know in 
the course of your questioning, we will deal with the specific 
questions that you, Mr. Chairman and Senator Biden, raise with 
respect to Iraq and North Korea and other topical issues.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Powell follows:]

     Prepared Statement of Hon. Colin L. Powell, Secretary of State

    Mr. Chairman, members of the committee, I am pleased to appear 
before you to testify in support of the President's International 
Affairs Budget for Fiscal Year 2004. Funding requested for FY 2004 for 
the Department of State, USAID, and other foreign affairs agencies is 
$28.5 billion.
    The President's Budget will allow the United States to:

  <bullet> Target security and economic assistance to sustain key 
        countries supporting us in the war on terrorism and helping us 
        to stem the proliferation of weapons of mass destruction;

  <bullet> Launch the Millennium Challenge Account--a new partnership 
        generating support to countries that rule justly, invest in 
        their people, and encourage economic freedom;

  <bullet> Strengthen the U.S. and global commitment to fighting HIV/
        AIDS and alleviating humanitarian hardships;

  <bullet> Combat illegal drugs in the Andean Region of South America, 
        as well as bolster democracy in one of that region's most 
        important countries, Colombia; and

  <bullet> Reinforce America's world-class diplomatic force, focusing 
        on the people, places, and tools needed to promote our foreign 
        policies around the world.

    I am particularly proud of the last bullet, Mr. Chairman, because 
for the past two years I have concentrated on each of my jobs--primary 
foreign policy advisor to the President and Chief Executive Officer of 
the State Department.
    Under my CEO hat, we have been reinforcing our diplomatic force for 
two years and we will continue in FY 2004. We will hire 399 more 
professionals to help the President carry out the nation's foreign 
policy. This hiring will bring us to the 1,100-plus new foreign and 
civil service officers we set out to hire over the first three years to 
bring the Department's personnel back in line with its diplomatic 
workload. Moreover, completion of these hires will allow us the 
flexibility to train and educate all of our officers as they should be 
trained and educated. So I am proud of that accomplishment and want to 
thank you for helping me bring it about.
    In addition, I promised to bring state-of-the-art communications 
capability to the Department--because people who can't communicate 
rapidly and effectively in today's globalizing world can't carry out 
our foreign policy. We are approaching our goal in that regard as well.
    In both unclassified and classified communications capability, 
including desk-top access to the Internet for every man and woman at 
State, we will be there by the end of 2003. The budget before you will 
sustain these gains and continue our information technology 
modernization effort.
    Finally, with respect to my CEO role, I wanted to sweep the slate 
clean and completely revamp the way we construct our embassies and 
other overseas buildings, as well as improve the way we secure our men 
and women who occupy them. As you well know, that last task is a long-
term, almost never-ending one, particularly in this time of heightened 
terrorist activities. But we are well on the way to implementing both 
the construction and the security tasks in a better way, in a less 
expensive way, and in a way that subsequent CEOs can continue and 
improve on.
    Mr. Chairman, let me give you key details with respect to these 
three main CEO priorities, as well as tell you about other initiatives 
under my CEO hat:
   the ceo responsibilities: state department and related activities
    The President's FY 2004 discretionary request for the Department of 
State and Related Agencies is $8.497 billion. The requested funding 
will allow us to:

  <bullet> Continue initiatives to recruit, hire, train, and deploy the 
        right work force. The budget request includes $97 million to 
        complete the Diplomatic Readiness Initiative by hiring 399 
        additional foreign affairs professionals. Foreign policy is 
        carried out through our people, and rebuilding America's 
        diplomatic readiness in staffing will ensure that the 
        Department can respond to crises and emerging foreign policy 
        priorities. This is the third year of funding for this 
        initiative, which will provide a total of 1,158 new staff for 
        the Department of State.

  <bullet> Continue to put information technology in the service of 
        diplomacy. The budget request includes $157 million to sustain 
        the investments made over the last two years to provide 
        classified connectivity to every post that requires it and to 
        expand desktop access to the Internet for State Department 
        employees. Combined with $114 million in estimated Expedited 
        Passport Fees, a total of $271 million will be available for 
        information technology investments, including beginning a major 
        initiative--SMART--that will overhaul the outdated systems for 
        cables, messaging, information sharing, and document archiving.

  <bullet> Continue to upgrade and enhance our security worldwide. The 
        budget request includes $646.7 million for programs to enhance 
        the security of our diplomatic facilities and personnel serving 
        abroad and for hiring 85 additional security and support 
        professionals to sustain the Department's Worldwide Security 
        Upgrades program.

  <bullet> Continue to upgrade the security of our overseas facilities. 
        The budget request includes $1.514 billion to fund major 
        security-related construction projects and address the major 
        physical security and rehabilitation needs of embassies and 
        consulates around the world. The request includes $761.4 
        million for construction of secure embassy compounds in seven 
        countries and $128.3 million for construction of a new embassy 
        building in Germany.

  <bullet> The budget also supports management improvements to the 
        overseas buildings program and the Overseas Building Operations 
        (OBO) long-range plan. The budget proposes a Capital Security 
        Cost Sharing Program that allocates the capital costs of new 
        overseas facilities to all U.S. Government agencies on the 
        basis of the number of their authorized overseas positions. 
        This program will serve two vital purposes: (1) to accelerate 
        construction of new embassy compounds and (2) to encourage 
        Federal agencies to evaluate their overseas positions more 
        carefully. In doing so, it will further the President's 
        Management Agenda initiative to rightsize the official American 
        presence abroad. The modest surcharge to the cost of stationing 
        an American employee overseas will not undermine vital overseas 
        work, but it will encourage more efficient management of 
        personnel and taxpayer funds.

  <bullet> Continue to enhance the Border Security Program. The budget 
        request includes $736 million in Machine Readable Visa (MRV) 
        fee revenues for continuous improvements in consular systems, 
        processes, and programs in order to protect U.S. borders 
        against the illegal entry of individuals who would do us harm.

  <bullet> Meet our obligations to international organizations. 
        Fulfilling U.S. commitments is vital to building coalitions and 
        gaining support for U.S. interests and policies in the war 
        against terrorism and the spread of weapons of mass 
        destruction. The budget request includes $1 billion to fund 
        U.S. assessments to 44 international organizations, including 
        $71.4 million to support renewed U.S. membership in the United 
        Nations Educational, Scientific, and Cultural Organization 
        (UNESCO).

  <bullet> Support obligations to international peacekeeping 
        activities. The budget request includes $550.2 million to pay 
        projected UN peacekeeping assessments. These peacekeeping 
        activities ensure continued American leadership in shaping the 
        international community's response to developments that 
        threaten international peace and stability.

    Continue to eliminate support for terrorists and thus deny them 
safe haven through our ongoing public diplomacy activities, our 
educational and cultural exchange programs, and international 
broadcasting. The budget request includes $296.9 million for public 
diplomacy, including information and cultural programs carried out by 
overseas missions and supported by public diplomacy personnel in our 
regional and functional bureaus. These resources are used to engage, 
inform, and influence foreign publics and broaden dialogue between 
American citizens and institutions and their counterparts abroad.
    The budget request also includes $345.3 million for educational and 
cultural exchange programs that build mutual understanding and develop 
friendly relations between America and the peoples of the world. These 
activities establish the trust, confidence, and international 
cooperation with other countries that sustain and advance the full 
range of American national interests.
    The budget request includes $100 million for education and cultural 
exchanges for States of the Former Soviet Union and Central and Eastern 
Europe, which were previously funded under the FREEDOM Support Act and 
Support for East European Democracy (SEED) accounts.
    As a member of the Broadcasting Board of Governors, I want to take 
this opportunity to highlight to you the BBG's pending budget request 
for $563.5 million. Funding will advance international broadcasting 
efforts to support the war on terrorism, including initiation of the 
Middle East Television Network.

  <bullet> Mr. Chairman, I know that your committee staff will go over 
        this statement with a fine-tooth comb and I know too that they 
        prefer an account-by-account laydown. So here it is:
Diplomatic and Consular Programs (D&CP):
  <bullet> The FY 2004 request for D&CP, the State Department's chief 
        operating account, totals $4.164 billion.

  <bullet> D&CP supports the diplomatic activities and programs that 
        constitute the first line of offense against threats to the 
        security and prosperity of the American people. Together with 
        Machine Readable Visa and other fees, the account funds the 
        operating expenses and infrastructure necessary for carrying 
        out U.S. foreign policy in more than 260 locations around the 
        world.

  <bullet> The FY 2004 D&CP request provides $3.517 billion for ongoing 
        operations--a net increase of $132.7 million over the FY 2003 
        level. Increased funding will enable the State Department to 
        advance national interests effectively through improved 
        diplomatic readiness, particularly in human resources.

  <bullet> The request completes the Secretary's three-year Diplomatic 
        Readiness Initiative to put the right people with the right 
        skills in the right place at the right time. New D&CP funding 
        in FY 2004 of $97 million will allow the addition of 399 
        professionals, providing a total of 1,158 new staff from FY 
        2002 through FY 2004.

  <bullet> The FY 2004 D&CP request also provides $646.7 million for 
        Worldwide Security Upgrades--an increase of $93.7 million over 
        last year. This total includes $504.6 million to continue 
        worldwide security programs for guard protection, physical 
        security equipment and technical support, information and 
        system security, and security personnel and training. It also 
        includes $43.4 million to expand the perimeter security 
        enhancement program for 232 posts and $98.7 million for 
        improvements in domestic and overseas protection programs, 
        including 85 additional agents and other security 
        professionals.
Capital Investment Fund (CIF):
  <bullet> The FY 2004 request provides $157 million for the CIF to 
        assure that the investments made in FY 2002 and FY 2003 keep 
        pace with increased demand from users for functionality and 
        speed.

  <bullet> Requested funding includes $15 million for the State 
        Messaging and Archive Retrieval Toolset (SMART). The SMART 
        initiative will replace outdated systems for cables and 
        messages with a unified system that adds information sharing 
        and document archiving.
Embassy Security, Construction, and Maintenance (ESCM):
  <bullet> The FY 2004 request for ESCM is $1.514 billion. This total--
        an increase of $209.4 million over the FY 2003 level--reflects 
        the Administration's continuing commitment to protect U.S. 
        Government personnel serving abroad, improve the security 
        posture of facilities overseas, and address serious 
        deficiencies in the State Department's overseas infrastructure.

  <bullet> For the ongoing ESCM budget, the Administration is 
        requesting $524.7 million. This budget includes maintenance and 
        repairs at overseas posts, facility rehabilitation projects, 
        construction security, renovation of the Harry S Truman 
        Building, all activities associated with leasing overseas 
        properties, and management of the overseas buildings program.

  <bullet> For Worldwide Security Construction, the Administration is 
        requesting $761.4 million for the next tranche of security-
        driven construction projects to replace high-risk facilities. 
        Funding will support the construction of secure embassies in 
        seven countries--Algeria, Burma, Ghana, Indonesia, Panama, 
        Serbia, and Togo. In addition, the requested funding will 
        provide new on-compound buildings for USAID in Ghana, Jamaica, 
        and Nigeria.

  <bullet> The ESCM request includes $100 million to strengthen 
        compound security at vulnerable posts.

  <bullet> The request also includes $128.3 million to construct the 
        new U.S. embassy building in Berlin.
Educational and Cultural Exchange Programs (ECE):
  <bullet> The FY 2004 request of $345.3 million for ECE maintains 
        funding for exchanges at the FY 2003 request level of $245 
        million and adds $100 million for projects for Eastern Europe 
        and the States of the Former Soviet Union previously funded 
        from Foreign Operations appropriations.

  <bullet> Authorized by the Mutual Educational and Cultural Exchange 
        Act of 1961 (Fulbright-Hays Act), as amended, exchanges are 
        strategic activities that build mutual understanding and 
        develop friendly relations between the United States and other 
        countries. They establish the trust, confidence, and 
        international cooperation necessary to sustain and advance the 
        full range of U.S. national interests.

  <bullet> The request provides $141 million for Academic Programs. 
        These include the J. William Fulbright Educational Exchange 
        Program for exchange of students, scholars, and teachers and 
        the Hubert H. Humphrey Fellowship Program for academic study 
        and internships in the United States for mid-career 
        professionals from developing countries.

  <bullet> The request also provides $73 million for Professional and 
        Cultural Exchanges. These include the International Visitor 
        Program, which supports travel to the United States by current 
        and emerging leaders to obtain firsthand knowledge of American 
        politics and values, and the Citizen Exchange Program, which 
        partners with U.S. non-profit organizations to support 
        professional, cultural, and grassroots community exchanges.

  <bullet> This request provides $100 million for exchanges funded in 
        the past from the FREEDOM Support Act (FSA) and Support for 
        East European Democracy (SEED) accounts.

  <bullet> This request also provides $31 million for exchanges 
        support. This funding is needed for built-in requirements to 
        maintain current services.
Contributions to International Organizations (CIO):
  <bullet> The FY 2004 request for CIO of $1.010 billion provides 
        funding for U.S. assessed contributions, consistent with U.S. 
        statutory restrictions, to 44 international organizations to 
        further U.S. economic, political, social, and cultural 
        interests.

  <bullet> The request recognizes U.S. international obligations and 
        reflects the President's commitment to maintain the financial 
        stability of the United Nations and other international 
        organizations that include the World Health Organization, the 
        North Atlantic Treaty Organization, the International Atomic 
        Energy Agency, and the Organization for Economic Cooperation 
        and Development.

  <bullet> The budget request provides $71.4 million to support renewed 
        U.S. membership in the United Nations Educational, Scientific, 
        and Cultural Organization (UNESCO). UNESCO contributes to peace 
        and security in the world by promoting collaboration among 
        nations through education, science, culture and communication 
        and by furthering intercultural understanding and universal 
        respect for justice, rule of law, human rights, and fundamental 
        freedoms, notably a free press.

  <bullet> Membership in international organizations benefits the 
        United States by building coalitions and pursuing multilateral 
        programs that advance U.S. interests. These include promoting 
        economic growth through market economies; settling disputes 
        peacefully; encouraging non-proliferation, nuclear safeguards, 
        arms control, and disarmament; adopting international standards 
        to facilitate international trade, telecommunications, 
        transportation, environmental protection, and scientific 
        exchange; and strengthening international cooperation in 
        agriculture and health.
Contributions for International Peacekeeping Activities (CIPA):
  <bullet> The administration is requesting $550.2 million for CIPA in 
        FY 2004. This funding level will allow the United States to pay 
        its share of assessed UN peacekeeping budgets, fulfilling U.S. 
        commitments and avoiding increased UN arrears.

  <bullet> The UN peacekeeping appropriation serves U.S. interests in 
        Europe, Africa and the Middle East, where UN peacekeeping 
        missions assist in ending conflicts, restoring peace and 
        strengthening regional stability.

  <bullet> UN peacekeeping missions leverage U.S. political, military 
        and financial assets through the authority of the UN Security 
        Council and the participation of other states that provide 
        funds and peacekeepers for conflicts around the world.
Broadcasting Board of Governors (BBG):
  <bullet> The FY 2004 budget request for the BBG totals $563.5 
        million.

  <bullet> The overall request provides $525.2 million for U.S. 
        Government non-military international broadcasting operations 
        through the International Broadcasting Operations (IBO) 
        account. This account funds operations of the Voice of America 
        (VOA), Radio Free Europe/Radio Liberty (RFE/RL), Radio Free 
        Asia (RFA), and all related program delivery and support 
        activities.

  <bullet> The IBO request includes funding to advance broadcasting 
        efforts related to the war on terrorism. The request includes 
        $30 million to initiate the Middle East Television Network--a 
        new Arabic-language satellite TV network that, once 
        operational, will have the potential to reach vast audiences in 
        the Middle East. The request also includes funding to double 
        VOA Indonesian radio programming, significantly increase 
        television programming in Indonesia, and expand BBG audience 
        development efforts.

  <bullet> The IBO request reflects the shifting of priorities away 
        from the predominantly Cold War focus on Central and Eastern 
        Europe to broadcasting in the Middle East and Central Asia. 
        Funds are being redirected to programs in these regions through 
        the elimination of broadcasting to countries in the former 
        Eastern Bloc that have demonstrated significant advances in 
        democracy and press freedoms and are new or soon-to-be NATO and 
        European Union Members.

  <bullet> The IBO request also reflects anticipated efficiencies that 
        achieve a five-percent reduction in funding for administration 
        and management in FY 2004.

  <bullet> The FY 2004 request also provides $26.9 million through 
        Broadcasting to Cuba (OCB) for continuing Radio Marti and TV 
        Marti operations, including salary and inflation increases, to 
        support current schedules.

  <bullet> The FY 2004 request further provides $11.4 million for 
        Broadcasting Capital Improvements to maintain the BBG's 
        worldwide transmission network. The request includes $2.9 
        million to maintain and improve security of U.S. broadcasting 
        transmission facilities overseas.

    That finishes the State and Related Activities part of the 
President's Budget. Now let me turn to the Foreign Affairs part.

    THE FOREIGN POLICY ADVISOR RESPONSIBILITIES: FUNDING AMERICA'S 
                       DIPLOMACY AROUND THE WORLD

    The FY 2004 budget proposes several initiatives to advance U.S. 
national security interests and preserve American leadership. The FY 
2004 Foreign Operations budget that funds programs for the Department 
State, USAID and other foreign affairs agencies is $18.8 billion.
    Today, our number one priority is to fight and win the global war 
on terrorism. The budget furthers this goal by providing economic, 
military, and democracy assistance to key foreign partners and allies, 
including $4.7 billion to countries that have joined us in the war on 
terrorism.
    The budget also promotes international peace and prosperity by 
launching the most innovative approach to U.S. foreign assistance in 
more than forty years. The new Millennium Challenge Account (MCA), an 
independent government corporation funded at $1.3 billion will redefine 
``aid''. As President Bush told African leaders meeting in Mauritius 
recently, this aid will go to ``nations that encourage economic 
freedom, root out corruption, and respect the rights of their people.''
    Moreover, this budget offers hope and a helping hand to countries 
facing health catastrophes, poverty and despair, and humanitarian 
disasters. It provides $1.345 billion to combat the global HIV/AIDS 
epidemic, more than $1 billion to meet the needs of refugees and 
internally displaced peoples, $200 million in emergency food assistance 
to support dire famine needs, and $100 million for an emerging crises 
fund to allow swift responses to complex foreign crises. Mr. Chairman, 
let me give you some details.
    The U.S. is successfully prosecuting the global war on terrorism on 
a number of fronts. We are providing extensive assistance to states on 
the front lines of the anti-terror struggle. Working with our 
international partners bilaterally and through multilateral 
organizations, we have frozen more than $110 million in terrorist 
assets, launched new initiatives to secure global networks of commerce 
and communication, and significantly increased the cooperation of our 
law enforcement and intelligence communities. Afghanistan is no longer 
a haven for al-Qaeda. We are now working with the Afghan Authority, 
other governments, international organizations, and NGOs to rebuild 
Afghanistan. Around the world we are combating the unholy alliance of 
drug traffickers and terrorists who threaten the internal stability of 
countries. We are leading the international effort to prevent weapons 
of mass destruction from falling into the hands of those who would do 
harm to us and others. At the same time, we are rejuvenating and 
expanding our public diplomacy efforts worldwide.

Assistance to Frontline States
    The FY 2004 International Affairs budget provides approximately 
$4.7 billion in assistance to the Frontline States, which have joined 
with us in the war on terrorism. This funding will provide crucial 
assistance to enable these countries to strengthen their economies, 
internal counter-terrorism capabilities and border controls.
    Of this amount, the President's Budget provides $657 million for 
Afghanistan, $460 million for Jordan, $395 million for Pakistan, $255 
million for Turkey, $136 million for Indonesia, and $87 million for the 
Philippines. In Afghanistan, the funding will be used to fulfill our 
commitment to rebuild Afghanistan's road network; establish security 
through a national military and national police force, including 
counter-terrorism and counter-narcotics components; establish 
broadbased and accountable governance through democratic institutions 
and an active civil society; ensure a peace dividend for the Afghan 
people through economic reconstruction; and provide humanitarian 
assistance to sustain returning refugees and displaced persons. United 
States assistance will continue to be coordinated with the Afghan 
government, the United Nations, and other international donors.
    The State Department's Anti-Terrorism Assistance (ATA) program will 
continue to provide frontline states a full complement of training 
courses, such as a course on how to conduct a post-terrorist attack 
investigation or how to respond to a WMD event. The budget will also 
fund additional equipment grants to sustain the skills and capabilities 
acquired in the ATA courses. It will support as well in-country 
training programs in Afghanistan, Pakistan, and Indonesia.

Central Asia and Freedom Support Act Nations
    In FY 2004, over $157 million in Freedom Support Act (FSA) funding 
will go to assistance programs in the Central Asian states. The FY 2004 
budget continues to focus FSA funds to programs in Uzbekistan, 
Kyrgyzstan and Tajikistan, recognizing that Central Asia is of 
strategic importance to U.S. foreign policy objectives. The FY 2004 
assistance level for Uzbekistan, Kyrgyzstan and Tajikistan is 30 
percent above 2003. Assistance to these countries has almost doubled 
from pre-September 11 levels. These funds will support civil society 
development, small business promotion, conflict reduction, and economic 
reform in the region. These efforts are designed to promote economic 
development and strengthen the rule of law in order to reduce the 
appeal of extremist movements and stem the flow of illegal drugs that 
finance terrorist activities.
    Funding levels and country distributions for the FSA nations 
reflect shifting priorities in the region. For example, after more than 
10 years of high levels of assistance, it is time to begin the process 
of graduating countries in this region from economic assistance, as we 
have done with countries in Eastern Europe that have made sufficient 
progress in the transition to market-based democracies. U.S. economic 
assistance to Russia and Ukraine will begin phasing down in FY 2004, a 
decrease of 32 percent from 2003, moving these countries towards 
graduation.

Combating Illegal Drugs and Stemming Narco-terrorism
    The President's request for $731 million for the Andean Counterdrug 
Initiative includes $463 million for Colombia. An additional $110 
million in military assistance to Colombia will support Colombian 
President Uribe's unified campaign against terrorists and the drug 
trade that fuels their activities. The aim is to secure democracy, 
extend security, and restore economic prosperity to Colombia and 
prevent the narco-terrorists from spreading instability to the broader 
Andean region. Critical components of this effort include resumption of 
the Airbridge Denial program to stop internal and cross-border aerial 
trafficking in illicit drugs, stepped up eradication and alternative 
development efforts, and technical assistance to strengthen Colombia's 
police and judicial institutions.

Halting Access of Rogue States and Terrorists to Weapons of Mass 
        Destruction
    Decreasing the threats posed by terrorist groups, rogue states, and 
other non-state actors requires halting the spread of weapons of mass 
destruction (WMD) and related technology. To achieve this goal, we must 
strengthen partnerships with countries that share our views in dealing 
with the threat of terrorism and resolving regional conflicts.
    The FY 2004 budget requests $35 million for the Nonproliferation 
and Disarmament Fund (NDF), more than double the FY 2003 request, 
increases funding for overseas Export Controls and Border Security 
(EXBS) to $40 million, and supports additional funding for Science 
Centers and Bio-Chem Redirection Programs.
    Funding increases requested for the NDF and EXBS programs seek to 
prevent weapons of mass destruction from falling into the hands of 
terrorist groups or states by preventing their movement across borders 
and destroying or safeguarding known quantities of weapons or source 
material. The Science Centers and Bio-Chem Redirection programs support 
the same goals by engaging former Soviet weapons scientists and 
engineers in peaceful scientific activities, providing them an 
alternative to marketing their skills to states or groups of concern.

Millennium Challenge Account
    The FY 2004 Budget request of $1.3 billion for the new Millennium 
Challenge Account (MCA) as a government corporation fulfills the 
President's March 2002 pledge to create a new bilateral assistance 
program, markedly different from existing models. This budget is a huge 
step towards the President's commitment of $5 billion in annual funding 
for the MCA by 2006, a 50% increase in core development assistance.
    The MCA supplement U.S. commitments to humanitarian assistance and 
existing development aid programs funded and implemented by USAID. It 
will assist developing countries that make sound policy decisions and 
demonstrate solid performance on economic growth and reducing poverty.

  <bullet> MCA funds will go only to selected developing countries that 
        demonstrate a commitment to sound policies--based on clear, 
        concrete and objective criteria. To become eligible for MCA 
        resources, countries must demonstrate their commitment to 
        economic opportunity, investing in people, and good governance.

  <bullet> Resources will be available through agreements with 
        recipient countries that specify a limited number of clear 
        measurable goals, activities, and benchmarks, and financial 
        accountability standards.

    The MCA will be administered by a new government corporation 
designed to support innovative strategies and to ensure accountability 
for measurable results. The corporation will be supervised by a Board 
of Directors composed of Cabinet level officials and chaired by the 
Secretary of State. Personnel will be drawn from a variety of 
government agencies and nongovernment institutions and serve limited-
term appointments.
    In FY 2004, countries eligible to borrow from the International 
Development Association (IDA), and which have per capita incomes below 
$1,435, (the historical IDA cutoff) will be considered. In 2005, all 
countries with incomes below $1,435 will be considered. In 2006, all 
countries with incomes up to $2,975 (the current World Bank cutoff for 
lower middle income countries) will be eligible.
    The selection process will use 16 indicators to assess national 
performance--these indicators being relative to governing justly, 
investing in people, and encouraging economic freedom. These indicators 
were chosen because of the quality and objectivity of their data, 
country coverage, public availability, and correlation with growth and 
poverty reduction. The results of a review of the indicators will be 
used by the MCA Board of Directors to make a final recommendation to 
the President on a list of MCA countries.

Africa Education Initiative
    With $200 million, the United States is doubling its five-year 
financial commitment to the African Education Initiative it launched 
last year. The initiative focuses on increasing access to quality 
education in Africa. Over its 5-year life the African Education 
Initiative will achieve: 160,000 new teachers trained; 4.5 million 
textbooks developed and distributed; an increase in the number of girls 
attending school through providing more than a quarter million 
scholarships and mentoring; and an increase African Education 
Ministries' capacity to address the impact of HIV/AIDS.

Increases in Funding for Multilateral Development Banks (MDBs)
    The FY 2004 budget provides $1.55 billion for the MDBs, an increase 
of $110 million over the FY 2003 request of $1.44 billion. This 
includes $1.36 billion for scheduled payments to the MDBs and $195.9 
million to clear existing arrears. The request provides $950 million 
for the International Development Association (IDA) for the second year 
of the IDA-13 replenishment, $100 million of which is contingent on the 
IDA meeting specific benchmarks in the establishment of a results 
measurement system. By spring 2003, the IDA is to have completed an 
outline of approach to results measurement, presented baseline data, 
and identified outcome indicators and expected progress targets. By 
that same time, the IDA is also to have completed specific numbers of 
reviews and assessments in the areas of financial accountability, 
procurement, public expenditure, investment climate, and poverty.

World Summit on Sustainable Development (WSSD)
    The WSSD engaged more than 100 countries and representatives of 
business and NGOs. Sustainable development begins at home and is 
supported by effective domestic policies and international partnerships 
that include the private sector. Self-governing people prepared to 
participate in an open world marketplace are the foundation of 
sustainable development. These fundamental principals guide the U.S. 
approach to Summit initiatives. At the 2002 Summit the U.S. committed 
to developing and implementing realistic results-focused partnerships 
in the areas of: Water for the Poor; Clean Energy; Initiative to Cut 
Hunger in Africa; Preventing Famine in Southern Africa; and the Congo 
Basin Partnership. At the end of the Summit new relationships and 
partnerships were forged and a new global commitment to improve 
sanitation was reached. The FY 2004 Budget supports these partnerships 
with $337 million in assistance funding.

The U.S.-Middle East Partnership Initiative
    The President's Budget includes $145 million for the Middle East 
Partnership Initiative (MEPI). This initiative gives us a framework and 
funding for working with the Arab world to expand educational and 
economic opportunities, empower women, and strengthen civil society and 
the rule of law. The peoples and governments of the Middle East face 
daunting human challenges. Their economies are stagnant and unable to 
provide jobs for millions of young people entering the workplace each 
year. Too many of their governments appear closed and unresponsive to 
the needs of their citizens. And their schools are not equipping 
students to succeed in today's globalizing world. With the programs of 
the MEPI, we will work with Arab governments, groups, and individuals 
to bridge the jobs gap with economic reform, business investment, and 
private sector development; close the freedom gap with projects to 
strengthen civil society, expand political participation, and lift the 
voices of women; and bridge the knowledge gap with better schools and 
more opportunities for higher education. The U.S.-Middle East 
Partnership Initiative is an investment in a more stable, peaceful, 
prosperous, and democratic Arab world.

Forgiving Debt--Helping Heavily Indebted Poor Countries
    The Administration request provides an additional $75 million for 
the Trust Fund for Heavily Indebted Poor Countries (HIPC). These funds 
will go towards fulfilling the President's commitment at the G-8 Summit 
in Kananaskis, Canada to contribute America's share to filling the 
projected HIPC Trust Fund financing gap. The HIPC Trust Fund helps to 
finance debt forgiveness by the International Financial Institutions 
(IFIs) to heavily indebted poor countries that have committed to 
economic reforms and pledged to increase domestic funding of health and 
education programs. In addition, the President's request provides $300 
million to fund bilateral debt reduction for the Democratic Republic of 
the Congo under the HIPC Initiative, as well as $20 million for debt 
reduction under the Tropical Forest Conservation Act (TFCA).
    The Administration believes that offering new sovereign loans or 
loan guarantees to indebted poor countries while providing debt 
forgiveness to those same countries risks their return to unsustainable 
levels of indebtedness--a situation debt forgiveness seeks to resolve.
    In order to address this situation, the Administration recently 
invoked a one-year moratorium on new lending to countries that receive 
multilateral debt reduction. U.S. lending agencies have agreed not to 
make new loans or loan guarantees to countries that receive debt 
reduction for one year. The measure will not be punitive. Should 
countries demonstrate serious economic gains before the end of the 
moratorium, lending agencies may, with interagency clearance, resume 
new lending. The Administration hopes that this policy will bring to an 
end the historically cyclical nature of indebtedness of poor countries.

American Leadership in Fighting AIDS and Alleviating Humanitarian 
        Hardships
    This budget reaffirms America's role as the leading donor nation 
supporting programs that combat the greatest challenges faced by many 
developing countries today. The FY 2004 budget proposes a number of 
foreign assistance initiatives managed by USAID and other federal 
agencies to provide crucial resources that prevent and ameliorate human 
suffering worldwide.

Fighting the Global AIDS Pandemic
    The FY 2004 budget continues the Administration's commitment to 
combat HIV/AIDS and to help bring care and treatment to infected people 
overseas. The HIV/AIDS pandemic has killed 23 million of the 63 million 
people it has infected to date, and left 14 million orphans worldwide. 
President Bush has made fighting this pandemic a priority of U.S. 
foreign policy.
    The President believes the global community can--and must--do more 
to halt the advance of the pandemic, and that the United States should 
lead by example. Thus, the President's FY 2004 budget request signals a 
further, massive increase in resources to combat the HIV/AIDs pandemic. 
As described in the State of the Union, the President is committing to 
provide a total of $15 billion over the next five years to turn the 
tide in the war on HIV/AIDs, beginning with $2 billion in the FY 2004 
budget request and rising thereafter. These funds will be targeted on 
the hardest hit countries, especially Africa and the Caribbean with the 
objective of achieving dramatic on-the-ground results. This new 
dramatic commitment is reflected in the Administration's $2 billion FY 
2004 budget request, which includes:

  <bullet> State Department--$450 million;

  <bullet> USAID--$895 million, including $100 million for the Global 
        Fund and $150 million for the International Mother & Child HIV 
        Prevention; and

  <bullet> HHS/CDC/NIH--$690 million, including $100 million for the 
        Global Fund and $150 million for the International Mother & 
        Child HIV Prevention.

    In order to ensure accountability for results, the President has 
asked me to establish at State a new Special Coordinator for 
International HIV/AIDS Assistance. The Special Coordinator will work 
for me and be responsible for coordinating all international HIV/AIDS 
programs and efforts of the agencies that implement them.

Hunger, Famine, and Other Emergencies
    Food Aid--Historically the United States has been the largest donor 
of assistance for victims of protracted and emergency food crises. In 
2003, discretionary funding for food aid increased from $864 million to 
$1.19 billion. That level will be enhanced significantly in 2004 with 
two new initiatives: a Famine Fund and an emerging crises fund to 
address complex emergencies.

  <bullet> Famine Fund--The FY 2004 budget includes a new $200 million 
        fund with flexible authorities to provide emergency food, 
        grants or support to meet dire needs on a case-by-case basis. 
        This commitment reflects more than a 15 percent increase in 
        U.S. food assistance.

  <bullet> Emerging Crises Fund--The budget also requests $100 million 
        for a new account that will allow the Administration to respond 
        swiftly and effectively to prevent or resolve unforeseen 
        complex foreign crises. This account will provide a mechanism 
        for the President to support actions to advance American 
        interests, including to prevent or respond to foreign 
        territorial disputes, armed ethnic and civil conflicts that 
        pose threats to regional and international peace and acts of 
        ethnic cleansing, mass killing and genocide.

                                SUMMARY

    Mr. Chairman, members of the committee, to advance America's 
interests around the world we need the dollars in the President's 
Budget for FY 2004. We need the dollars under both of my hats--CEO and 
principal foreign policy advisor. The times we live in are troubled to 
be sure, but I believe there is every bit as much opportunity in the 
days ahead as there is danger. American leadership is essential to 
dealing with both the danger and the opportunity. With regard to the 
Department of State, the President's FY 2004 budget is crucial to the 
exercise of that leadership.
    Thank you and I will be pleased to answer your questions.

    The Chairman. Thank you very much, Mr. Secretary. I want to 
use my 5 minutes to make comments, and maybe to ask a question 
if we have an opportunity.
    First of all, thank you for recognizing the work of our 
committee in forwarding the Moscow treaty to the floor of the 
Senate by unanimous vote. I would just say that the committee 
met on an urgent basis after an e-mail from Senator Biden and 
myself to be there at 10 so we could finish by 10:30 in order 
to hear you at the U.N.
    Secretary Powell. Any time that serves your purpose again, 
Mr. Chairman, I will go back to the U.N.
    Senator Biden. We may ask you to make a couple more major 
speeches to get a quorum.
    The Chairman. I thank all members of the committee. The 13 
here arrived quickly. A quorum was present. We had good really 
comments from a number of members, and action, and I hope we 
can get floor activity on the Moscow treaty. We alert all 
Members that we anticipate floor activity, and we hope we can 
do that during February.
    Let me also mention that I appreciate your budget item for 
nonproliferation. That, of course, will be matched and maybe 
exceeded by moneys in the Defense budget and the Department of 
Energy budget. Many Members will have committee 
responsibilities on this committee and elsewhere, but I would 
like the support of the Department as we consider how Nunn-
Lugar cooperative threat reduction efforts might relate to 
other countries. I do not want to extrapolate well beyond where 
our diplomacy may go, but there may come a time when, in 
working with North Korea, for example, we suggest that we might 
be helpful in securing weapons or materials of mass 
destruction, or helping in their destruction. It is not, I 
think, a far-fetched idea any more than it was with regard to 
the former Soviet Union at an earlier time.
    Likewise, we may be able to work with other friendly 
countries, India and Pakistan and others, who have developed 
these weapons. We find real responsibilities in securing all of 
the materials against those who would venture into their 
provinces, so I ask for your help to enlarge the scope of 
American diplomacy and the administration's understanding of 
the nonproliferation area.
    I compliment you on specifically mentioning 80,000 young 
people who have come to the Department to take the Foreign 
Service exam, and I will point out, and you witnessed this, Mr. 
Secretary, as you came into this caucus room today, there are 
tens, maybe hundreds of young people here in this hearing, or 
down the hallway trying to get into this hearing. That is 
great.
    The problem that I foresee here, however, is the one that 
you pointed out. For several years, we had no Foreign Service 
exam. There were no lieutenants or anybody else coming into the 
ranks, so that reports now have identified hardship posts at 
many of our diplomatic stations that are sometimes filled by 
officers that do not really have all of the normal 
requirements. That is one of the legacies of failing to 
recruit, of failing to ensure that the brightest come to the 
Department.
    Now, we have turned that around. What I hope, maybe, in 
more detail for the record than you may be able to offer now, 
is information on how we are meeting this hardship post 
situation, literally how, even given the problems that you 
have, you are filling in the toughest areas where many of these 
young people are going to be recruited to go, because that is 
of the essence in terms of our diplomacy.
    Likewise for the record, you have mentioned the 
communications situation which is so critical. You pointed out, 
correctly, that your address to the United Nations was sent out 
promptly to all of the embassies. You mentioned that even in 
your conversation with Foreign Minister Ivanov of Russia, you 
were able to talk about the Moscow treaty, and about action we 
were taking back here, even as you were about to take action at 
the U.N. That is tremendously important.
    But what I hope you can offer is more detail about how the 
money in this budget really brings our embassies all over the 
world up-to-speed, which during my visits were not up to speed 
in many ways. Commercial establishments of American businesses 
overseas move at much greater speed than does our Diplomatic 
Corps, and we really have to be on top of it.
    I would compliment you specifically, because in our visit 
this morning, you have mentioned, in addition to your speech to 
the United Nations, that you attended a luncheon with all the 
Security Council members and then visited one-on-one with 13 of 
them. Now, that is very important for the American people to 
understand. No amount of communication around the world will 
achieve this, but to augment your personal advocacy and 
leadership, this kind of message-carrying is just of the 
essence, so please detail for us so that we can be better 
advocates in this budget for those specific needs.
    Finally, just let me say, I hope you can help us in getting 
a plan for Afghanistan. Now, I appreciate, as is always the 
case, that a certain amount of ad hoc strategy-making and 
planning has to occur, but now we are in a situation, it seems 
to me, of the intermediate or the long run, in which there has 
to be some confidence that this country knows where it is 
going, and that other countries know where we are going.
    I think it is there somewhere, but I have not seen it, and 
so I hope that you will flesh out, with the Secretary of 
Defense or with others, an administration plan for Afghanistan, 
similar to how Senator Biden has talked about a plan for Iraq. 
We will be concentrating on Iraq Tuesday, and on Afghanistan, 
as I mentioned, on Wednesday.
    I have consumed my time, and therefore, I will not really 
ask you to use your time except if you want to make a short 
response.
    Secretary Powell. I will make a very short response, if I 
may, Mr. Chairman.
    With respect to hardship posts, we are working very hard on 
that. I hope you may have noticed an article in the newspaper 
not too long ago where the State Department is the No. 1 
Department in government in using forgiveness of student loans, 
or setting aside student loan obligations, for those who are 
willing to go to our hardship posts, and we are also once again 
communicating throughout the Department the culture of the 
Department. We go where we are sent. We are servicepersons. We 
are men and women who serve where service is needed, and we 
will take care of these hardship posts. But it is a lot easier 
when we are given the resources that we need in order to hire 
the people who are willing to take on these difficult jobs.
    People hear ``hardship post'' and they do not always 
understand what that means. It means you are asking a Foreign 
Service officer who might have a family, children, to go to a 
place where there are no schools, where there is no hospital in 
case your child becomes ill, and where the living 
accommodations are not near any standard you would like. We are 
asking people to go do that for their country, and the 
wonderful thing is, we do have people who do that, and will do 
that.
    I would like to just brag about one more thing. The last 
Foreign Service exam we gave, among those who passed the exam, 
38 percent were minority candidates. So we are working very 
hard to make our Foreign Service look like our country. The 
beautiful diversity that is the strength of this country should 
be reflected in the Foreign Service.
    As for information technology, we can go into that at 
another time in exquisite detail. It is a subject that I love 
very much. And with respect to our plan for Afghanistan, we are 
willing to spend much more time with the committee on it and, 
of course, you have the hearing next week. I think we should be 
very proud of what we have accomplished in Afghanistan in just 
a little over a year. There is a functioning government. They 
are slowly reaching out throughout the country. It is still a 
dangerous place, but not as dangerous as it used to be. It is 
not as out-of-control as people suggest. The glass is more than 
half-full, in my judgment, and with each passing day 
Afghanistan is becoming less and less of a crystal glass, and 
more of a beer mug that will withstand some of the pressures 
that we place upon it.
    Thank you, sir.
    The Chairman. Thank you, Mr. Secretary. I just have to 
pause to underline this remarkable statistic that you just 
shared with us. In this rigorous merit-based test for the 
Foreign Service, 38 percent who passed were minorities. That is 
an important point, and I appreciate your making that point.
    Senator Biden.
    Senator Biden. I would like to move the nomination of 
Secretary of State Powell for President of the United States.
    The Chairman. Easy there, Joe.
    Senator Biden. Boss, I like your style, and I think that is 
a very important statistic, a very important figure.
    Now, let me, since time is short, get right to it. There 
are so many questions to ask, we are going to submit a lot of 
these in writing. I know your staff is always available to us.
    Let me speak--and if you could give me a quick answer, I 
will try to make the first two questions very quick. Iraq. Are 
you looking that you are likely to have to submit a 
supplemental budget to us if we end up going to war? Because 
there is not anything in here.
    Secretary Powell. I am quite sure that, if the diplomatic 
effort for a peaceful solution is not attainable, and conflict 
is necessary, there will be a need for supplemental funds not 
only for the State Department, but for many other Departments 
as well.
    Senator Biden. Good. Well, I am sure of that as well. You 
are one of the Departments that I know is trying very hard to 
anticipate, although there is no way to know what the 
parameters of the needs may be if all peaceful means are 
exhausted and we go to war. I hope you will keep us informed 
through Deputy Secretary Armitage of what those general 
parameters are. I know you are not waiting just to think, well, 
let us see what happens. You are gaming this out, just as the 
military is gaming out what they may need to do if they have to 
go, and it would be useful for us, I believe, as a committee, 
even if all members do not want to be bothered with that, to 
let us know as you think this through so we can be prepared to 
be helpful if we get there.
    Secretary Powell. We are thinking it through now, Senator.
    Senator Biden. The second point, I am disappointed that 
although the moneys, the export control and border assistance, 
the science and bio programs that are within the NADR account, 
they are about what they were in 2003, but they are below what 
was appropriated in 2002. I think that should be, in my view--I 
would just warn you, I think, but I will follow the lead of the 
chairman. I think that should be increased, but I just wanted 
to give you a heads-up on that.
    Let me go to something you said yesterday in your speech. 
It does not directly relate to the budget. You devoted a 
section of your presentation to the ties between Iraq and al-
Qaeda, and you identified a ``poison and explosive training 
center camp,'' I think that was the quote, in northeastern 
Iraq.
    When the good Senator from Nebraska and I sat in a car for, 
all told, 11 hours, 7 of which was in the mountains of Iraq, 
northern Iraq just a couple of months ago, or a month ago, we 
met with the Barzani and Talibani clans. We met with a whole 
lot of people, and they were telling us about their concern 
about what was going on on the Iranian-Iraqi border, which you 
spoke to yesterday, and last August, there were news reports 
that suggested U.S. officials were aware of a plant in the 
region that produced deadly toxin, or ricin, yet the same 
report said that the United States called off a strike against 
that Ansar al-Islam facility.
    In addition, officials of the Patriotic Union of Kurdistan, 
whom we met, whose territory borders the Ansar pocket, say that 
they informed U.S. officials of an al-Qaeda presence in 
September 2001, and I would ask my friend from Nebraska to 
correct me if my recollection is wrong about what we were being 
told when we addressed the so-called Kurdish parliament. 
Today's New York Times carries a story based upon an interview 
yesterday in Norway with Mullah Krekar, the purported leader of 
the Ansar group.
    And so my question is, if you know, how long has the 
administration been aware of this presence in northeastern 
Iraq, and if Ansar is so dangerous, and a key part of the link 
between al-Qaeda and Saddam, why had we not taken direct 
military action--it is in the ``no-fly zone''--against that 
group, or, alternately, urged and supported the Patriotic Union 
of Kurdistan to eliminate Ansar? Can you give us an answer to 
that?
    Secretary Powell. I cannot specifically comment on the 
information you were given about September 2001 and what was 
reported to us at that time, and there are other agencies 
involved.
    Senator Biden. We were not told--let me make clear, I was 
not told by the Kurds with whom we met for 24 or more hours 
that they told the State Department, or the Defense Department 
in 2001, but at the time we were there, which was at the end of 
this past year, in December, we were told about that 
connection, so I am not making the case that they told us in 
2001.
    Secretary Powell. We have been monitoring that location, 
and been closely monitoring who has been going in and out of 
that place. It has been occupied and unoccupied since last 
summer. We have had conversations about it. I would rather not, 
in this setting, go into what contingency plans we have looked 
at, or what we might or might not have done. But I can assure 
you that it is a place that has been very much in our minds, 
and something we have been studying very carefully. And we have 
been tracing individuals who have gone in there and come out of 
there, and that is why I was able to make the presentation that 
I made yesterday.
    But with respect to specific military contingency plans we 
might have had, which might still exist, I would rather not go 
into any detail in this setting.
    Senator Biden. Well, I hope either yourself, or you would 
provide someone from your Department who is able to do that for 
us on a classified basis.
    Let me conclude, Mr. Chairman, by asking one ancillary 
point. If Ansar is such a threat, why is its purported leader 
walking around free in Norway, giving interviews, and the 
reason I asked the question is, it is the only thing out there 
that sort of undercuts our sense of urgency.
    You made a very compelling case yesterday, and I remember 
sitting watching it with my staff, and one of my staff members 
turned and said, ``look, we have got reconnaissance photo 
there. It is in the `no-fly zone.' We could take that out in a 
heartbeat. Why have we not taken it out?''
    My staff did not question what it was, but I am confident 
that there are people around the country and the world going, 
if this was so bad, if this is as bad as we are purporting it 
to be, why is the head of this outfit giving interviews in the 
Norwegian press, walking around Norway, as well as why have we 
let it sit there if it is such a dangerous plant, producing 
these toxins? It would be useful to have, on the record or off 
the record, an answer to that.
    Secretary Powell. I think in a classified setting we can go 
into greater detail on that issue, sir.
    Senator Biden. Thank you, Mr. Secretary.
    The Chairman. Thank you, Senator Biden.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you, and again, Mr. 
Secretary, welcome. We all add to the recognition that has been 
appropriately given to you today, and your team, for your 
presentation yesterday.
    What struck me as much as anything yesterday about what you 
said and how you said it was that I believe the world saw a 
very wise, thoughtful, and cautious America, and if we are to 
continue to enhance our relationships around the world, work 
with our allies and through our coalitions of common interest 
to focus on this great curse of mankind, terrorism, that it is 
going to require the kind of relationships and presentations 
that you showed very completely yesterday to the world, so I 
compliment you and your team, Mr. Secretary, for what you did 
for our future, as well as our present.
    You said something in your statement, as did the President 
in his State of the Union Message the other night--in fact, if 
I recall, he ended with something like, these great 
opportunities abound today in the world. Probably never in the 
history of man have we seen such possibilities as we see today 
for good. Now, we understand the uncertainties and great 
dangers and complications of the kind of world we live in 
today, and my question is this. Iraq is a problem. It is a 
concern. It is a threat. It is a challenge that has never been, 
I do not believe, the question, or you have never had to make 
that point.
    There are other urgent threats to our security around the 
world. North Korea. I would list the Middle East. I am 
concerned about what is not happening in Israel, with the peace 
plan. We have allowed that to drift. We have deferred that. We 
have got problems south of our border, big problems. You have 
mentioned some of these. We have great challenges still in 
Afghanistan. The India-Pakistan issue is, I think, of great 
urgency.
    You did not make these problems, but you and the President 
and your team must deal with them, and I would appreciate, Mr. 
Secretary, you assuring this committee that if we go to war in 
Iraq, then the leadership and resource capacity of this 
country, and the focus, will not be turned completely on just 
Iraq, and we allow North Korea, the Israeli-Palestinian problem 
and all these other urgent issues that will not get better to 
drift until we get back to them, and I would be interested in 
your thoughts about that.
    You have surely thought that through. The President has 
surely thought this through, has talked to his senior advisors 
like you, again going back to, at least in my opinion, a common 
denominator, why our allies are so critical, because we cannot 
do it all alone.
    Secretary Powell. Thank you, Senator Hagel. We do not have 
the luxury of only dealing with one issue at a time. We deal 
with all of the issues that you mentioned, and none are being 
ignored. In my bilateral meetings over the last 36 hours, or 48 
hours in New York, a lot of time was spent on North Korea. The 
night before last, when I probably should have been spending 
more time getting ready for my presentation, I had an hour-long 
meeting with the Chinese Foreign Minister, my colleague, 
Foreign Minister Tang, and most of that meeting was devoted to 
North Korea.
    China has a unique relationship with North Korea, and we 
spoke about how to find a way forward to work for a solution to 
this problem. And yesterday, in a conversation, after my 
speech, with Foreign Minister Ivanov, most of that time was 
spent on North Korea. So we are not ignoring these issues. We 
are deeply engaged in these issues. We are in touch with the 
North Koreans through a variety of channels, and while we note 
what the North Koreans have said about the reactor start, it is 
not clear whether it has. But I expect they will start it if 
they have not started it by now.
    We also note that traffic began moving yesterday between 
North and South Korea through one of the openings through the 
DMZ that we have been working to achieve, and to get worked out 
between the two sides, so there are a lot of things that are 
going on, and not each one of these issues requires the same 
set of tools or the same set of solutions.
    And you talked about the Middle East. A good part of 
yesterday was also spent on the Middle East, talking to my 
various colleagues, the Russian Foreign Minister as well as, 
for example, the Foreign Minister of Chile, who is very 
interested in the Middle East, surprisingly to some, perhaps, 
because of the large Palestinian and Jewish populations that 
live in Chile. And so I once again reaffirmed our commitment to 
the ``road map.'' I took note of the fact that the President 
supports the ``road map,'' and now that the Israeli election is 
over, I expect in the near future we will be moving forward on 
a ``road map.'' I know the President intends to take a more 
active role in finding a way forward with the Middle East peace 
process.
    I spent a great deal of time over the last several days on 
the India-Pakistan issue, met again for the second time in 5 
days with the Foreign Minister of Pakistan to discuss these 
issues and talk about the fact that we managed to calm things 
down last year. We do not want to see spring come and tensions 
escalate again across the line of control, and that has been a 
subject of considerable discussion.
    You mentioned our own hemisphere. In December, I traveled 
to Mexico, I traveled to Colombia just for that reason, to let 
them know that we have not forgotten them, and that we are 
working with President Uribe. I spent time with President Uribe 
in Bogota to go over his programs and to go over his plan and 
to tell him that the United States will be there to support 
him.
    So it is a very complex, difficult world, but I think that 
we are able to deal with these issues, and no one issue can be 
allowed to block out consideration or the use of our leadership 
and our political and economic and military forces to think 
about and deal with other issues in other parts of the world.
    Senator Hagel. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hagel.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman, and Mr. 
Secretary, welcome, and let me join with the chairman and the 
ranking member and commend you for a splendid performance 
yesterday before the United Nations. You just did a first-rate 
job and made all of us proud. Tremendous work you did. I 
certainly, like many here, never doubted whether Iraq possessed 
weapons of mass destruction at all, and I think the evidence 
you presented yesterday was very effective in a systematic way.
    The next task you have in a sense, since this has fallen 
largely on your shoulders, although I think others ought to 
share with it, is obviously laying out very clearly to the 
American public and to the international community to seek 
support for Resolution 1441, and to lay out what the 
enforcement is going to entail, how much it is going to cost, 
what the dangers are involved in all of this. I think you are 
in a unique position to do that. I think others could help you 
do it, but it really needs to be done so that people understand 
all that will be involved in this if that is the course of 
action we are going to take.
    Let me sort of pick up, if I can, on the point that Senator 
Hagel has raised, and Senator Biden did as well. We had a very, 
very good hearing the other day. Secretary Armitage was there 
and did a fine job. We then heard from three of your colleagues 
that you have known over the years, Ambassador Bosworth, Don 
Gregg, and Ash Carter, who just did a first-rate job before the 
committee in talking about North Korea.
    Their testimony was excellent, and I know you have had a 
lot of things to do in the last few days, so you probably have 
not had a chance to look at that testimony, but to the extent 
on one of these trips in the next few days you get a chance to 
read some stuff, or even a synopsis of it, I think you would 
find it tremendously worthwhile.
    I do not want to put words in their mouths, but their 
concern was, in a sense, the question obviously raised, we have 
reached the conclusion that there is an imminent threat, at 
least, that is, the appearance of an imminent threat in Iraq, 
necessitating a real possibility of a military response rather 
soon.
    The question that they raised is, when you consider the 
events in North Korea--and I do not need to lay them out, all 
the--lack of inspections; the million-man army; the obvious 
movement we are now painfully aware of fissile materials; the 
real danger of getting plutonium is a matter of deep, deep 
concern, even some information yesterday, which even adds more 
alarm to all of this--the question is not relative, why does 
one issue seem to be more important, but the issue of when and 
how soon could we get to some bilateral talks here, not that 
that necessarily is the answer, and I have listened to your 
response in the past. You do not want to be blackmailed into 
talks, obviously.
    But clearly, there is a mounting sense of danger here on 
the Korean Peninsula that really does demand, it would appear 
to many of us, a more serious response to this than we seem to 
be giving, and I just listened to you talk about meetings you 
had yesterday in addition to your presentation before the 
Security Council with other Foreign Ministers, a lot of it 
spent on North Korea, as I listened to you explain it, but I 
think it might be helpful to us, having listened to these three 
individuals who really are concerned about what appears to be a 
lack of direct talks here to see if we cannot diffuse this 
situation, and I think those feelings are held by a lot of us 
as well, and I wonder if you might respond to that.
    And then, when we come around--I do not know if we are 
going to have a second round, Mr. Chairman, but I really do 
want to pick up on this hemisphere a bit. You know my strong 
interest in it, and I appreciate some of the things that are 
being done with Venezuela, Argentina, Colombia, Brazil. There 
is a long list of major, pressing issues that need to be 
addressed.
    Well, I am not going to get both in. Let me stick with the 
first one, and I will find some time to come back to the second 
one.
    Secretary Powell. I have the greatest respect for the three 
individuals you mentioned, and I fully appreciate and 
understand the anxiety that exists in town and elsewhere around 
the world about this situation. And we have indicated to the 
North Koreans that we are willing to talk to them.
    Frankly, when I started the discussions with the North 
Koreans last summer in Brunei, I made it clear to the Foreign 
Minister, who I met with at that time, that the United States 
wanted to engage in a discussion, but we had to deal with these 
basic issues. Now, the response from the North Koreans to date 
has been, we will only talk to you. No one else has any 
interest, and you have to talk to us, and we do not care what 
anyone else thinks. And until you talk to us, we are just going 
to keep moving in this direction.
    Well, I understand that position, but it does involve other 
nations. North Korea is a more direct threat to South Korea, 
and to China, and to Russia, than anyone else. Now, those 
nations are also encouraging us, ``quick, quick, talk to the 
North Koreans.'' But I have to lean back and reflect on how we 
got where we are.
    We talked to the North Koreans back in 1993 and 1994, and 
we came up with the Agreed Framework between the United States 
and the DPRK, a bilateral agreement. And that bilateral 
agreement served, for a period of 8 years, to keep any more 
plutonium or weapons from being developed at that particular 
compound, or complex. And I have given credit publicly to the 
previous administration for their success in that regard.
    But what we discovered is that, while we were celebrating 
that success and thinking we had bottled something up--put the 
genie back in the bottle and put the cork back on the bottle--
unbeknownst to the previous administration and unbeknownst to 
us for the first year or so of this administration, is that the 
North Koreans were off somewhere else busily building another 
bottle with another genie. And there was no cork in it, when 
they started doing work on enriched uranium. So they had lost 
none of their desire and none of the motivation that they still 
had to develop a nuclear weapon.
    And then when we discovered it and faced them with this 
evidence, they admitted it, they acknowledged it. Even though 
they are claiming now they did not, they did. They acknowledged 
it. And in response to our saying, ``you have got to do 
something about this or we cannot move forward,'' they said, 
``well, we will show you how the game is played.'' They pulled 
the cork out of the other bottle and let the genie out.
    We are prepared to engage with the North Koreans, and we 
are prepared to talk to them. But what we cannot find ourselves 
in a position of doing is essentially panicking at their 
activities and their demands that you ``have to discuss this 
with us in only the way that we say you should discuss it with 
us.'' We believe that this time, when we get the corks back 
into the bottles, the bottles have to be removed as well. And 
this is going to be a long and difficult process to accomplish 
this. And it is going to take the entire international 
community working together.
    The IAEA condemned North Korea's actions a few weeks ago; 
35 nations and the Board of Governors condemned those actions. 
It is appropriate for that condemnation to now be brought 
forward to the Security Council. And we do not believe it is an 
unreasonable position on our part to say to the North Koreans, 
``we want to talk to you, we are willing to talk to you, we 
have no intention of attacking or invading you.'' The last 
thing we want is to see that kind of conflict start on the 
Korean Peninsula. We are very sensitive to the concerns of our 
South Korean friends, and Japanese friends, and Russian and 
Chinese friends. But we all have to work together to find a way 
forward.
    And it has only been a few months since this diplomatic 
problem has been on our agenda. And we have been working the 
issue, and I still think it is possible to achieve a diplomatic 
solution. We have tried to lower the rhetoric. We have tried to 
understand what they want. But they need to understand clearly 
what they have to do in order to resolve this problem. So while 
I am sensitive to the charge that, ``you have got to start 
talking to them right away or else they will do something that 
will be more troubling and destabilizing,'' I think it is 
essential that we do it in a way that keeps all of our allies 
together and let our allies know, and our friends know, and our 
partners in the region know that they have a responsibility as 
well to persuade the North Koreans that they have to behave 
correctly.
    It is the Chinese President who said, ``Chinese policy is 
not to accept the nuclearization of the Korean Peninsula.'' If 
that is the Chinese position, and it is, then they have 
something of a responsibility and obligation to play a role in 
finding a way forward, and not simply saying, the United States 
has to solve this by talking directly.
    We will talk directly. We do have communications with them, 
and those communications are regular, and we are still looking 
for the right formula to move forward, give them the security 
guarantees that they say they would like to have, and say they 
must have. But at the same time, we are not going to just say, 
``you have got these guarantees,'' and then hope they will 
satisfy our concerns and the world's concerns about what they 
have been doing with respect to plutonium activities and 
uranium enrichment.
    Senator Dodd. In fairness--and my time is obviously up--but 
in fairness to the three of them, I do not think that was quite 
their position, but nonetheless I would urge you to take a look 
at what they stated, nor has anyone suggested that somehow 
North Korea is not culpable here at all, obviously.
    But just one quick point I would raise with you just 
quickly, and that is whether or not in retrospect in your mind, 
I mean, obviously, looking back at some of the things that we 
have done and said over the last couple of years, in your view, 
in retrospect, looking back, could we have done this a little 
differently? Have we in some way maybe provoked some of this 
situation we are finding ourselves in today? In retrospect, 
looking back, we might have done things a little differently, 
and I will not ask what differently, but just in your view, is 
that a fair criticism?
    Secretary Powell. Yes. In retrospect, they started this 
enrichment activity to find ways to enrich uranium and violate 
the understandings of the North-South nuclear agreement, the 
Agreed Framework. All of this began long before this 
administration came in and said a single word about it.
    If anything, the very fact that this administration came in 
with a rather skeptical point of view with respect to North 
Korea's activities and the verifiability of what they were 
saying, in retrospect, seems to have been an appropriately 
skeptical attitude. And we studied it. We took a look at it for 
over a year, and then the President made it clear that he 
wanted a bold approach with the North Koreans. But that bold 
approach could only be followed up on if we made it clear to 
the North Koreans that we knew what they were doing, and it had 
to stop. And they had to come back into compliance with the 
obligations that they had entered into during the period of the 
Agreed Framework, the North-South agreement of the early 1990s. 
And only then could we talk about economic assistance. Only 
then could the Japanese do what they wanted to do with respect 
to normalization. Only then could the South Koreans really 
engage the North Koreans to help the North Korean people.
    The President has made it clear time and time again, we 
want to help the North Korean people, who are starving, who are 
in economic distress. But we have to find a way to do it that 
does not suggest to the North Koreans that we are doing it 
because they have this tool, this weapon that they use, of 
nuclearization of the peninsula as a way to get us to do it 
because we are threatened by them. We have to do it on the 
basis of, ``you get rid of this type of program, you stop 
moving in this direction, you stop the proliferation, you stop 
selling weapons of mass destruction and missile parts to other 
nations around the world, and you do something about this 
million-man army that is bankrupting you, and hanging over the 
38th parallel, and you will find a world that is waiting to 
assist you with the basic, fundamental, economic problems that 
you have inside that country.''
    Senator Dodd. Thank you very much, Mr. Chairman. I would 
just suggest at some point we might want to have a longer 
conversation on this. There are some disagreements about the 
background of this. This is not the time or place, obviously we 
have other issues, but I would hope soon, Mr. Chairman, we 
might find a forum even in a closed-door setting with the 
Secretary to go over some of this. This is a troublesome, 
troublesome setting for many of us here.
    Thank you.
    Senator Biden. Mr. Chairman, may I have 20 seconds to 
correct the record? When I was talking about Ansar, my staff 
pointed out I said it was in the area of ``the `no-fly zone.' 
'' It is in the area controlled by the PUK. It is just due east 
of Kirkuk, in the zone controlled by the Kurds, but it is below 
the ``no-fly zone.'' I wanted to correct the record.
    The Chairman. Thank you, Senator Dodd and Senator Biden, 
and I would just assure the Senator we will be discussing North 
Korea, both probably in front of the cameras and behind the 
cameras, because it is an ongoing pursuit along with our 
consideration of Iraq and Afghanistan and nonproliferation.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, very much. I cannot imagine what your days are like, 
so thank you for appearing here this morning, and forgive us 
for deviating a little bit from the budget, but I would like to 
followup on your answer to Senator Hagel and what is happening 
in the Middle East, and where we are going with a ``road map,'' 
and how you might comment on Prime Minister Sharon's 
dismissiveness of the ``road map.''
    I think he went so far as to say ``no, that does not mean 
anything, we have another plan.'' What is happening in Israel?
    Secretary Powell. I do not know what other plan has been 
referred to by various officials and figures. What we are 
working on is a road map that we have developed working with 
the United Nations, working with the Russian Federation, and 
working with the European Union.
    A solution to the problems in the Middle East will take the 
entire international community working together. That is why we 
formed the quartet, and why we believe the quartet has been 
doing valuable work. We have shared earlier drafts of a road 
map with both sides.
    Both sides have things they agree with, and things they 
totally disagree with within the ``road map.'' That should not 
surprise anybody. And the President made the correct decision 
several weeks ago, after we met with the quartet again, that in 
light of the Israeli election and the uncertainty associated 
with the election, we should finish our work or come close to 
finishing our work--it is still in draft--on the ``road map.'' 
And then after the Israeli election, and at a time in the very 
near future to be determined by the President, we should make 
the road map available to both parties and the world for debate 
and consideration, and for the kind of discussions that will be 
necessary to move forward.
    But the President's policy remains the same. He is 
committed to the vision he outlined to the world on 24 June 
last year which also picked up the important initiative of 
Crown Prince Abdullah of Saudi Arabia. And that vision remains 
the same: to find a way to reach the creation of a Palestinian 
State living side-by-side in peace with Israel--the Republic of 
Israel, a Jewish State, and to also find a way to get to that 
vision initially by ending the violence, ending the terror, 
bringing that under control, getting that stopped, 
transformation of the Palestinian Authority, and bringing 
forward new leaders on the Palestinian side who have committed 
to peace and committed to ending violence, and that still 
remains the President's vision. And his instructions to me have 
not changed since 24 June, when he gave his speech.
    Senator Chafee. How do you think the other interested, 
legitimate parties in the Middle East are reacting to our 
seemingly hands-off approach? The elections are now over, and 
we are still waiting for the specifics of the ``road map.'' It 
seems, from what we hear, or what I hear, that there is a deep 
concern about our lack of involvement.
    Secretary Powell. We are staying in very close touch with 
our friends in the Middle East. We have had a number of 
delegations here recently. I have been in contact with all of 
my colleagues in the quartet. There is a sense of anticipation, 
and there is hope that this will come forward soon, the road 
map and the President's solid support behind that road map in a 
public way. And I think it is going to happen in the not-too-
distant future.
    The Israeli election is now over. Prime Minister Sharon is 
in the process of forming a government. And I hope that we will 
see movement in the very near future. I have not yet had a 
chance to discuss with the President how we will move forward 
with the ``road map,'' but I expect to do that in the next few 
days.
    Senator Chafee. One last followup on Prime Minister 
Sharon's reaction, or his comments. Where do we go if there is 
such obstruction to the President's initiative from Prime 
Minister Sharon?
    Secretary Powell. We will see what level of debate, 
disagreement and agreement is with the road map once it is 
finally out there. One listens to statements from both sides 
from day to day, and I take them in stride. I listen to them 
carefully and take them under advisement. We will see where we 
go once the President is ready to put forward the road map in a 
formal way, and the quartet is ready to put it forward. And we 
will see what both sides are--how they both respond at that 
time.
    Senator Chafee. In the last few seconds, when he said, ``we 
have another plan,'' does that have anything to do with what we 
are doing in Iraq?
    Prime Minister Sharon was dismissive of the road map, and 
he said, ``we have another plan.''
    Secretary Powell. I am not familiar with his other plan.
    Senator Chafee. Very good.
    The Chairman. Thank you, Senator Chafee.
    Senator Kerry.
    Senator Kerry. Mr. Chairman, thank you very much.
    Mr. Secretary, I join my colleagues in thanking you for 
your presentation yesterday, for its quality and its content. I 
think that we are all gratified that the administration finally 
came to the United Nations and made its case to the world, and 
many of us have said that the hard diplomatic work, and the 
work of educating America have been too long in the coming.
    I think the road would have been much easier for you to 
this moment, and I think the road would be easier in the days 
ahead had the administration listened to you. I know your 
position has always been to try to maximize that international 
effort, and I think this is a vindication of your position and 
of the many of us here in the Congress who long pushed for 
something less unilateral and more of the hard work of 
diplomacy.
    I do not want to go into--I think the case you made 
yesterday speaks for itself, and those who look for a smoking 
gun, there is really a kind of a smoking gun. I mean, it does 
not have to be the gun itself that is smoking. It can be 
evidence which makes clear the effort to move the gun around 
before it is actually smoking, and I think you made a very 
powerful case with respect to that, and that is important here, 
and people need to look at it dispassionately, nonpartisanly, 
and with the security interests of our country in mind.
    I am concerned about the work ahead to maximize the 
international effort here, and I know you are, too, and I know 
you are going to be engaged in that.
    I also would say, and I think it is important for all of us 
to say this, that there is an enormous burden on the United 
Nations at this point to live up to its responsibilities, and I 
think those of us who care about multilateral institutions 
cannot just talk about them in the abstract. They have to 
perform. They have to step up to their moment, and I think this 
is one of those moments.
    If Saddam Hussein cannot convince the world, and I think it 
would be very difficult, maybe he can, and I would like you to 
share with us if you think there are specific ways that he 
could, in fact, live up to the standard that you have set, 
given the difficulties of inspections. That is sort of question 
number 1, if I may.
    But I want to ask--because time runs so rapidly here, I 
really want to ask you about this question that has been raised 
by colleagues on North Korea. There has been a little bit of 
revisionism here, if I may say so, Mr. Secretary, politely, 
because there has been a history of the review process of the 
administration, and indeed, I think in 2001 there were some 
changes made in the approach, not to mention the increased 
heightening of rhetoric, the sort of axis of evil, and pygmy 
dictator, and other such things.
    None of this precludes responsibility from North Korea for 
breaking the agreement, I understand that, but in late 2000, 
the heavy procurement efforts for material linked to the highly 
enriched uranium program became known. In November of 2001, 
Lawrence Livermore's secret report on the highly enriched 
program was part of the ongoing intelligence assessment, and in 
June of 2002 the pieces came together, and top officials 
concluded they were cheating.
    Here we are now, in 2003, and basically, the administration 
has taken all of its options off the table, the option of 
military, the option of sanctions, the option of talking for a 
long time. Now we are talking, but what is really dangerous, 
what makes this more dangerous than 1994, is that the 
reprocessing of plutonium is the critical measurement. That is 
the demarcation line here, and that is the decisive step before 
the development of weapons. Once the plutonium is reprocessed, 
the genie is out of the bottle.
    Now, there is enough plutonium from existing fuel rods that 
have been under international control since 1994 to make 5 to 6 
nuclear weapons within 6 months, and six more the next year. If 
the North Koreans resume and complete work on two other 
reactors that were shut down in 1994, a 50-megawatt reactor and 
a 200-megawatt reactor, they could be making enough plutonium 
for dozens of nuclear weapons each year, a literal plutonium 
assembly line.
    Now, why do I stress that? Well, Mr. Secretary, this sort 
of takes you back to cold war potential. This goes beyond the 
capacity to have a suicide mission, where they lob a couple, or 
engage in a couple. It gives them the capacity to have a 
second-strike capacity, which puts you in a very different 
structure.
    Second, it has a profound impact on the cascading effect of 
nuclear proliferation in the region in northeast Asia. Japan, 
South Korea, China, India, Pakistan, all are impacted by the 
lack of resolve of this, and it is more dangerous because we 
know that this material can be sold. Even the weapons 
themselves, to al-Qaeda and other efforts. Unlike Iraq, and I 
emphasize this, North Korea has an established record of 
selling weapons technology widely and indiscriminately, 
obviously.
    And many South Koreans have now come to interpret this 
struggle as not a struggle between them and North Korea, but a 
struggle between North Korea and the United States, and that 
is, in fact, something that North Korea is exploiting, so I 
think the administration has sort of left this fuzzy. I mean, 
they are saying we do not want nuclear weapons, but it is not 
the nuclear weapons, it is the reprocessing, and for a long 
period of time we were exchanging oil for the knowledge that 
they were not reprocessing.
    I think every American would buy the exchange of oil for 
non-nuclearization of the region. That is what we had. The 
lifting of the cameras and the lifting of the inspectors has 
deprived us of that, and yet there is no sense of sort of the 
demarcation line on the processing, and no clarity from the 
administration about what option is, in fact, on the table and 
how we will proceed.
    Former Ambassador Galluci and Sandy Berger have made one 
proposal of a bargain. Others have made another proposal, I 
believe Michael O'Hanlon at the Brookings.
    So could you share with us, is the line worth drawing on 
reprocessing? If it is, how does the administration intend to 
do that, and why are we not moving more aggressively with 
respect to that threat, where it is more real in terms of the 
long-term threat of nuclearization than the current threat in 
Iraq, which I agree is a threat, and is one we have to deal 
with, but it is a different kind of threat.
    Secretary Powell. No options have been taken off the table, 
the option of sanctions, the option of additional political 
moves, and no military option has been taken off the table, 
although we have no intention of attacking North Korea, the 
President said that, or invading North Korea. But the President 
has retained all of his options.
    And yes, we are concerned about the step of reprocessing. 
In fact, that was the subject of the bulk of my discussions 
yesterday with my Russian, and the night before, with my 
Chinese colleagues, because I recognize the importance of that 
step. But at the same time we have to take note of the simple 
fact that even if you had plutonium facilities still bottled up 
with cameras and seals and everything else, the reality is that 
long before we came into office, they had already decided to 
try to find another way to develop the very materials that are 
of concern to us, in this case through the enrichment of 
uranium. And so they had not abandoned, even though we were 
keeping our eye on Yongbyon, they had not abandoned their basic 
intention to develop fissile material that could be used in 
nuclear weapons.
    And as we solve this problem, and it is not just a problem 
of Yongbyon, it has to be solved in a way that we see to the 
denuclearization of the Korean Peninsula. And the very fact 
that Yongbyon was left in a manner that the seals could be 
removed and it could be restarted, because the Agreed Framework 
did not provide for the elimination and removal of all of the 
cells until long after the light water reactors were up and 
running and, you know, it was a future arrangement, left this 
danger there all along. And so I still think it is possible to 
find a diplomatic solution, working with our friends.
    The South Koreans, the ones I have spoken to, and my 
assessment of the new President-elect, and my conversations 
with one of his principal advisors the day before yesterday 
suggest that they realize it is not just a problem between the 
United States and North Korea. They want us to do more, as he 
said, publicly, and we are prepared to do more. But at the same 
time, we have to find a complete solution to this problem that 
involves Yongbyon, and enriched uranium, and not leaving in 
place those elements that could be right back into operation 
and presenting us a problem 3, 4, 5 years from now.
    And what we are communicating to the North Koreans in every 
way that we can, through all manner of channels, both public 
and private channels and direct conversations, is that ``we 
want to find a political solution, we want to talk to you, but 
we believe that the best way to talk is in a multilateral forum 
so that the other parties who have an interest in this can be 
involved.'' And the other parties, frankly, have expressed an 
interest in participating in a multilateral arrangement that 
would lead to bilateral discussions.
    Senator Kerry. Well, Mr. Secretary, I think there----
    The Chairman. Senator Kerry.
    Senator Kerry. I know my time is up. Can I just have an 
answer to the first part of my question about what, 
specifically, in your mind, Saddam Hussein might or might not 
be able to do?
    Secretary Powell. If Saddam Hussein really was interested 
in avoiding the serious consequences contemplated by 1441, and 
if he truly had abandoned his goal of having these weapons of 
mass destruction, and was really committed to changing the 
nature of his regime and his policies, he would be pushing out 
scientists and experts and engineers and everyone else who knew 
anything about these programs they have had over the last 12 
years and saying, here they are, take them anywhere you want, 
sit down, talk to them, they are the ones with the knowledge of 
what we have been doing, here they are, talk to them. He would 
not be giving them classes in how to keep secrets.
    If he was really serious about it, he would be telling us 
what happened to the anthrax, what happened to the bombs, what 
is going on at this facility, what did you cover up, turn it 
all over, turn over all of your cards, and let us get this 
resolved. That is not what he has done, and the United Nations 
and international community must not ignore its responsibility.
    Yes, I have been in the forefront of diplomatic efforts 
because I do not like war, nobody likes war. The President does 
not like war, and does not want a war, but this is a problem we 
cannot walk away from. And when we fought for 7 weeks to get 
the U.N. Resolution 1441--and I might point out, Senator, that 
the President decided in early August of last year to go down 
the U.N. route.
    Notwithstanding all of the speculation as to what he did or 
did not do, it was in early August that we all spoke about 
this, and the President decided to go the U.N. route. And that 
decision was agreed to by all his principal advisors at one 
morning meeting we had in person and by video. And when we 
structured 1441 to make sure it was not like all other 
resolutions, it said, you are guilty, you are in material 
breach now, by the way, you can get out of material breach, but 
only if you come clean, and by the way, we are going to empower 
the inspection team to do a better job than they have ever done 
in the past, and oh, by the way, if you flunk it this time, you 
cannot just walk away from the serious consequences involved in 
your further misbehavior.
    Everyone who voted for that resolution--and I made this 
point yesterday--knew exactly what we were talking about, 
because the day the President spoke, that very afternoon, 
September 12, I sat down with a number of my Security Council 
colleagues, many of whom were pushing for an opportunity to 
have a second resolution, and I said, ``OK, it may come to 
that.'' And the President said the other day he ``welcomes a 
second resolution.'' But I said to them at that time, ``do not 
vote for this first resolution, 1441, if you are also saying at 
this time you will not vote for a second resolution when 
serious consequences are called for. Do not play that double 
game.''
    So everybody knew what we were getting into with 1441, and 
we all hoped it would work. We all hoped Saddam Hussein and the 
Iraqi regime or other leaders within Iraq would recognize that 
this is the time, stop this kind of behavior and these kinds of 
programs, live in peace with its neighbors, and let the 
inspectors come in and verify the destruction of this material 
and find out the truth.
    So far, the Iraqi regime, led by Saddam Hussein, has chosen 
not to do that. We will see what happens when the inspectors 
visit this weekend, and we will all be looking with great 
interest at what the inspectors report next Friday.
    Senator Kerry. Thank you very much, Mr. Secretary, and 
thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Kerry. Let me 
just say, the colloquy between Senator Kerry and the Secretary 
was very important, and the chair did not want to interrupt 
either.
    Now, both the Secretary and Senator Kerry took seven-and-a-
half minutes, which amounted to 15 minutes, and in fairness to 
other members, the chair is going to maintain a liberal time 
policy here, but at the same time, I hope members will observe 
the clocks that are in front of them, and if not, I will try to 
prompt them, but I do not want to criticize the Senator or the 
Secretary. It was a very important dialog, but we are just 
going to try to keep everybody in line.
    Senator Kerry. You have a better chance now. Republicans 
are more disciplined.
    Secretary Powell. I will not try to leave before every 
Senator has had a chance.
    The Chairman. Thank you. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary. I will try to keep within 5 minutes.
    I want to observe the new world that we live in, discuss 
something positive, and then focus on Iraq, and since I 
probably will not have enough time, I want to commend you on 
the technology, the Internet improvements in communications you 
are trying to make. I want to work with you and your staff to 
make sure that the consulates in particular are using 
technology to better process visas and have access to 
information to make better decisions.
    Now, as far as something positive, Senator Nelson was there 
at the National Prayer Breakfast today, dozens of countries 
represented there. I was at a table with Secretary Martinez. 
There were people from several nations, including three from 
Russia. The CIA Director, George Tenet, was brought forward to 
read from the Scriptures, and the Russians clapped.
    I remarked to them, this is a positive sign, the Russians 
are clapping for a CIA Director, and one of the gentlemen, in 
fact, said he was once in the Secretary Advisor's Office which 
had the responsibilities of counterintelligence. It brought a 
tear to my eye that, while we may have some differences in the 
world, even with our Russian friends, it is nowhere near as bad 
as it was at one time, so--to bring a bright light to today's 
hearing.
    Now, so far as Iraq, I first and foremost want to commend 
you on your tremendous, steady, calm, rational leadership 
throughout this issue of disarmament with Iraq, your diplomacy, 
your caution, your respect for the sovereignty and views of 
other nations while presenting such a clear and convincing case 
of evidence. It was very compelling yesterday and throughout 
this entire effort to disarm Saddam and Iraq of the chemical, 
the biological weapons as well as the means of delivering them, 
whether through terrorists or through missiles or other 
matters.
    My question is, how do you see this all now playing out? If 
this were a jury, it would be beyond a reasonable doubt. I 
think you would get close to a unanimous decision. But how do 
you see the disarmament playing out? It is a question, if not 
now, when, how soon, if they say we need to put in more 
inspectors, fine, you put in three times as many inspectors, a 
thousand inspectors, what if they do find a cache of chemical 
agents, or biological agents, or a missile that exceeds the 
150-kilometer, then what, send in another few thousand?
    When will a decision actually be made to make sure that 
Saddam and Iraq is disarmed, which has generally been 
stipulated, many of your facts were already stipulated facts. 
There was evidence from others.
    Of course, you did present some new evidence, as well, to 
bolster the case, as well as the obvious communications of 
Iraqi weapons shifting around.
    In response to Senator Kerry's question, you mentioned a 
second trigger, a second resolution possibly required from the 
United Nations Security Council. Could you share with us the 
views of the administration, if you feel it is appropriate? I 
know a lot of this is diplomacy and negotiations, and you do 
not always want to say how you are going to handle a 
negotiation in something as delicate as this, but could you 
share with us, when do you see a resolution? Do you think there 
will be another one? What would be the specifics, and when, in 
a general timeframe, would we need to go to the United Nations 
Security Council to get a specific authorization of force to 
disarm Iraq?
    Secretary Powell. As the President has said, he would 
welcome a second resolution, and many members of the Council 
would not only welcome it, but some of them would say, we 
require one for participation in whatever might come, or to 
provide authority. We believe there is more than enough 
authority for military action if that is decided upon in 1441 
and previous resolutions. But we understand the attraction of 
having a second resolution, and we would welcome it, and we 
would work toward one if that is what comes to pass.
    I think it will start to come to a head when Dr. Blix and 
Dr. ElBaradei return from Baghdad and we see whether or not 
there is any chance of serious progress. And not just progress 
on process, but as a serious change of attitude and a 
commitment to comply that one can believe can come about. And 
so I would say within weeks, as the President has said, we will 
know enough to bring this to a conclusion one way or the other.
    I cannot tell you today when such a resolution might be 
appropriate to be offered by one member of the Council or 
another, or when there might be a vote on such a resolution. 
But I think we are reaching an endgame in a matter of weeks, 
not a matter of months. Twice as many inspectors, three times 
as many inspectors, as was suggested by my French colleague and 
seconded by my German colleague yesterday, might be useful if 
there is a change in attitude. If there is no change in 
attitude, we do not need to hire more detectives. That is not 
the purpose of it. And so I think this is a matter of weeks.
    I might also add that most of the individuals who spoke 
after me yesterday, members of the Council, already had their 
presentations ready long before I had arrived in New York. They 
had already had them printed up. They were handing out printed 
copies. When you saw them going around, they were handing out 
printed copies of what they were about to say.
    They never hand out a printed copy of what I am going to 
say, because I never know what I am going to say until I say 
it. But later in the day, when I spoke to each and every one of 
them, and they had heard what I said, there was some shift in 
attitude, a shift in attitude that suggested, I think, more and 
more nations are realizing that this cannot continue like this 
indefinitely. And so I think there might be, perhaps, more 
support for a second resolution than some might think.
    What that resolution would actually look like, and the 
actual wording of the resolution, as you indicated, Senator 
Allen, that is something I have to keep rather close to my 
chest right now.
    Senator Allen. Thank you, Mr. Secretary.
    Secretary Powell. Mr. Chairman, can I violate your rule of 
a moment ago and say one more word?
    The Chairman. Of course.
    Secretary Powell. You mentioned consulates. It is very 
important they be a part of this information technology 
revolution that we are trying to put forward in the State 
Department. I am proud of what we have been able to do in 
recent months after 9/11 to integrate our data bases and 
integrate the intelligence law enforcement data bases. We are 
trying to reduce the backlogs. We are trying to make sure that 
we can approve visas more quickly, but safely. We are going to 
put a new initiative into play, secure our borders, but keep 
our doors open. Open our doors but secure our borders.
    We do not want this to become a closed nation where we are 
afraid to let people in. We are a nation that thrives on people 
coming to our borders, and we are trying to convey that 
attitude throughout our Consular Corps and work closely with 
Governor Ridge and the Department of Homeland Security to that 
end.
    Senator Allen. If I may followup, will the consulates have 
the information that the FBI and the CIA has?
    Secretary Powell. My goal, and we are working toward this, 
is that when a person comes to one of our consulates and 
applies for a visa, electronically that request will come back 
and be bounced against every data base that needs to have it 
bounced against, and the answer will go back to the consular 
officer electronically as fast as possible. We are not there 
yet, but we are going to get there.
    Senator Allen. I look forward to working with you on that 
specifically. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Allen.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. I would ask my 
full statement and some questions for the record be included in 
the record.
    The Chairman. Without objection, those will be included in 
full.
    Senator Feingold. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. Whatever a person's reaction to the 
specifics of what you said yesterday, and whatever flows from 
it, I certainly want to join in the praise and my feeling that 
there is virtual unanimity in this country that we are very 
proud of your performance before the United Nations, and I was 
struck by your remark in answer to Senator Hagel that as a 
country we do not have the luxury at this time to do just one 
thing.
    I think that perhaps is more true now than at any time in 
the history of this country, but I would also suggest that in 
terms of the history of this country, this may be one of the 
times when it is most true that doing one thing will have a 
tremendous impact on other things, and that, I think, is the 
heart of the matter here with regard to whether we should take 
unilateral action, particularly in the case of Iraq.
    If the administration decides to go to war with Iraq 
without a Security Council resolution explicitly calling for 
such enforcement action, what do you think the impact of that 
decision will be on the international coalition against 
terrorism? Is it not going to get harder for some of the key 
governments who will be seen as cooperating with us in the Iraq 
situation to be able to cooperate with us as well with regard 
to the effort against terrorism?
    Secretary Powell. I think we can keep the Global War 
Against Terrorism Coalition intact because I think more and 
more nations that are in that coalition with us understand that 
they are at risk. The British, the French, the Spanish, all of 
them have seen this terror networks and these networks 
interacting with each other in their own country.
    Clearly, it is better if we can do this under U.N. auspices 
with a new resolution, but if that is not the case, we believe 
there is sufficient authority in existing U.N. resolutions or, 
for that matter, in the inherent authority of the President of 
the United States to defend our Nation, that we can make a 
convincing case, and we will have a coalition of the willing 
that will consist of many nations, even in the absence of a new 
U.N. resolution.
    Senator Feingold. Let me press you on that for a moment 
with respect to the Muslim world. Is it not possible that 
domestic dissatisfaction mobilized around opposition to U.S. 
policy in Iraq could help destabilize some of our key allies in 
the Muslim world? And let us face it, these governments, just 
like any government, only have so much political capital. We 
are using up our chits to get them to help us on this Iraq 
situation and they are using up, frankly, their chits with 
their own people.
    I find it hard to believe, based upon what I have heard in 
many conversations with diplomats from these countries, that 
there is not a danger and a price to be paid in terms of their 
ability to help us in the war against terrorism if we go 
forward with this Iraq action unilaterally, and I would like 
you to address that specifically.
    Secretary Powell. There is no question that many of our 
friends and those who said they would be part of a coalition of 
the willing have difficult domestic circumstances that they 
have to work their way through. The popular opinion is against 
such a conflict, and it makes it harder for them to be a part 
of that coalition.
    What is striking is that they are still willing to be a 
part of that coalition. They are taking enormous political 
risk, especially among our European friends. But they think it 
is the right thing to do, and so far, they have certainly 
indicated they are willing to take that risk. And if conflict 
comes, we cannot avoid it, we do not find a peaceful solution, 
and if we are successful, and if, in that success, we put in 
place an Iraq that is governed in a responsible way; that it is 
not investing in weapons of mass destruction; that is living in 
peace with its neighbors; and that has put in place a 
representative form of government, with our assistance, that 
protects the rights of all Iraqi citizens, I think that kind of 
success will very rapidly rebound to the advantage of those 
leaders that are willing to take the risk now.
    Senator Feingold. I hope you are right. I am skeptical. I 
believe this is going to create some real problems in the war 
against terrorism, but obviously respect your views and will 
follow it through.
    Let me switch to a different part of the world. You have so 
much on your plate, including the fight against terrorism. It 
is a global problem, but it also presents global opportunities, 
and I know that you and I share strong feelings that this 
relates to Africa as well, and I have felt this more and more 
as this fight against terrorism has gone on, so let me ask you 
a question in this regard.
    The fiscal year 2004 requests for development assistance 
[DA] programs in Africa represent a $42.7 million decrease from 
fiscal year 2003. Despite this, Sudan is slated for a 27.5 
increase, which is wonderful, and I hope that it, of course, 
facilitates a just and lasting peace in that very troubled 
country, but other countries are slated for serious cuts, 
including Kenya, Mozambique, South Africa, Somalia, and 
Tanzania.
    Anticorruption DA funds are requested at a $6 million 
level, which is a decrease from the $7.5 million fiscal year 
2003 request. I do not understand the priorities that are 
reflected by this request, and I would ask you, if you could, 
to explain the justification for these decreases.
    Secretary Powell. Senator, I cannot give you a detailed 
answer on each one of these countries. All I can say is that 
within the total amount that we have in the budget, we had to 
make choices, and we had to make investments in some places, 
such as Sudan, and since I do not have all the money I would 
like to have, we are constrained by what the President is able 
to put in to the national budget, and what Congress may or may 
not appropriate for our programs. Choices have to be made, and 
this was the manner in which we prioritized the various 
accounts, not only with Africa, but throughout the world.
    I would like each and every one of these to be at a much 
higher level than they were last year, but that is not the 
luxury I have as we go through with our bureaus and with our 
desk officers and with our embassies around the world to find 
out how best to use the money that is going to be available to 
us.
    Senator Feingold. Mr. Secretary, my time is up, but I hope 
you will take another look at these. It is my opinion that 
these cuts to these countries do not reflect in particular the 
challenges relating to terrorism that may exist with regard to 
some of the African countries, not to mention many other 
priorities, so I thank you and----
    Secretary Powell. The only other point I would make, 
Senator, is that even though it may be that the decreases you 
mentioned overall are in Africa, there is an increase of 4.1 
percent when you add in the Millennium Challenge Account and 
the HIV/AIDS funding the President has requested.
    Senator Feingold. I respect that and, of course, I respect 
the HIV/AIDS initiative, but I think we have come to a time 
here when we have to focus specifically on which countries are 
countries that we have to have a very aggressive and 
appropriate relationship with regard to many issues, including 
the terrorism issue, and I do not think these particular 
choices reflect that, even if the overall number may well be 
higher, but we will----
    Secretary Powell. I hope we can pursue that in the months 
ahead.
    Senator Feingold. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I want to thank Chairman Lugar and Senator Biden for getting this 
committee off to such an excellent start. This important annual 
opportunity to discuss the foreign affairs budget request is coming on 
the heels of some very serious and enlightening hearings about some of 
the most pressing issues before this country. This is an excellent time 
for a discussion of foreign policy priorities for 2004.
    It is always a pleasure to have Secretary Powell before the 
committee. I share the strong sense of confidence in the Secretary's 
judgment and competence that is expressed by my constituents back home 
in Wisconsin.
    The Secretary made a compelling presentation before the Security 
Council. I believe that it largely confirmed what we already knew--Iraq 
continues to pursue WMD, and Iraq is not in compliance with the UN 
Security Council's resolution. I have consistently agreed that Iraq's 
pursuit of WMD is a very serious issue that must be addressed by the 
international community. Pointing out Iraq's dismal failure to comply 
with U.N. resolutions using evidence and detail rather than rhetoric 
was a very valuable step in that direction.
    But the most difficult question before us is how to best address 
this threat. We must determine what action should be taken that will 
enhance rather than diminish U.S. security, what action will achieve 
the necessary objective of containing Iraq and dismantling its WMD 
programs without incurring grave, unnecessary costs.
    And even as the situation in Iraq unfolds and the crisis festers in 
North Korea, the U.S. cannot afford to lose sight of the global 
campaign against terrorism, which must be this country's very first 
priority. This effort is multi-faceted. It must be multilateral to 
succeed, and it must be conducted with both a sense of urgency and with 
foresight and a focus on long-term stability.
    This means that we cannot afford to ignore the global project of 
assisting the forces of progress and justice in resisting the forces of 
chaos and destruction. Terrorism has a global reach. We cannot afford 
to ignore whole swathes of the world.
    As a 10-year member of the Subcommittee on African Affairs, I want 
to take this opportunity to reinforce this point with regard to sub-
Saharan Africa. Last year the subcommittee held a series of hearings 
throughout 2002 focusing on weak states in Africa and U.S. policy 
options. My purpose in convening the series was to draw attention to 
some of the manifestations of states' weakness in various parts of 
Africa--both in terms of humanitarian and economic collapse and in 
terms of such phenomenon as piracy, illicit air transport networks, and 
trafficking in arms, gemstones, and people. I wanted to call attention 
to these issues, and to explore long-term policy options for changing 
the context in these states--and addressing the relationship between 
criminal activity, corruption, and humanitarian crisis--to help make 
these states less appealing to criminal opportunists. By examining the 
cases of Somalia, the Democratic Republic of the Congo, Liberia, and 
Angola in these hearings, and by initiating a series of regular, off-
the-record roundtable meetings with members of the African diplomatic 
corps in Washington to discuss their perspective on the campaign 
against terrorism and U.S. foreign policy, the subcommittee was able to 
respond to the events of September 11 with a focus on building 
partnerships over the long term.
    Not surprisingly, the most obvious point that we drew from the 
hearing transcripts and roundtable meetings was that the task before 
the U.S. is a complex one, and that getting our policy response right 
is going to be difficult.
    In the wake of the attacks of September 11, the President was right 
to make plain that the U.S. will not distinguish between the terrorists 
behind the attacks and those who harbor them, and he was right to 
propose a far more robust, less complacent policy in these cases. But 
state sponsors are only part of the problem.
    The absence of a functioning state is another. The U.S. was short-
sighted when we disengaged from Afghanistan and Pakistan once we no 
longer had cold war-related interests in those countries. America left 
a vacuum in its wake, and some of the forces that moved to fill that 
vacuum came to threaten our security in ways we could not have 
imagined.
    The only way to address these diffuse threats is through a long 
term commitment to re-engagement. Short-term fixes--military strikes or 
freezing the assets of diamond dealers involved in laundering terrorist 
assets--may address some immediate threats, but they do nothing to 
ensure that our children will not face the same problems in the years 
to come. We must develop policies to help bring lasting stability to 
these terribly unstable places, to build solid relationships and gain 
access to solid information.
    And our policies must reflect that fact that subordinating basic 
human rights to accommodate larger strategic goals is a tactic that 
often comes back to haunt us. In Somalia, in Liberia, and in the Congo, 
the U.S. backed dictatorships utterly destroyed the institutions of the 
state and society, leaving civilians few tools for building a better 
future, and warlords ample opportunity to continue looting these 
countries' wealth. Regimes that thrive on corruption and injustice 
eventually create weak and broken states, yet it could not be more 
clear that our long-term national interests are on the side of 
accountability and respect for basic human rights.
    I would also point out that no American public diplomacy effort can 
succeed unless principled, engaged policy is backing it up. This means 
supporting independent governments interested in the fate of their own 
people and it means supporting vibrant civil societies that can balance 
the power of government abroad. It means investing in health care and 
education so that people around the world have a reason to believe in 
the possibility of progress, and so that societies have a strong and 
healthy core on which to build. It also means vigorously fighting the 
HIV/AIDS pandemic--by redoubling efforts to prevent transmission, 
meaningfully increasing access to treatment, and working not simply to 
take care of orphans, but to prevent future generations from being 
orphaned in the first place. I commend the President for the commitment 
to this issue that he articulated in the State of the Union Address.
    And so we all have a tall order before us. We must ensure that we 
do not fail to keep our eye on the big picture even as we try to deal 
as wisely as possible with the immediate crises before us. And our 
budget priorities must reflect this balance.

    The Chairman. Thank you, Senator Feingold.
    Senator Brownback.
    Senator Brownback. Mr. Secretary, first of all, let me say, 
Mr. Secretary, I think you are doing a fabulous job on a lot of 
tough issues you have got spinning in the air. It seems Kim 
Jong Il in North Korea is bound and determined to make us deal 
with him at the same time that we are confronting the situation 
in Iraq. That is the way I read this. He is just saying, look, 
I am not going to let you deal sequentially with things in the 
world, I am just going to jam this right up against you, and I 
hope we do not play his game on his timeframe.
    I guess I was noting in today's papers, London Guardian, 
``North Korea Threatens U.S. with First Strike'' in the London 
Guardian they are quoted there, and then this is in the 
Washington Post, that the Japanese Government is considering 
sending two destroyers equipped with GS air defense systems to 
watch for North Korean missile launches, that they may try to 
up the pressure even more on us to make some sort of deal or 
agreement, and I applaud your standing firm against that, and I 
hope you can continue to do that, even though it seems as if 
they are bent and determined to use every tool they can to 
build pressure on you and on us to make some sort of early 
deal, early agreement that may well not serve our best 
interests, or the world's best interests, or, even more 
importantly than all of that, the people of North Korea's best 
interests, who have suffered so much under this tyrant.
    One thing I would like to--I want to bounce around a couple 
of topics, and time is short, but on the road map in the Middle 
East, if I could, I am concerned about a point on the road map 
that it not follow a prescribed timetable, but, rather, it 
follow performance, as the President laid out, not any sort of 
artificial deadlines.
    I am troubled also at the enhanced role that the other 
parties in the quartet set for themselves in monitoring and 
enforcing the terms of the road map, of what the other parties 
are saying, what their role is going to be in enforcing and 
monitoring the terms.
    Ultimately, as you have said many times, the Israelis and 
the Palestinians must make peace for themselves, and that it 
cannot be imposed from the outside, and I wonder if--you have 
commented some on this already, but what you see as the record 
so far for Palestinian reforms that were outlined clearly by 
the President in the road map, and the role you see for the 
quartet versus the United States in monitoring and enforcing 
the road map that has been laid out.
    Secretary Powell. On the first point, the road map is both 
performance-driven and has a schedule. The President's vision 
was to see if we could get to a Palestinian State in a very 
short period of time, relatively, 3 years or so. But you are 
not going to get there in 100 years unless there is a different 
kind of performance on the Palestinian side with respect to 
ending the terror.
    No nation is going to put itself in that kind of vulnerable 
position of continuing terror and create a State from which the 
terrorists operate, so performance is required. But at the same 
time, there has to be some sense of timing, some sense of when 
we could get to a Palestinian State. Because in the absence of 
that kind of horizon clearly in mind, and the United States and 
the other members of the quartet committed to that horizon, 
then you remove some of the incentive for emerging Palestinian 
leaders to put the hammer down with respect to terrorism.
    With respect to the participation of the other members of 
the quartet, there is going to be enough for all to do. We need 
the European Union to bring resources of the kind they brought 
over the years to rebuild the infrastructure of the Palestinian 
community, we need the United Nations to be ready to play a 
role, and Russia has always played an important role in terms 
of following the situation and participating in the peace 
process in the Middle East. I still, however, believe that 
first and foremost, it will be the United States and the United 
States' leadership that will be required to see something 
happen.
    People suggesting that, well, we have abdicated our role to 
the quartet, nobody in the quartet would say that. It is the 
United States' leadership that created the quartet, that is 
driving the road map. It is my staff working on the road map; 
working with other members of the quartet to bring together 
something that we can all align behind.
    What the quartet has served to do is to have all of us 
speaking with one voice in one forum, as opposed to each member 
of the quartet out doing their own thing. And that, I think, 
has been very, very helpful. But it will be U.S. leadership 
that makes it happen. And if we get to the point where monitors 
go in, for example, they are initially going to be U.S. 
monitors. But we do not want to have the whole burden for this, 
and I think as confidence is developed as we start down this 
road, there may well be a role for other nations to contribute 
to that process, but it is going to be U.S. leadership and U.S. 
presence that gets the process started.
    Senator Brownback. If I could, and I appreciate that, and I 
appreciate the need for the timetable to create the pressure 
for the performance, but if the performance does not come, I 
hope it is the United States that takes the grade and says, OK, 
performance is not here, and not other members of the quartet 
that say, well, we think maybe it is enough to be able to get 
things accomplished.
    My time has concluded, but on Iraq, and dealing with the 
opposition, which I know you have done a lot of work in your 
office, if Saddam is no longer there, or we are working with a 
group hopefully with the Iraqi opposition, I hope we can keep 
working closely with them, get the Liberty TV going, moving 
forward.
    I think it is just very important that we work closely with 
them as much as possible as we move, it seems like further and 
further forward here with Saddam not participating with the 
United Nations, not complying with the agreement, that there 
may well likely be actions and, if there are, that we have 
groups that are there working with us in the possibility of a 
post-Saddam Iraq that can be civil society, a democratic 
society, a free society that we all hope and pray for in the 
future.
    I know there are a lot of groups that are pulling together 
to try to see that taking place, and they are working with the 
State Department, and they need the support and funding from 
the State Department to do that.
    Secretary Powell. Thank you, Senator. We are working with 
them, and let me just back up and touch on one aspect of your 
first question. Reform in the Palestinian Authority has not 
been adequate. We have seen some bright spots in the Finance 
Ministry, but we need to see a lot more.
    Senator Brownback. Thank you.
    [The prepared statement of Senator Brownback follows:]

              Prepared Statement of Senator Sam Brownback

    This is a watershed moment for those who have been claiming all 
along that Saddam needs to be disarmed, but advocated that diplomacy 
was the path to take. It is clear that Saddam has rejected this path. 
If France and Germany, among others, will now make excuses as to why it 
is acceptable for Saddam to have these weapons--as preliminary reports 
indicate they are doing, then it is painfully clear that these 
countries do not share our interest and should not have veto authority 
over America's right to self-defense.
    I think one of the most striking points Powell made so clearly 
yesterday, is that our evidence shows that Saddam's regime are digging 
holes, moving equipment or burying things at inspection sites shortly 
before inspectors arrived. This indicates that the Iraqis are aware of 
where inspectors are going--and therefore, these inspections are not 
random, and allow Iraqis to avoid detection.
    As Powell stated so clearly, Iraq is in defiant breach of 
Resolution 1441. The only question left to be decided is whether the 
world community will stand by what it said and enforce its will. If it 
fails this test, nothing else it says will have sway over future 
tyrants--for it will be painfully clear that even in the most obvious 
cases of violating international law, there will not be a consequence 
because of prevailing politics.
    This resolution, which Saddam has clearly violated, came on top of 
an entire decade of second chances. There comes a time when we must 
face reality, even if some of our friends refuse to--and the difficult 
reality is that Saddam Hussein has a demonstrated pattern of lying, 
developing and using weapons of mass destruction. It is not surprising 
that he has failed yet again to take advantage of the last chance 
offered by the most recent U.N. resolution.

    The Chairman. Thank you very much, Senator Brownback. Let 
me pay tribute to Senator Boxer. She was here at 9:30 and has 
lasted through the whole hearing just as the Secretary has, so 
let me give you your opportunity, Senator.
    Senator Boxer. Thank you very much, Mr. Chairman.
    Mr. Chairman, let me start off by thanking you, because I 
have never seen such an active chairman, and you are keeping 
this committee so informed, and I just thank you for that, and 
Mr. Secretary, on behalf of the people of California, and we 
have got 35 million, we want to thank you for your service and 
dedication to your country, to our country, and I know that you 
are bearing the burdens of that, but you are doing it with 
grace.
    I want to first associate myself with the remarks of many 
of my colleagues, Republican and Democratic here, when they 
talk about the many challenges that we face. I have written a 
letter to Senator Lugar outlining my concerns about the foreign 
policy direction of the United States, and let me just lay it 
out, it is a brief comment, and then I have two questions, one 
on Iraq and one on Korea.
    I fear that our foreign policy is becoming quite reactive 
except for Iraq, where we are driving things, and some of my 
colleagues have mentioned North Korea and the Middle East, 
Venezuela, Colombia and Mexico, which is so close to 
California. That is just to name a few. Senator Feingold 
mentioned Africa. I am hopeful that we are going to look at 
this foreign policy in the big picture when we have a chance, 
and if our chairman will decide to take a look at this, because 
I see a doctrine that appears to me to be one of designed 
neglect. As a matter of fact, I heard one of your deputies on 
the radio, a wonderful gentleman with--I thought he was 
terrific.
    He just said, we have to be ready for whatever comes at us, 
and I felt that that said something that to me was--he did not 
mean anything by it, except we have to be ready for things, 
except I think we have to be more proactive, so perhaps there 
is a disagreement on that point, you do not see it that way, 
but just from my point of view, that is how I see it.
    Now, there is little disagreement in my state that Iraq 
must disarm. I have certainly felt that way for months. The 
question is, how do you bring that about in a way that achieves 
our goal with the least possible loss of life and the least 
possible chance that these chemical and biological weapons will 
be released?
    We have a report from the CIA, now declassified, that says 
if his back is against the wall, Saddam is apt to use these 
weapons. I know everyone is aware of this, and that is why the 
people in my state are anxious. They come to me every weekend I 
go home, Mr. Secretary. Whether it is in the supermarket or 
taking a walk down the bike path where I live, people are 
coming up to me from all political persuasions. They do not 
necessarily have the answer, but they are anxious about this.
    They know, because it has been stated over and over again 
by this Senator as well as by our chairman, Senator Lugar and 
others, that there were more weapons of mass destruction 
destroyed in the 1990s by the inspections, by robust 
inspections, than they were by the bombs.
    They understand that, and they also know that during the 
1991 Persian Gulf war, we had many people with us both on the 
field of combat and paying the bills afterwards. And right now, 
I have asked the question of Secretary Rumsfeld many times, 
tell me who is sending how many troops. I have yet to have a 
written response. I am hoping to get that--and who is going to 
pay the bills. And these things are concerning to my people.
    I am a little confused about something. I want to ask you 
this question on Iraq. I have here a Washington Post story in 
which you are quoted, just about a month ago, saying the 
following: ``The inspections are really now starting to gain 
momentum.'' Then, just about 2 weeks after that you said, 
``inspections will not work,'' so my question on Iraq is this. 
Will you turn over the information you so intelligently made 
public yesterday to the inspectors, and have you given up on 
inspections? That is the first question, and my second question 
has to do with Korea.
    When Secretary Armitage was here, and he is kind of a 
favorite of the committee because he is so direct, and I 
personally think it is great, and I asked him the question, did 
you and Secretary Powell, or did one of you, or someone from 
the Department, talk to the President before he put North Korea 
into the ``axis of evil,'' before he used that expression? The 
answer was yes, and you both agreed that they are in the ``axis 
of evil.''
    I said, did you talk about what response it might evoke? He 
said ``no, we did not,'' and I was rather taken aback, and I 
thought about that for a few days. Did you contact South Korea 
to find out what type of response they thought North Korea 
might have to this, or our friend Japan? Because in diplomacy 
we all know, for everything you say, everyone is listening, and 
we have to be aware of the ramifications, and when Senator Dodd 
asked you the question about, would you do things differently, 
you talked about the Clinton and other administrations.
    I am very concerned that we did not really think about the 
ramifications of that remark, so could you tell me if you 
talked to our allies in the region before the President made 
that speech, and could you tell me, have you given up hope on 
inspections?
    Secretary Powell. Let me begin by going back to your first 
point. I simply cannot sit here and not respond to a suggestion 
that we have no foreign policy or it is a foreign policy of 
benign neglect.
    Senator Boxer. Designed neglect. I did not say benign 
neglect.
    Secretary Powell. Designed neglect? Designed neglect. Well, 
I do not like that characterization, either.
    Senator Boxer. Yes, I understand.
    Secretary Powell. Over the last 2 years, we have put our 
relationship with the two most important countries that we have 
to deal with Russia and China on a solid basis. Yesterday, you 
voted out the Treaty of Moscow, which got rid of the ABM 
treaty, which was a source of irritation, which now has the 
Russians cooperating with us in developing missile defense.
    One of the things I talked to Igor Ivanov about yesterday 
was how can we move forward in missile defense. We have 
President Putin solidly aligned with us in the global war 
against terrorism. We have got the Russians working with us in 
Central Asia in ways that would have been unimaginable just 3 
or 4 years ago.
    With respect to the other large account that I worry about, 
China, we started off with a terrible incident having to do 
with a collision between two planes, and now, 2 years later, we 
are working with China on a variety of issues. We have got 
China into the World Trade Organization.
    We have doubled--well, not quite doubled. We have had a 50 
percent increase with the Millennium Challenge Account in 
foreign assistance that we are going to be presenting to those 
nations that have put themselves on a path to democracy in the 
free enterprise system.
    We have created a community of democracy here in the 
Western Hemisphere.
    We are working on free trade agreements with nations all 
around the world. We are working on a Free Trade Agreement of 
the Americas.
    We have committed ourselves more than any other group of 
nations with respect to HIV/AIDS, and wiping out this most 
serious of problems we have on the face of the earth, so I 
think we have an active foreign policy that is geared to the 
kinds of challenges we are facing in the 21st century.
    And above all of that, I mean, on top of all of that is the 
way in which this President, this administration, and this 
Nation is leading the global war against terrorism. Terrorism, 
the new threat that replaced the ideological threats that we 
used to have with communism and fascism. So I think we do have 
an aggressive foreign policy that is moving us in the right 
direction and moving us forward.
    That is not to say that we do not have problems, North 
Korea, the Middle East peace process, where we have not seen as 
much progress as I would have liked, and of course, with 
respect to Iraq.
    With respect to inspections, my two statements are not 
inconsistent. The momentum of inspections was picking up, but 
with each passing day and week, we saw that the Iraqis were not 
cooperating. It is not a question of will inspections work or 
not work. Will Iraq comply or not comply so that the inspectors 
can do their job? The burden of coming clean is not on the 
inspectors to make them come clean, but for Iraq to come clean 
so the inspectors can verify. So I did not think there was 
anything inconsistent in the statement.
    With respect to North Korea, the ``axis of evil'' remark I 
saw in the State of the Union before the President said it, as 
did Deputy Secretary Armitage. We were not surprised by it. And 
it was an accurate description of the activities of those three 
countries.
    The North Koreans responded in an expected fashion. They 
did not think they should be included in such an ``axis of 
evil,'' and they attacked the United States. It was all vocal. 
There was no other mobilization of North Korean forces that 
took place, and no start of a nuclear weapons program as a 
result of that remark. They did not open Yongbyon as a result 
of that remark, and they also already had underway, which was 
the point I was making, efforts to produce nuclear weapons 
through enriched uranium technology. And that was not caused by 
the ``axis of evil'' speech or anything else the United States 
has done over the past 2 years.
    It was a judgment made by North Korea that they wanted to 
continue to pursue nuclear weapons development, and it was a 
judgment that was made back in the late 1990s, and it was not 
something that was known to my predecessors or was known to us 
during the first year of this administration. It came to my 
attention for the first time seriously in the summer of last 
year, and we acted on that information.
    And no, we did not discuss the ``axis of evil'' line with 
our other friends in the region. We tend not to share the State 
of the Union Address before the fact. But I do not think that 
that was the precipitating cause for the problem we now have 
with North Korea.
    Senator Boxer. Mr. Chairman, can I just for the answer to 
the question, have you turned over the information that you 
gave us to the inspectors?
    Secretary Powell. Yes. We are turning over to the 
inspectors all of the information that they can use. Now, there 
are some things we have that are not related to an inspection 
of a site, but with respect to sites, we have turned over 
dozens of them now. I think I can say in this setting we have 
turned over, our best information is close to 60 different sets 
of data that are actionable by the inspectors. And we stay in 
close touch with Drs. Blix and ElBaradei, Assistant Secretary 
Wolf of my staff, Assistant Secretary for Nonproliferation, is 
in constant touch with Dr. Blix, and he is linked into the 
intelligence community to provide whatever assistance Dr. Blix 
requires.
    But what we have been trying to give Dr. Blix is 
information he can use, and not just information. The same 
thing with Dr. ElBaradei.
    Senator Boxer. Thank you, Mr. Secretary.
    The Chairman. Thank you, Senator Boxer.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman. I ducked out of 
the hearing, Mr. Secretary, because I welcomed the new 
Ambassador from Serbia and Montenegro to the United States, and 
also the President of their parliament, and I do not have to 
remind you, but maybe the members of this committee, that 
things are still not stable in that part of the world, that we 
have troops stationed in Bosnia, we have them in Kosovo, and 
that we need to continue to make sure that we do not lose the 
momentum that we have achieved there thus far.
    I would like to congratulate you on the wonderful job you 
did yesterday of presenting the case before the United Nations, 
regarding the fact that Iraq has materially breached U.N. 
Resolution 1441. I would like to congratulate you on your 
aggressive diplomacy. I think we take for granted that you were 
able to get a resolution out of the Security Council 15-zip. I 
do not think there is anybody at this table that thought you 
were going to be able to do it, maybe few people in the world. 
Yet it was accomplished.
    I think it is important that you underscore what you said 
in response to Senator Kerry, when you indicated that when you 
asked them to sign Resolution 1441 that, you told them that it 
meant that if Iraq did not do what it was supposed to do, then 
you expected members of the Security Council to follow through 
and make sure that the resolution was enforced. I think that is 
really important for people to understand that part of the 
equation.
    I have a question in regard to that, and then I want to 
skip over to your CEO responsibilities. We know Saddam Hussein 
has violated the U.N. Security Council resolutions, but as we 
assess the dangers posed by him right now, there are those who 
argue that the potential destabilization of the Middle East, 
and the potential of unleashing terrorism around the world, 
pose a greater threat than Iraq's continued violation of U.N. 
Resolution 1441.
    In other words, in your opinion, what poses the greater 
threat to the American people and to the rest of the world? Is 
it more dangerous to go to war with Iraq, or to allow Saddam 
Hussein to remain in material breach of 1441 without real 
consequences? That is a question I would like to just throw 
out.
    I want to move to the CEO aspect of your job. The CEO part 
of this, I am excited about what you are doing. I said over and 
over again when Jim Schlesinger testified before my committee 2 
years ago--I had the oversight of government management, and 
now the Federal work force. He said that unless we fix the 
personnel problem, we will be unable to repair everything else 
that is wrong with the U.S. security edifice, and I believe the 
fact that you are hiring the people, that you are improving the 
technology, that you are fixing up these embassies, I think is 
very, very important in terms of our future.
    I would like to know, do you believe that you have the 
flexibilities now to get the job done in terms of moving 
forward with your human capital challenges, and are you in the 
position to solve a very big problem in the State Department 
today, and that is compression in the Senior Executive Service, 
where 75 percent of the people get the same pay? I have talked 
to one ambassador after another. Of 15 people they have 
working, five are terrific, five are OK, five are not doing the 
job. They all get paid the same amount of money, and I would 
like you to comment on that, as to whether or not you think you 
are in a position to really get this work force going, keep 
them on board, and attract new people.
    Secretary Powell. On your first point, Senator, I think we 
have to deal with Iraq. I do not think we can simply turn away 
because we are afraid that if military action is required, it 
would cause some other problems with respect to terrorism. That 
certainly is a possibility. We are talking to all of our 
friends in the region who might be subject to that kind of 
disturbance within their countries, making sure that they 
understand the threat and the consequences, and are they in a 
position to manage it. And I think that is a manageable, 
controllable problem.
    I also think it may be well a transient problem, because I 
think we look at the terrible consequences that can come from 
conflict without often looking at what will happen when success 
is achieved, when we win this and when the Iraqi people are 
liberated, and when it is no longer necessary to have that many 
U.S. forces staged in the region, and we do not have to worry 
about weapons of mass destruction floating out of Iraq, and 
when we have a different kind of Iraq, and when the wealth of 
Iraq, the oil of Iraq is being used for constructive purposes 
and not for destructive purposes.
    So even though there may be some difficulties in the days 
of a conflict, or even in the months after a conflict, I think 
there is also the possibility that success could fundamentally 
reshape that region in a powerful, positive way that will 
enhance U.S. interests, especially if, in the aftermath of such 
conflict, we are also able to achieve progress on the Middle 
East peace, so that is my answer for that one. We cannot say we 
are not going to do anything because it will cause us some 
other problems in the region. This is a problem. It is not just 
1441 as a resolution. It is Saddam Hussein as a threat to the 
region.
    With respect to your question on personnel, thank you for 
your support, Senator, for what we are trying to do. Yes, 
compression is a problem. I saw the same problem when I was in 
the military, and the President has proposed some new programs 
in the budget to deal with how we provide incentive pay for 
those individuals who are really doing the job, and I look 
forward to working with OMB and the President and other members 
of the staff as we determine how best to solve this problem.
    We need a strong flow of young people coming up in the 
Foreign Service, and that is what the personnel action that I 
am taking, and the Diplomatic Readiness Initiative is all 
about. And yes, I probably can use new authorities with respect 
to how long people stay within the service, either Civil or 
Foreign Service, before a judgment being made that they have 
served nobly and well, but now it is time to retire.
    We do not have the up-and-out situation for all the 
employees in the State Department that I saw at work in the 
military, and I am a great believer that you have to let the 
top leave at some point in order to allow the ``young Turks'' 
to come on up, and that is the way we did it in the military. 
They put me out--yes, they did--at about age 56.
    Senator Voinovich. Thank you, Mr. Secretary.
    [The prepared statement of Senator Voinovich follows:]

           Prepared Statement of Senator George V. Voinovich

    Thank you, Mr. Chairman.
    Mr. Secretary, I would like to join my colleagues in thanking you 
for taking the time to appear before the committee this morning. This 
is without a doubt a challenging time for our country, as we continue 
our efforts to confront the threat posed by Saddam Hussein and his 
relentless pursuit of weapons of mass destruction in tandem with the 
ongoing campaign to address the dangers of international terrorism.
    Your active engagement with our friends and allies abroad, most 
recently demonstrated in your remarks before the U.N. Security Council 
yesterday in New York, is a crucial component of our nation's foreign 
policy, and we remain grateful to you for your continued service to our 
President and to the American people.
    As we had the opportunity to discuss in Prague last November, I 
remain very interested in a number of issues affecting our national 
security agenda. These include not only developments in Iraq and 
Afghanistan, but the issue of NATO enlargement, the state of affairs in 
the countries of southeast Europe, and the problems of organized crime 
and corruption abroad. I am also deeply troubled with the rise in anti-
Semitic violence in Europe and the Middle East, and I am hopeful to 
work with you during the coming months to address this growing problem.
    Mr. Chairman, with your permission I would like to submit a number 
of questions for the record and request that they be answered in 
written form at a later time.
    Again, thank you, Mr. Secretary, for sharing your time with us 
today. I look forward to your testimony.

    The Chairman. Thank you very much, Senator Voinovich.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman, and Mr. Secretary, 
there is the political will in the Congress to do something 
about the African famine relief. We passed a couple of weeks 
ago $500 million extra to do that, and it is an item, as we 
speak, in conference committee. I would encourage you to speak 
to those in the budgetary realm not to oppose it in conference. 
If they do not, we will get it passed in conference.
    Secretary Powell. Senator, I assure you I will take that 
very powerful message back to those in the budget world.
    Senator Nelson. Thank you.
    Secretary Powell. This gives me a chance to talk about 
another crisis. HIV/AIDS and infectious diseases is one, but 
hunger and starvation is another one, and it is extremely 
serious in parts of Africa, southern Africa and the Horn of 
Africa, and other parts of the world. Not enough nations are 
contributing money.
    The United States is still the biggest contributor. Other 
nations are not, frankly, doing as much as they could, and the 
need is greater than ever, and the supply of food, the stocks 
of food worldwide are not as great as they have been in the 
past. The surpluses are not there, so all of these elements 
come together to create a crisis. And it is a crisis that then 
flows into HIV/AIDS for people that do not have the stamina, 
the strength to resist these infectious diseases.
    Senator Nelson. Thank you for those comments.
    Every time I have seen you, I sound like a broken record, 
and I will not break my past record. Scott Speicher. As we go 
into this, we have got to keep him in mind. We tried to get the 
Kuwaitis to raise the issue of Commander Speicher in their 
bilateral talks with the Iraqis on POWs. They demurred, because 
they wanted that to be in the overall committee instead of a 
subcommittee, so I raise that prospect of our American flyer 
over there possibly alive.
    Secretary Powell. Scott Speicher is never out of my 
thoughts. He was lost in a conflict that I supervised as 
Chairman of the Joint Chiefs of Staff. It is a personal matter 
as well as a professional one.
    Senator Nelson. Thank you, Mr. Secretary.
    Finally, Mr. Secretary, in what was referred earlier in 
this London Guardian article today in which North Korea's 
Foreign Ministry is quoted as saying, ``preemptive attacks are 
not the exclusive right of the U.S.,'' and they are actually 
quoted in here, a Deputy Director of the Foreign Ministry, 
saying that they ``would consider a preemptive attack.''
    Can you clarify for our committee what is the 
administration's policy on preemption? There was quite a debate 
on this earlier in the summer. I wish you would clarify that 
for us.
    Secretary Powell. In the President's National Security 
Strategy, he spent a great deal of time in that document 
talking about alliances, talking about economic development, 
talking about the spread of democracy, and all sorts of issues 
that cover the gamut of our foreign policy activity, our 
defense policy, our national security policy.
    There were two pieces in that document that got more 
attention than anything else. One was the subject of 
preemption. It was about a paragraph-and-a-half in one of the 
chapters that said, preemption is an option. Preemption is 
always an option. It is always a tool, a tactic, something one 
could do to preempt something that was coming your way, that 
you could see clearly coming your way.
    In the post 9/11 environment, it seemed appropriate to 
highlight that and to perhaps elevate it in priority with 
respect to options available to you now that we saw terrorists 
coming at us, so why would one not preempt a terrorist coming 
our way, and raise for the consideration of policymakers, and 
for the rest of the world to take a look at, our willingness to 
go after somebody who was coming at us?
    Preemption in my judgment, and we could get into a think 
tank setting and argue this all day long, but preemption in my 
judgment is not a strategy, it is one of the tools available to 
a President as part of a toolbox full of tools.
    The other thing that got all of the attention in the 
President's National Security Strategy document was something 
that was in--I think it was in the last chapter dealing with 
the military and it said, it is the policy of the United States 
to always make sure that we are stronger than anybody else. 
Many people read into that something imperialistic or 
unfortunate, but it seems to me it makes good, common sense.
    I think we have always tried to be stronger than anyone 
else who might threaten us for two reasons: first, to make sure 
that if it ever came to conflict, we would be stronger, and 
second to persuade anyone coming along that you really cannot 
match us, and therefore do not try.
    The Soviet Union tried for 40 years, until they went broke. 
We can afford it, you cannot, and you cannot get an advantage 
on us, so you really should not try. We do not have any hostile 
intent with anyone who wants to be our friend, and so, what you 
really ought to do is engage us in a partnership that will 
benefit both of us, and do not try to challenge us militarily, 
because you will come in second.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Nelson.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    It is kind of fascinating as I sit here and listen to your 
testimony, Mr. Secretary, you talk about the U.S. leadership in 
dealing with the quartet, and U.S. leadership in getting the 
United Nations to uphold and then to enforce its many, many 
resolutions regarding Iraq, the U.S. leadership on AIDS, the 
U.S. leadership in dealing with world hunger, clearly the 
responsibility of representing the greatest Nation in the 
world, and I just want you to know you do a tremendous job 
representing this country and our President.
    Three comments, one question. First, I join my colleagues 
in applauding your very compelling presentation before the 
United Nations, and am very appreciative of the effort to build 
a broad, multilateral international effort. It seems to me that 
there is very little dispute amongst us Saddam Hussein is a 
threat, he is in material breach, he needs to be dealt with, 
and clearly, building this support effort is something that we 
all support.
    Second, in regard to North Korea--I am not the Secretary of 
State. I can say this--North Korea reminds me of a spoiled 
brat. They have knocked their food and their plate off the high 
chair, and they are looking for undivided attention, and I do 
hope, as we talk about multilateral approaches, and you said it 
today you fully support it, there are others in that region who 
have a real stake in making sure that that child, that spoiled 
brat--I do not have one myself, by the way, but I have seen 
others--that they are dealt with with them at the table, 
Russia, South Korea, Japan, China, and so I support those 
efforts.
    A third comment, thank you, and I thank the President for 
his bold move in dealing with the AIDS issue, very, very, very 
important, very supportive, I think $1 billion increase this 
year and $10 billion over 5 years.
    Also, you made mention of the Millennium Challenge Account. 
I believe that this President is seeking for the first time to 
fund that account, important, and I think it adds to in 
addition to the other dollars that we are providing, we should 
not discount the impact that that effort is having.
    A fourth issue, and actually the question, shifting focus a 
little bit, drugs. In this country, we are seeing, I think, its 
ugly head being raised again. For a while, I think we had a 
sense that we were making headway, and that we were putting 
this grave threat to our kids and to our national security, 
that we were kind of putting a cap on it, and I sense, as a 
former prosecutor and former mayor, that it is kind of raising 
its ugly head again.
    I know there is a substantial commitment, I believe $731 
million for the Andean counterdrug initiatives, including $463 
million to Colombia. My question is this. As we look at the 
issue of dealing with Colombia, my fear is it is kind of like 
squeezing a balloon, that if you squeeze it in one place, it 
pops out in another place.
    Can you talk to me a little bit of the regional 
perspective, of how do we deal with this threat of drugs coming 
from this area, and understanding, by the way, we have an 
obligation at home to deal with the demand side. I understand 
that, but can you talk to me a little bit about, are we 
focusing perhaps in one area and not giving as much attention 
to the others, or do we have a broad regional approach to what 
is a growing threat to this country?
    Secretary Powell. I think it is a broad regional approach. 
We recognize the balloon phenomenon that you mentioned, and 
therefore we are working on all sides of that balloon, or all 
parts of that balloon, hopefully and ultimately to bust the 
balloon, puncture it. So we are working with Colombia, where we 
think the major problem is right now.
    There has been an increase in crop eradication, and we are 
glad to see that that is now getting into high gear. I hope in 
the very near future the aerial denial program will be back in 
operation. We have seen some statistics recently reported by 
the office responsible for this, in drug control and 
prevention, that some of these statistics with respect to the 
use of drugs on the part of our young people is starting to go 
in the right direction. Kids are starting to get smart, and as 
you know, Senator, that is where we have to solve the problem.
    And so I think it is a broad approach, not just Colombia 
but the other nations as well, and that is why we shifted it 
from being just Colombia to the Andean Drug Initiative.
    Senator Coleman. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Coleman.
    Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman. As the last 
Senator in the gauntlet here, let me, like everyone on the 
committee and across America, thank you for your leadership and 
also for the professionals in the Department that carry out 
this effort with regard to diplomacy day in and day out. It was 
a compelling presentation yesterday to those of us who had some 
skepticism.
    There is a behavioral breach that I think is clearly 
presented, but I think it is equally true that not only the 
presentation was compelling, the advocate was compelling 
because there has been a commitment to diplomacy, there has 
been a commitment to prudence, and a commitment to multilateral 
approaches that preceded that, which I think is essential in 
our foreign policy efforts, so I congratulate you and all of 
those who are committed to that approach.
    You know, we have heard Inspector Blix say we are at 5 
minutes to midnight. I guess my question is, is there a 
practical nonviolent solution still possible? We hear talk 
about exile or--but I guess I would like to explore what are 
the consequences of the admission of a smoking gun, an 
admission? Is there a way to move if that were an action taken 
by the Iraqi regime now that seems to be in conflict in a lot 
of people's minds if one were to admit that would bring on the 
severe consequences potentially as well?
    The second question, and this one is based on certainly my 
own frustration, but I hear it among my colleagues as well. 
Often, when we are considering these incredible issues of 
putting men and women into harm's way, we are making decisions 
without full information. Sometimes it feels like selective 
information. I will give you a particular case in point. This 
whole North Korean issue was in the system before we took a 
vote here in the Congress. It is troubling to me that we make 
decisions without full disclosure of important and relevant 
information.
    My question, are there other risks of weapons of mass 
destruction being produced potentially in the hands of those 
who would distribute them in the world? Are we thinking about 
this in as comprehensive an approach as we should be?
    And third, this is actually less important than the others, 
although I think it is very important to address, what are the 
risks of some of the conversation we see in the press that we 
talk with regard to tactical and boutique nuclear weapons being 
used with respect to incenting other bad actors in the world to 
be protective of maybe bad interests, but accelerating those 
interests as we go forward?
    Secretary Powell. I just cannot put a likelihood or 
handicap on whether he would go into exile or not.
    Senator Corzine. Excuse me?
    Secretary Powell. Exile. You touched on exile for Saddam 
Hussein. I just cannot say what the likelihood is of that or 
not. It is bandied about, but I have seen nothing to suggest 
that he has started to pack his bags.
    Second, with respect to where would we be if he admitted, 
and he showed us all the smoking guns, that would certainly be 
a major change, and something we would have to take a look at 
and see if it is serious, and see whether it reflected just a 
tactical move on his part or was a fundamental change in the 
nature of that regime and the nature of its strategy. I think 
the President, as well as the other heads of state and 
government and the Security Council would then have to consult 
as to whether or not this was a solution, or whether it was 
just another diversion. But I would not bet on that happening 
either in the next week or so.
    With respect to North Korea, I have heard the suggestion 
that perhaps the administration was withholding information 
about what we knew until after the vote on the joint 
resolution. I can just assure you, Senator, that was not the 
case. We got the information. I kept pressing to make sure the 
information was accurate.
    I knew the seriousness of the information, and throughout 
the late summer, we kept pulsing the intelligence community to 
make sure we had it right. Then we started to conduct briefings 
of our friends and allies, and then we slowly started to spread 
the information out. Even then, we were trying not to 
precipitate a crisis in the region, and we wanted to approach 
the North Koreans in a way that said to them, ``look, we have 
begun a dialog again,''--my dialog with the Foreign Minister in 
Brunei, and then we sent Assistant Secretary Kelly to North 
Korea in October.
    And Kelly was prepared to give them a bold approach with 
respect to cooperation in economic development and other 
matters; how we could help them support what the Japanese 
wanted to do with normalization, to support even more the 
sunshine policy of the South Koreans. But we could not do that 
unless they were ready to stop their proliferating activity and 
their nuclear weapons development activity which we knew at 
that time had shifted over to uranium enrichment, and to our 
surprise, rather than deny it and say, ``let us talk more,'' 
they said, ``we did it, what are you going to do about it?''
    Senator Corzine. I thought that happened 10 days----
    Secretary Powell. It happened about 10 days before it 
became public knowledge, and we were still reflecting on the 
implications of what they said to us and what we should do 
about it. And it was not being hidden for the purposes of 
influencing a vote. And I am not sure it would have been 
relevant to influence the vote in any event. But there was 
never a conversation that said, ``let us hold this until the 
vote is over.''
    The conversations were, how do we deal with this 
information, how do we deal with this new situation, and how do 
we present it to the Congress in a way that makes sense and is 
consistent with our other concerns about our friends in the 
region. But it was not held. And when it finally became public 
before we had finished all of our deliberations, I can just 
assure you there was no consideration of it being held, or not 
being made public, or to trying to keep it from being leaked 
until after the vote on the joint resolution.
    The Chairman. Thank you very much, Senator Corzine.
    Senator Sununu.
    Senator Sununu. Thank you, Mr. Chairman.
    Mr. Secretary, I think as we speak here, there is a press 
conference taking place in Baghdad, where the government 
spokesman is commenting on your presentation. Now, I am 
obviously not listening to it, but my guess is the presentation 
will suggest that the evidence you presented yesterday, 
photographs, intercepts, satellite surveillance, videotape, was 
not really evidence, and that they welcome back Mr. Blix with 
open arms and with a renewed sense of cooperation.
    My question is, are you looking for a particular verbal 
response, or set of commitments from Iraq right now, or does it 
just come down to actions?
    Secretary Powell. Actions, really. They dismissed my 
presentation before I gave it. The day before yesterday they 
said, ``we know what Powell will come up with. It will be phony 
satellite pictures and doctored transcripts and all sorts of 
other things.'' So they dismissed it before they saw it. It is 
predictable. It is what they always do. It is their pattern of 
behavior.
    And even after my presentation yesterday and, frankly, 
while I was giving it, I could look out of the corner of my 
right eye and see the Iraqi delegation scribbling away to 
modify the remarks that their Permanent Representative would 
use. And of course, he instantly attacked every single element 
of the presentation, and it was all fabrication, it was all 
lies. And I think at one point he said, ``and even third-rate 
intelligence agencies can doctor transcripts to make it sound 
like what has been put up on the screen.''
    Well, guess what, we are not a third-rate intelligence 
agency. We did not have to doctor anything. There was nothing 
doctored in those tapes, or in anything else we presented 
yesterday. They will try to distract attention. They will try 
to deceive. They will try to trap us in rhetoric. They will try 
to pretend that there is nothing going on, and that it is all 
phony when what they ought to do is when Drs. Blix and 
ElBaradei, Hans and Mohammad show up there on the weekend, they 
ought to come clean.
    Senator Sununu. The Iraqi response aside, could you talk a 
little bit more about the response after your presentation with 
the other Security Council members? I know you suggested it was 
a positive reaction, that you think there was even some 
movement. How many of the other members of the Security Council 
or the government representatives were you able to speak with, 
at least in an informal way, and any other specifics about 
those discussions that would be helpful, that you might share 
with the committee?
    Secretary Powell. I had one-to-one conversations, or 
delegation-to-delegation conversations with 13 of the 15 
members. The United Kingdom had to leave right way, and I did 
not need a conversation with Jack Straw, and I did not need a 
conversation with myself, but all of the other 13 I spoke to 
directly.
    I have to leave it to them, if I may, Senator, to comment 
on their position, and I have to give them the opportunity to 
go back to their capitals and talk to their head of state or 
government and have their own deliberations before I 
prematurely say what I think they might do in the future.
    Senator Sununu. I have a number of other topics I want to 
touch on briefly, and I will try to be very short in my 
questions.
    First, in the conversation about the Mideast peace process, 
earlier, you talked about the need for more in the way of 
advancement and reforms from the Palestinian Authority. You 
talked about optimism in response to what was happening in the 
Finance Ministry, I believe. Are there one or two other 
specific priorities you would like to see in addition, or what 
issues would you highlight most?
    Secretary Powell. The one I would highlight is security. We 
need to see a lot more on security, and that has been the 
weakest link, and until we can put in place a security 
apparatus that is competent, that is professional, and that the 
Israelis find competent and professional and have enough 
confidence that they can work with them, then we really will 
not see the kind of transformation that I think is necessary.
    The other thing that I would highlight is political 
transformation. We made it clear we need new leaders to emerge. 
And I would frankly like to see a Prime Minister emerge who has 
some independent authority of his own.
    Senator Sununu. I want to touch on the issue of security 
more broadly now with regard to embassies, embassy 
construction. I was able to have a discussion with some of your 
team looking at the embassy and security construction needs 
around the world late last year. I do not want to dwell on the 
negative. I think there has been a lot of positive, so forgive 
me for phrasing the question this way, but what setbacks have 
there been? Have there been any unexpected problems or setbacks 
with construction, and is there anything that the committee can 
do to try to alleviate those logjams?
    Secretary Powell. I am not aware of any particular setback, 
or particular embassy that is having a problem. But I will 
check with General Williams to see if there is anything that I 
should bring to your attention. I am very pleased at the 
progress we have made, and we are trying to use the $1.5 
billion a year you give us in the most efficient manner 
possible.
    I am sure that there may be one facility or another that is 
having a little difficulty, but we have been able to bang 
through all of the problems that we had encountered over the 
last 2 years, but I will check with General Williams if there 
is anything I should be highlighting.
    Senator Sununu. I would appreciate that. I think it is an 
important program. I know you value the program, but it is 
also, I think, a fair statement that Congress does not like 
surprises, so any problems or setbacks that are occurring, the 
earlier those problems can be raised, the better.
    My last question deals with assistance to the former Soviet 
Republics. They are cooperating to a large degree in the war on 
terrorism. I had the chance to visit Uzbekistan and Tajikistan, 
and I know there is some additional assistance, I think a 50 
percent increase in assistance to those countries.
    I know it is not easy, it is a subjective decision, but I 
would like you to talk a little bit about how you tradeoff the 
assistance, perhaps, in response to their cooperation in the 
war on terrorism with concerns that I think everyone on the 
committee shares about the lack of progress in a number of 
those former Soviet Republics on political reforms and economic 
reforms and human rights.
    Secretary Powell. We do not tradeoff. I meet with them on a 
regular basis, their Prime Ministers and Presidents and Foreign 
Ministers who come here, and during my visits there, and I 
welcome their support in the global war against terrorism, but 
in the very same breath, or the next breath, I make it clear to 
them that we are still expecting to see political reform, 
transparency in their system, the end of corruption, 
representative government, free media.
    All of the same standards are in place, and frankly, 
because they are working with us in the global war against 
terrorism, and we have created a new relationships with them, 
it gives us, I believe, more leverage to press them on these 
issues.
    We do not set aside human rights. We do not set aside any 
of the other items you talked about.
    Senator Sununu. Will the incentives of the Millennium 
Challenge Account be used to encourage reform in any of these 
countries, or is the account really reserved to developing 
nations in Africa or other parts of the world?
    Secretary Powell. We think the first priority with respect 
to the MCA will be in Africa and parts of our own hemisphere. 
That does not mean that they are not possible candidates, but 
they have got to have the basic requirements in place that we 
have spoken about: a commitment to democracy; transparency; the 
end of corruption; a rule of law; and all of the things that 
the President intends for the Millennium Challenge Account.
    There are other forms of foreign assistance and military 
assistance that we can use with those countries. Even then, we 
think some basic standards have to be met. It is not like the 
days of the cold war, when, because of superpower conflict and 
the need for a particular country to be on our side and not the 
Soviet side. We were willing to overlook things that, frankly, 
we should not have overlooked.
    Senator Sununu. Have any of the proposed MCA funds been 
allocated, $1.3 billion? Have any of them been allocated in 
other countries spoken about by Senator Feingold, Mozambique, 
Kenya, Somalia? Are they eligible for the funds through MCA, if 
there are appropriate reforms?
    Secretary Powell. Good question. We are still putting in 
place the criteria for MCA grants, or funding, and no country 
has yet been selected.
    Senator Sununu. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Sununu.
    Mr. Secretary, yesterday you mentioned seeing 13 members of 
the Security Council one-on-one. Today, you have met 15 
Senators one-on-one, and you have been complete in your 
responses.
    Secretary Powell. Do not ask me which was easier, please.
    The Chairman Let me ask that the record remain open until 
the close of business Friday for additional questions, and I 
would request of you, Secretary Powell, that you respond to 
those questions that might be asked by members who could not 
attend, or those who have thought of other questions even in 
the course of this dialog. We thank you very much.
    Senator Dodd. Mr. Chairman, can I just, before he leaves, 
we should note, by the way, the presence of your staff behind 
you, by the way. You do a great job. You are wonderful people, 
and we have worked with many of these people over the years, 
and I would not want the hearing to end without expressing our 
gratitude for the people who do not testify here, but work 
every single day to communicate with those of us up here. We 
are very grateful.
    Secretary Powell. Thank you. I am very proud of them. Thank 
you, Senator Dodd.
    The Chairman. Thank you. The committee is adjourned.
    [Whereupon, at 12:25 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


             Additional Questions Submitted for the Record


 Responses of Hon. Colin L. Powell, Secretary of State, to Additional 
     Questions for the Record Submitted by Senator Richard G. Lugar

                            OVERALL SPENDING

    Question 1. We are now spending for diplomacy less than 8 cents for 
every dollar we are spending on defense. Mr. Secretary, you have been a 
soldier and a diplomat. Would you say that ratio is about right?

    Answer. I don't think it's appropriate to compare international 
affairs funding with defense funding, or international affairs with 
Social Security or any other function. I know it can stand on its own 
merit.

    Question 2. Do you think the foreign affairs budget adequately 
reflects the times? The embassy bombings in August 1998, the September 
11 attacks, and the war on terrorism all have budget implications for 
the Department. The security of Americans working in all our embassies 
must be a top priority. Also, every embassy, especially those in 
frontline states, now has a new mission to fulfill in the war on 
terrorism. We also have growing anti-Americanism abroad, especially in 
the Islamic communities across the world. But the overall budget hasn't 
changed much, especially if you subtract the MCA funding. What are we 
shortchanging in order to perform the important new missions of this 
century?

    Answer. Only about one percent of our federal budget is allocated 
to international affairs. I would like to see us allocate a lot more, 
because the needs around the world are great.
    I'm pleased that President Bush has been able to increase 
international affairs funding every year that he has submitted a 
budget. He has taken a dramatic step with the Millennium Challenge 
Account, which represents a 50 percent increase in our development 
assistance. His HIV/AIDS Global Initiative is another significant 
increase.
    Yet I recognize that the President has to shape his budget in 
accordance with a large number of priorities and with the resources 
available, and the Congress has to do the same. I support the 
President's request and hope that you will fully fund it.

    Question 3. Will you be seeking additional funds in a supplemental 
in FY 2003?

    Answer. Yes. If a peaceful solution through diplomatic efforts is 
not attainable and conflict is necessary, there will be a need for 
supplemental funds--not only for the State Department, but for many 
other departments as well.

                            WAR ON TERRORISM

    Question 1. It has been 17 months since September 11th and the 
Department has had a great deal of experience now as the coordinator of 
our civilian counterterrorism effort overseas. Can you tell us how the 
effort is proceeding? What obstacles have you run up against? How have 
those obstacles been overcome?

    Answer. Since September 11, our civilian counterterrorism effort 
continues to build and sustain coalition commitment, cooperation and 
capacity to support the war on terrorism. Nevertheless, the terrorism 
threat continues at a high level, reflected in attacks from Bali to 
Tunisia to Mombassa, and oil tankers off the coast of Yemen. 
Notwithstanding, our extensive counterterrorism efforts in all regions 
are producing encouraging results.
    Al-Qaida has been expelled from Afghanistan and its terrorist 
training infrastructure there destroyed. More than one-third of al-
Qaida's top leadership has been killed or captured, including some who 
conspired in the 9/11 attacks, the 2000 attack on the USS Cole, and the 
1998 bombings of two U.S. embassies in East Africa.
    The remnants of Al-Qaida and its allies however remain a threat. 
Other terrorist organizations, such as the FARC, ETA, the real IRA and 
many Palestinian rejectionist groups, also threaten our citizens, our 
interests, and our allies around the world. As terrorist cells become 
more diffuse, often operating independently and with tight secrecy, we 
still face major challenges in obtaining timely intelligence. Libya, 
Sudan, Iran, Iraq, North Korea, Cuba and Syria are still state sponsors 
of terrorism. Some countries have been slow to direct their resources 
to detecting and preventing terrorist attacks. And many countries that 
have the will to counter terrorism do not have the necessary resources 
and capacity. Our diplomacy and programs aim to change these 
conditions.
    Our diplomacy and programs put a major focus on countering 
terrorism finances. An important tool is our designation of Foreign 
Terrorist Organizations (FTO's) Currently, 36 groups are designated. 
FTO designation carries several legal consequences including criminal 
penalties for American persons who knowingly provide material support 
or resources to designated FTO's. Meanwhile, more than 250 terrorist 
individuals and entities already have been designated under Executive 
Order 13324 on terrorist financing. We work closely with The Financial 
Action Task Force (FATF)--a 31-nation group promoting policies to 
combat money laundering--to deny terrorists access to the world 
financial system. And we provide training assistance to individual 
countries to help them strengthen their ability to curb terrorist money 
flows.
    We also are trying to overcome resource shortages and other 
obstacles within the U.S. government. Steps are being taken to better 
share intelligence information with the FBI, CIA and other agencies. 
State is playing a role in the creation of the Terrorist Threat 
Intelligence Center (TTIC). At the same time, there also are budget and 
resource issues. Delays in enacting the appropriations bills have 
complicated implementation of some of our counterterrorism programs. 
Quickly responding to unexpected developments, such as the requirement 
to provide protective details for the President of Afghanistan, 
requires moving funds from other security-related needs. Cuts in the 
Department's budgets over the years have pinched not only programs but 
the efforts to adequately staff embassies and bureaus to counter the 
terrorism threat. We want to work closely with Congress to alleviate 
these types of difficulties.

    Question 2. In Pakistan, after September 11, some 3,000 U.S. 
officials on temporary duty (TDY) descended on the embassy to help 
track down Al-Qaeda terrorists. They included State's own diplomatic 
security personnel, FBI officers, special forces and intelligence 
agents. Embassy staff was reportedly stretched thin with only 4 
political officers and 2 economic officers to support the influx. What 
is the Department's current ability to provide ``surge capacity'' in 
times of need? Would it be useful for the Department to develop mobile 
sections in such areas as communications, consular activities and 
administrative and political support?

    Answer. Our Diplomatic Readiness Initiative (DRI) was designed to 
provide us adequate personnel to respond to crises and emerging 
priorities. We do currently maintain ``surge'' teams for security, 
consular, administrative/management, and terrorism response assistance. 
Typically, we provide additional capacity to the Embassy's political or 
other sections by pulling experienced people from other places and 
applying them to that priority situation. Because we had underhired 
compared with our expanding mission in the 1990s, those responding to a 
crisis usually left important work unattended. With full implementation 
of the Diplomatic Readiness Initiative in FY2004, we will have built a 
stronger capacity to respond to these events and will be on our way to 
planning for crises rather than just responding to them.

    Question 3. What other kinds of strains has the enhanced counter 
terrorism mission placed on embassy resources and personnel? Do you 
believe that the embassies have been provided resources adequate to the 
task? What would be necessary to do a better job?

    Answer. The counter terrorism mission of the Department is growing 
and is another example of the increasingly complex and challenging 
international environment in which we operate. As our mission grows we 
will continue to assess what is needed to meet it and will request 
resources needed to meet them. Because the Diplomatic Readiness 
Initiative (DRI) was conceived of in 2001, we have found it necessary 
to revise our implementation plans in the wake of September 11 so that 
we can meet new priorities. For example, we have experienced falling 
revenues from Machine Readable Visa fees and therefore had to provide 
for the increased consular workload requirement out of our DRI funded 
positions. We have also had to staff Embassy Kabul.

    Question 4. Have you been able to develop an institutional sense of 
``lessons learned?'' In other words, have there been successes in, for 
example, the law enforcement to law enforcement area in one country 
that can be replicated using similar techniques in another country?

    Answer. We have been promoting the sharing of experiences and 
``lessons learned'' through a variety of fora. For example, working 
with other countries in the G-8, we helped develop a compilation of 
best practices in dealing with counter terrorism issues. These included 
both general and specific recommendations, including a discussion of 
successful practices for dealing with hostage taking and weapons of 
mass destruction. We shared the final document, An Inventory of G8 
Counter-terrorism and Transnational Crime Best Practices, December 
2002, with the United Nations Counterterrorism Committee, the lead 
institution for helping countries implement UNSCR 1373.
    The Office of the Coordinator for Counterterrorism (S/CT) has 
hosted regional conferences in which countries shared their experiences 
fighting terrorism. For example, last year we brought together Pacific 
Basin countries in Honolulu and Central Asian countries in Ankara.
    In the Western Hemisphere, as the U.S. Chair of the OAS Inter-
American Committee Against Terrorism (CICTE), S/CT worked with the U.S. 
Mission to the OAS and other USG agencies to launch this organization 
as the Hemispheric focal point for promoting and coordinating CT 
information sharing, capacity building and technical assistance, 
especially in the areas of border security and anti-terrorist finance 
regimes. The CICTE 2003 work plan calls for regular dissemination of 
``lessons learned'' to all member states. The organization will be 
featured as a model for other regional organizations to consider at a 
Special Meeting on March 6 of the U.N. Committee on Counterterrorism 
(CTC).
    We have held seminars for 36 countries, organized on a regional 
basis, to help other countries strengthen their counterterrorism 
legislation. The seminars included not only discussions of CT law, but 
also case studies of key investigations with the intention of sharing 
law enforcement techniques. Participating countries and outside 
speakers from Australia, Canada, the United Kingdom and Germany also 
shared useful experiences from their legal and law enforcement 
perspectives.
    On a bilateral level, we annually hold a series of meetings with 
individual countries, including India and Russia as well as other 
partners such as the U.K. and Canada in which we share CT experiences. 
We also provide training through interagency teams to share techniques 
for countering terrorism financing. Our Anti-Terrorism Assistance (ATA) 
programs share our experiences and knowledge with law enforcement 
officials of other countries.

    Question 5. Are there unique characteristics to working on 
counterterrorism issues in Islamic countries? How do we get our law 
enforcement and financial experts trained so that they can be effective 
in an Islamic culture?

    Answer. Like all foreign cultures, Islamic countries present unique 
and varied operational challenges to American officials. In all foreign 
countries, not solely in the Islamic world, we must continue to provide 
our diplomats and overseas law enforcement and financial officials with 
necessary language and cross-cultural skills to effectively navigate in 
these foreign environments. Further, we must continue to develop the 
skills particular to area experts who understand the governmental, 
financial and security systems of Islamic counties.
    The National Foreign Affairs Training Center (NFATCE) plays a major 
role in Counterterrorism training, and the Bureaus of Near Eastern 
Affairs (NEA), Consular Affairs (CA), Diplomatic Security (DS) and the 
Office of the Coordinator for Counterterrorism (S/CT) are all 
contributing to its efforts.

    Question 6. Who is providing the translation for this effort 
[counter terrorism] when it is necessary? Is it the Foreign Service 
officers or do we hire local translators? Do you think that more local 
language proficiency among Foreign Service officers would help our 
anti-terrorism effort overseas? What is being done to enhance 
recruitment of language-capable officers?

    Answer. The Department strives to ensure that employees have the 
language skills needed to do their jobs. We consider language a 
critical skill and assess overseas positions yearly to determine which 
should require language skills. Employees who are assigned to those 
positions must have or be able to acquire that language skill level 
before going to post. While some waivers are given, in FY2002 in 88 
percent of the language designated positions which were filled, we were 
able to assign a language qualified person.
    Strong language skills are an important element in enabling our 
diplomats to deal effectively with important issue such as counter-
terrorism. While we do not require language skills for employment, we 
have an active foreign language recruitment program to identify and 
recruit Americans with existing foreign language skills. We rely on 
training employees in languages as they are needed in order to be able 
to flexibly respond to changing needs. The new hiring due to the 
Diplomatic Readiness Initiative is ensuring that all new employees 
receive more language training before they assume their first overseas 
assignments.

    Question 7. Each embassy is in a unique situation in its role on 
terrorism. How would you react to a request to the GAO for a report on 
ten countries on the frontline. We would ask that the report outline 
the tools they have available to them, including economic and 
development assistance, and their effort in coordinating 
counterterrorism and facility security. We would want to know whether 
the ambassador feels he/she has the resources necessary to do the right 
job.

    Answer. I recognize the useful role that the GAO can play for 
Congress and have no objections to such a study. We would hope, of 
course, that the teams do not divert too much time from each embassy's 
ongoing activities. We would like to coordinate in advance to ensure 
that whichever countries are selected can indeed host the GAO team, 
based on their current security posture and position. One way for GAO 
to streamline the study might be through the use of a questionnaire 
provided to selected posts.

           NONPROLIFERATION AND ANTI-TERRORISM (NADR) FUNDING

    Question 1. Is the 14% increase in funding for the International 
Science Centers and Bio-Chem Redirection sufficient? If you had gotten 
an extra $30 or $40 million, rather than only $7 million, could that 
money have been used on valuable projects?

    Answer. In the context of overall budget priorities, the Department 
of State's FY 2004 request for $59 million for the Science Centers in 
Moscow and Kiev and the Bio-Chem Redirection program is adequate. 
Moreover, these programs are part of a broad, coordinated interagency 
effort to prevent proliferation of WMD expertise, including the 
Department of Defense Cooperative Threat Reduction (CTR)/BW 
Proliferation Prevention program and the Department of Energy Russian 
Transition Initiatives. This year, and in the future, the Science 
Centers and Bio/Chem Redirection Program will increase its emphasis on 
moving more scientists into self-supporting civilian commercial 
endeavors by creating more opportunities for them to develop and 
compete for other sources of public and private funding. But this 
increased emphasis on redirection, while at the same time continuing 
our outreach to former weapon scientists and institutes, will require 
sustained financial support of the Science Centers and Bio-Chem 
Redirection programs in the near term.

    Question 2. Has State developed a strategy to guide scientists into 
commercially viable pursuits so that some can ``graduate,'' freeing up 
funding for others?

    Answer. The Department of State is currently in the second phase of 
a strategy designed to permanently redirect former WMD scientists into 
sustainable civilian pursuits.
    Under the first phase, the objective was to identify and engage 
former WMD scientists and engineers through the International Science 
and Technology Center (ISTC) in Moscow, the Science and Technology 
Center in Ukraine (STCU), and the Bio Redirection programs carried out 
by the Departments of Agriculture and Health and Human Services, and 
the Environmental Protection Agency. This first phase successfully 
engaged tens of thousands of scientists and engineers in civilian 
projects. The Bio/Chem Redirection Program was developed to focus time-
urgent engagement and redirection efforts through the Science Centers 
on former BW scientists and institutes that have been of particularly 
high proliferation concern, as well as an expanded focus former 
chemical weapon scientists and institutes.
    The second phase, which began in 2002, aims at accelerating the 
transition of former WMD scientists and institutes to peaceful 
endeavors, including civilian research and commercially viable private 
sector enterprises. Several steps are being taken to meet this goal, 
including reorganizing and refocusing the ISTC and STCU to improve 
their programmatic ability to redirect scientists and institutes, and 
assisting biological and chemical weapon scientists to develop feasible 
avenues toward self-sustainability plans through the Bio-Chem 
Redirection program and the BioIndustry Initiative. The BioIndustry 
Initiative, started in FY 2002 at the direction of Congress with a one-
time $30 million transfer from the Department of Defense/Cooperative 
Threat Reduction appropriations, has been developing models for 
graduating selected BW scientists and bioproduction facilities into 
more economically viable and self-supporting entities, such as 
accelerated drug and vaccine production. These initiatives will 
leverage work being done by other USG nonproliferation/threat reduction 
programs, as well as with other bilateral and multilateral economic and 
technical assistance efforts.

    Question 3. This request zeroes out funding for KEDO, including 
administrative funding. If there were to be an agreement with North 
Korea, however, isn't it likely that the KEDO mechanism would be used 
again? Why is there not at least the administrative funding for KEDO in 
this budget, as there is in the omnibus FY 2003 appropriation? Are 
there any funds in the FY 2004 budget to cover the costs that might 
accrue in some ``better than the Agreed Framework'' settlement with 
North Korea?

    Answer. Congress appropriated up to $5 million for KEDO in FY03, 
provided the President determine that such a contribution is vital to 
the national security interests of the U.S. Preserving our ability to 
contribute to KEDO provides us flexibility to work with our allies to 
achieve our shared non-proliferation goals. The U.S. is consulting with 
the other members of KEDO's Executive Board (South Korea, Japan, and 
the EU) about the future of the organization, including the future of 
the light water reactor project. We are not prejudging any decisions in 
this regard. We will keep in close touch with Congress as we proceed.
    We do not know now what role, if any, KEDO will play next year, so 
the Administration did not request FY04 funding for KEDO. If we find it 
is in our interest to fund KEDO's administrative or other costs, we 
will request as necessary. We are working closely with our KEDO 
partners and continuing to consult on KEDO's future activities and 
financial commitments.

    Question 4. Anti-Terrorism Assistance (ATA) seems to be on a 
funding roller coaster. Actual FY 2002 expenditures were $158 million; 
the FY 2003 request was only $64 million; and the FY 2004 request is 
for $106 million. Is there an explanation for the fluctuations? What 
spending level are you aiming for over time, and when will we get 
there?

    Answer. The ATA program's FY 2003 request for $64 million was 
submitted prior to September 11, 2001. The $158 million received in FY 
2002 included the baseline FY 2002 budget and two supplemental 
allocations provided after September 11. The State Department, knowing 
the FY 2002 and FY 2003 baseline budgets would not cover post-9/11 
needs, included requests in both supplementals to meet expected ATA 
growth through FY 2003.
    The FY 2004 request is the Department's best estimate of what ATA 
will need to sustain its expanded activities and meet its capacity-
building mandate. Assuming no significant counterterrorism crises, and 
without an increase in human and other capital resources for ATA, the 
Department anticipates ATA will operate in the $100-150 million range 
per annum over the next few years.

    Question. 5. There is a lot of talk about doing more to guard 
against radiological terrorism, and the IAEA will play a major role in 
that effort. The Security Assistance Act enacted last year calls for an 
effort to increase the regular IAEA budget, in part for this purpose, 
and the Administration supported that provision. But the U.S. voluntary 
contribution to the IAEA in the NADR account holds steady at $50 
million, and the request for our regular budget contribution actually 
goes down from $57 million this year to $54 million in FY 2004. Is the 
United States failing to put its money where our mouth is? Do we expect 
the value of the dollar to rise sharply, thus decreasing the cost or 
our budget assessments? Is significant extra IAEA funding contained in 
the Department of Energy budget?

    Answer. Recent events highlight the critical role the IAEA plays in 
international efforts to prevent the proliferation of nuclear weapons. 
Director General ElBaradei has proposed, and the United States 
supports, an i increase in the IAEA's regular budget for safeguards--
inspections and related activities. The IAEA's treaty-driven safeguards 
mandates have grown in every respect, from the expanding number of 
countries and nuclear facilities subject to inspections to the new 
safeguards measures developed in the 1990s to strengthen its ability to 
detect undeclared nuclear activities.
    The United States gives high priority to the IAEA budget and pays 
its assessed share in full. We expect the assessed budget to increase 
in 2004 and to pay our full assessment. The drop in our request from FY 
2003 to FY 2004 is based solely on the changing assumptions about 
currency exchange rates. At present the value of the Euro is at 
historically high levels, and the FY 2004 request is based on the level 
which was in effect last April, when the budget was originally 
formulated.
    U.S. voluntary contributions help meet urgent near-term needs and 
provide specialized expertise. However, in recent years the IAFA relied 
increasingly on voluntary contributions, mostly from our NADR account, 
to carry out its core safeguards responsibilities. An increase in the 
regular budget should reduce this reliance and enable us to use 
available NADR funds to support other important priorities, for example 
in nuclear safety and security.
    The Department of Energy does not contribute to the regular budget 
of the IAEA, but has provided extrabudgetary support to the IAEA, 
including its efforts to combat radiological terrorism. I will leave it 
to Secretary Abraham to provide any further detail you may need.

                               PERSONNEL

    Question 1. Should the Diplomatic Readiness Initiative now be 
expanded?

    Answer. The DRI is a good start. If fully implemented, the 1158 new 
employees will fill our most critical gaps in our workforce. Because 
the Diplomatic Readiness Initiative (DRI) was conceived of in 2001, we 
have found it necessary to revise our implementation plans in the wake 
of September 11 so that we can meet new priorities. For example, we 
have experienced falling revenues from Machine Readable Visa fees and 
therefore had to provide for the increased consular workload 
requirement out of our DRI funded positions. We have also had to staff 
Embassy Kabul. This may require additional resources as we review our 
situation.
    We believe that diplomatic readiness must be maintained by 
continually assessing our requirements. Our workforce planning tools 
are being updated and additional tools applied to assess our needs more 
effectively. As our frontline mission in counter terrorism and other 
areas expands and changes we will work to meet those missions and will 
request needed resources.
    But the Diplomatic Readiness Initiative is not only about hiring. 
We must also ensure that our people are taken care of. This means 
providing better buildings, information technology, schools, and 
medical care. It means having family-friendly policies and programs to 
enable spousal employment. It means providing incentives for hardship 
service and working to solve the problem of a 12 percent and growing 
pay gap between domestic and overseas positions due to locality pay. 
And it means providing training especially for managers. We will need 
support to provide for these so that our employees are better able to 
do their jobs.

    Question 2. Is the Department successful in achieving its diversity 
goals?

    Answer. The Department is making huge strides in reaching out to 
minorities interested in serving their country on the State Department 
team. For example, the total number of minority registrants for the 
three foreign service written exams offered since the Diplomatic 
Readiness Initiative was launched in 2001 is greater than the 
corresponding total for 10 exams preceding its launch (1988-2000). As a 
result, the number of minorities hired as FSOs in 2002 was more than 
double the number for 2001.
    However, given the lead time required to recruit, clear, and hire a 
new foreign service officer, it would be premature to say that the DRI 
has been fully successful in achieving our diversity goals. Therefore, 
the Department is continuing its intensive effort--begun as part of the 
overall Diplomatic Readiness Initiative--to encourage minority interest 
in State Department careers. We are hopeful that these efforts will 
soon translate into further increases in minority employment at the 
State Department.

    Question 3. A 2002 GAO report found that significant staffing 
shortfalls plague diplomatic posts that are considered hardship 
locations. China, Saudi Arabia and Ukraine, all visited by the GAO, 
were found to have staffing gaps. In addition, in these countries, many 
employees including new or untenured junior officers were either 
working well above their grade levels or did not meet the minimum 
language requirements. What can be done to get these posts fully 
staffed as soon as possible?

    Answer. The most critical need is to have adequate overall staffing 
in the Department so that we have enough employees to staff all 
positions as well as enough of a ``personnel complement'' to allow some 
employees to be released for appropriate training while not leaving 
jobs unfilled. Fully implementing the Diplomatic Readiness Initiative 
is a priority.
    Staffing hardship posts is a high priority for Department 
management. In addition, we have begun to implement many initiatives 
and policy changes resulting from a series of hardship staffing working 
groups. Our aim is to make hardship service less ``hard'' and to 
provide incentives for service in such posts. Many initiatives we can 
implement now while some may require legislative changes or additional 
funding.

    Question 4. Foreign Service generalists are the diplomats who 
negotiate with foreign governments, make the contacts necessary for our 
antiterrorism experts to succeed, and work face-to-face with officials 
and the public. What would be your reaction to a provision in our 
legislation that authorizes you to bring the number of Foreign Service 
generalists to 10,000 over a certain period of time? (There are now 
5,703 Foreign Service generalists. If USIA employees who joined the 
Department in October 1999 when USIA merged into State are subtracted, 
the total is 4,880. Even with the diplomatic readiness initiative, that 
is only a modest increase over the 1986 figure of 4,630.)

    Answer. We appreciate the interest in ensuring diplomatic 
readiness. We need to attain full funding for the FY 2004 final tranche 
of the Diplomatic Readiness Initiative. We may indeed require further 
increases in personnel to meet our mission and we are continually 
assessing those needs as we implement our Domestic Staffing Model, 
continue to refine our Overseas Staffing Model and make great strides 
in the Department's strategic planning and budgeting process.

                                 VISAS

    Backgound: Two recent reports, one from the GAO and the other from 
the State Department's Inspector General, highlighted staffing 
inadequacies that are clearly affecting our ability to make good 
decisions quickly in the visa issuance process. Increased language and 
other training for consular officers issuing non-immigrant visas (NIV), 
better access to intelligence, and improved technology are crucial to 
the Department's future effectiveness in this area. Protecting the 
country from those who wish to do us harm must be at the top of the 
Department's agenda. Providing the kind of access that our own citizens 
expect to enjoy abroad to the tens of thousands of well-meaning foreign 
businessmen, students, and tourists is also a high priority.

    Question 1. Can you describe the changes that have been made in the 
consular area since September 11, 2001, that are intended to heighten 
the caution with which we grant entry to the United States?

    Answer. I testified last July before the House of Representatives 
on the Homeland Security bill, stating that our first line of defense 
in protecting ourselves from those who would come to our shores are our 
diplomats at our consulates and other locations around the world, where 
we issue visas to people to come to America. The Department has no 
greater responsibility than that of securing our nation's borders 
through vigilance in the visa function and there is no area to which we 
have devoted greater attention, thought, and resources. The Department 
of Homeland Security is now a reality, and, since passage of the bill 
marking its creation, the Department of State has been focused on 
integrating the visa work done abroad by State consular officers with 
DHS' statutory authority over visa policy and regulations. We have made 
substantial progress in forging this relationship, one that is critical 
to our effort to ensure that no one who means harm to the United States 
is able to use the visa process to hurt us.
    For its part, the Department of State has made sweeping changes to 
the visa and passport processes and entry screening requirements during 
the months since September 11, 2001. The steps outlined below are just 
some of our efforts to improve the security of U.S. borders, which also 
include our ongoing participation in interagency efforts to implement 
the provisions of the USA Patriot Act and Enhanced Border Security Act, 
the National Security Entry Exit Registration System (NSEERS), and the 
formation of the new Department of Homeland Security.

Improvements Made in Visa and Passport Processing
            Document Integrity
  <bullet> In March, 2002, pilot tested the new, tamper-resistant 
        Lincoln visa with worldwide deployment to be completed by May, 
        2003.
  <bullet> Converted all domestic passport agencies to issue the new, 
        more secure photo-digitized and tamper-resistant U.S. passport.
  <bullet> Shifted production of all ``non-emergency'' overseas 
        passports from posts abroad to the U.S. to take advantage of 
        photo-digitization technology. Began testing electronic 
        transfer of passport data between posts and a domestic passport 
        center. This new process will eliminate the need to send paper 
        applications to a domestic passport center for passport book 
        production. The pilot is progressing satisfactorily. We expect 
        to implement this new process at all posts by the end of 2003.
  <bullet> Implemented the Passport Lookout Tracking System (PLOTS), 
        containing roughly 150,000 fraud files, which can be reviewed 
        system-wide to prevent issuance of fraudulent U.S. passports.
  <bullet> Developed and deployed a unique, secure ink for canceling 
        machine-readable visas to deter ``visa washing,'' the practice 
        of treating an issued visa with chemical solvents in order to 
        removed the toner and thus use the visa foil for fraudulent 
        purposes. The new ink fully permeates the visa to prevent 
        fraudulent use.
  <bullet> Deployed the Consular Lost and Stolen Passport (CLASP) 
        lookout system to all overseas posts, serving as the central 
        repository for information regarding lost or stolen U.S. 
        passports. Data entered into CLASP is also automatically 
        forwarded to the U.S. Customs Service's Treasury Enforcement 
        Communication System (TECS) to assist in the apprehension of 
        imposters using lost and stolen passports at the ports of 
        entry.
  <bullet> Created a network connection for electronic access to 
        digital images of passport records to all passport agencies, 
        consular posts, and authorized CA Headquarters personnel. The 
        information contained in the system is used to provide 
        information needed for verifying passport issuance in cases of 
        lost/stolen passport replacement, avoiding questionable 
        passport issuance and verifying citizenship verification.
            Application Processing
  <bullet> Added more security checks for certain groups of visa 
        applicants from certain countries.
  <bullet> Provided access to the Consular Consolidated Database (CCD) 
        for all consular officers worldwide as well as to INS 
        inspectors at port of entry, U.S. Customs personnel and other 
        entities.
  <bullet> Expanded intranet resources for consular adjudicators and 
        Diplomatic Security investigators to assist them in reading and 
        verifying entry/exit cachets in Arabic or Persian script.
            Namechecks
  <bullet> Incorporated approximately 8 million records from the FBI's 
        National Crime Information Center (NCIC) into our Consular 
        Lookout and Support System (CLASS) namecheck database. This 
        more than doubles the records on file.
  <bullet> Received into CLASS a significant increase in namecheck 
        records from the intelligence community (through TIPOFF--the 
        State Department's clearinghouse for sensitive intelligence and 
        watch-list entries). (TIPOFF has processed approximately 31,000 
        new entries since October 2001 bringing the total to over 
        78,000 terrorist lookouts).
  <bullet> Started automated cross checking of new derogatory 
        information concerning terrorists or suspected terrorists 
        (including TIPOFF entries) against CCD records of previously 
        issued visas. When there is a match, the visa is revoked and 
        INS notified.
  <bullet> Placed the U.S. Marshals database (WIN) of 20,000 
        individuals not entitled to passports because they are subject 
        to outstanding federal warrants of arrest into the passport 
        side of CLASS in November 2002.
  <bullet> In January 2003, began pilot test in Mexico of the new 
        Hispanic algorithm which we believe will greatly increase the 
        accuracy of namecheck returns for Hispanic names.
  <bullet> Completed East Asian algorithm linguistic study as the first 
        step in the process of developing language- and culture-
        specific algorithms to better support namechecks in CLASS for 
        East Asian names.
  <bullet> Prepared Backup Namecheck System (BNC) using Real-Time 
        Update (RTU) for deployment beginning early 2003. This is a 
        backup namecheck system designed to support visa operations in 
        the increasingly rare event of telecommunications failures. 
        With the combination of BNC and RTU, the CLASS visa database is 
        replicated on a near-realtime basis to PC-based backup systems 
        at each consular post worldwide.
  <bullet> Upgraded the Travel Document Issuance System--Photodig 
        (TDIS-PD) to include the Consular Lost and Stolen Passport 
        (CLASP) database and a new Social Security matrix. The CLASP 
        database includes all reported lost and stolen U.S. passports, 
        while the Social Security matrix determines the State and 
        issuance date for a Social Security number which is then 
        compared to the State and date of birth provided by an 
        applicant, helping passport personnel to flag questionable 
        cases for further analysis.
            Enhanced Data Collection
  <bullet> Included 25 additional data elements in the automated NIV 
        processing system (NIV 4.01) to be in worldwide use in early 
        2003. Most of these data elements were added at the request of 
        the law enforcement and intelligence communities and will 
        greatly enhance our ability to share meaningful case 
        information electronically.
  <bullet> Created new forms--the DS-157 (November 2001) and DS-158 
        (July, 2002)--to expand data requested of targeted cases and 
        revised DS-156 to expand data collection, again to increase the 
        amount of information available to the larger border security 
        community.
  <bullet> Provided all posts with software and scanners to support 
        scanning of supporting evidence for serious refusals. By adding 
        images of these documents to the consular database, refusal 
        details will be more widely available to inspectors at ports of 
        entry and others in the border security community.
  <bullet> Electronically capture photos for all refused NIV 
        applicants, expanding the database of photos as a resource for 
        anti-fraud and border security work.
  <bullet> Revised photo standards for NIV applicants to improve 
        quality of data for facial recognition and other purposes. As 
        these higher quality photos are added to the consular database 
        for every visa applicant (whether issued or refused), the USG 
        steadily gains photos for identification to aid with visa 
        adjudication and national security tasks.
            Expanded Information Sharing
  <bullet> Expanded Consolidated Consular Database (CCD) access to all 
        U.S. ports of entry and other U.S. government agencies.
  <bullet> Piloted data-share with the Social Security Administration 
        to facilitate the issuance of Social Security number cards to 
        new legal immigrants.
  <bullet> Serious visa refusal files for posts in high intelligence 
        threat regions or those with space problems are stored at the 
        Kentucky Consular Center (KCC). These are refusals dealing with 
        ``Category 1'' grounds of ineligibility, having to do with 
        terrorism, criminal, national security and other serious 
        grounds of visa refusal under U.S. law. KCC has begun back-
        scanning, in order to make these files available to all users 
        of the Consular Consolidated Database (CCD).
  <bullet> Expanded distribution of the Department of State's 
        electronic Intelligence Alerts on lost/stolen blank documents, 
        making them available to more than 700 addresses in federal, 
        state, and local agencies and to foreign governments.
  <bullet> Began automatically forwarding data from the Consular Lost 
        and Stolen Passport (CLASP) system to the U.S. Customs 
        Service's Treasury Enforcement Communication System (TECS) for 
        use at ports of entry.
  <bullet> Began back-scanning previously issued U.S. passport 
        applications which will make the data available back to 1994. 
        Approximately 8 million records have been scanned. Once this 
        project is completed, passport records including photographs 
        will be available for all currently valid passports.
            Internal Controls
  <bullet> Restricted Foreign Service National (FSN) employee access to 
        namechecks.
  <bullet> Removed FSN ability to request namechecks outside of an 
        actual visa application. This change was made worldwide through 
        the deployment of a new tool for use in conducting ad hoc 
        namecheck queries by American personnel only.
  <bullet> As a pilot, removed FSN access to all namecheck information 
        in the NIV system at six pilot posts in August, 2002.
  <bullet> Worldwide restrictions to begin in March 2003.
  <bullet> Announced changes to the role of Consular Associates, 
        cleared American citizens used in consular work overseas. This 
        involves a fundamental realignment of American consular 
        resources overseas so that visa adjudication is restricted to 
        commissioned Foreign Service officers while other sensitive 
        consular activities are given to cleared American personnel in 
        lieu of Foreign Service Nationals.
  <bullet> Visa Referral system reviewed and post/consular managers 
        reminded of controls needed. Form revised and made mandatory.
  <bullet> New management tools to monitor user accounts on consular 
        automated systems.
  <bullet> Mandated a special worldwide review of management controls.
  <bullet> Implemented Consular Management Assistance Teams, which 
        visit posts to review management controls and procedures, and 
        expanded the management assessment review program at passport 
        agencies.
  <bullet> Began the process of formalizing and disseminating Standard 
        Operating Procedures for visa processing.
  <bullet> Are establishing with Diplomatic Security a vulnerability 
        assessment unit within CA to examine fraud trends and identify 
        issues for further investigation.
            Fraud Prevention Efforts
  <bullet> Establishing anti-fraud units at the National Visa Center in 
        Portsmouth, New Hampshire (NVC) and the Kentucky Consular 
        Center (KCC). First goal is data validation/fraud screening for 
        employment-based cases using automated search tools to query a 
        wide variety of commercial and government databases concerning 
        company backgrounds. Recruitment of Fraud Program Manager 
        position for NVC is underway. After experience gained program 
        will be expanded to KCC.
  <bullet> Based on success in identifying imposters and duplicate 
        entries with the Diversity Visa lottery (DV) program, anti-
        fraud efforts using Facial Recognition are being expanded to 13 
        other NIV applicant pools on a pilot basis. These countries 
        were chosen due to a combination of security and fraud 
        management concerns.
  <bullet> Commenced pilot program with Virginia DMV to share 
        information on fraudulent foreign documents submitted in 
        support of drivers license applications.
  <bullet> Implemented program with SSA to train SSA investigators on 
        the detection fraudulent foreign documents, and to increase 
        information sharing between SSA investigators and passport 
        agencies.
  <bullet> Initiated work with a contract consultant to design 
        approaches for mining data in the Consular Consolidated 
        Database to provide additional anti-fraud and management 
        oversight information.
            Guidance/Training
  <bullet> As part of the effort noted above to prepare and disseminate 
        standard operating procedures for consular work, working to 
        revise all training materials to incorporate this guidance.
  <bullet> Initiated an Advanced Namechecking course at the Foreign 
        Service Institute.
  <bullet> Made changes to the basic consular training course to add 
        additional material on fraud, ethics and terrorism in addition 
        to new material on interviewing techniques.
            Security Improvements
  <bullet> Participated in the drafting of an Entry-Exit Project 
        Charter (National Security Entry Exit Registration System, 
        NSEERS), working jointly with INS, Customs, and DOT, which sets 
        the parameters for an automated system to record the arrivals, 
        departures, and stay activities of individuals coming to and 
        leaving the U.S.
  <bullet> Have proposed the elimination of crew list visas (proposed 
        regulation has been published for public comment). This is 
        important because travelers on crew list visas do not require 
        individual passports and visas, so the elimination of this visa 
        class will provide for more thoroughly documented and reviewed 
        travelers.
  <bullet> Are now requiring visas for landed immigrants (from non-Visa 
        Waiver Program countries) in Canada and Bermuda. This change 
        was made in order to ensure that all travelers to the U.S. are 
        subject to appropriate levels of scrutiny in the visa process 
        independent of their current country of residence.
  <bullet> Have amended regulations to prevent automatic revalidation 
        of visas for NIV applicants with expired visas and a valid I-94 
        who apply in Canada or Mexico and for all nationals of ``state 
        sponsors of terrorism'' regardless of whether they apply for a 
        visa.
  <bullet> Have reiterated standing guidance on interview requirements 
        for applicants subject to security advisory opinion 
        requirements.
  <bullet> Are working closely with INS field and service center 
        operations to support their increased use of DOS lookout data 
        available in the Interagency Border Inspection System (IBIS) 
        for benefits processing.

    Question 2. Can you share with the committee how your budget 
request addresses the needs outlined by GAO and the OIG for the 
Consular Affairs bureau?

    Answer. The Department's FY 2004 budget includes $616.82l million 
to fund the Border Security Program. This program funds virtually all 
consular operations worldwide. The program addresses many of the issues 
raised in the reports from the General Accounting Office and the State 
Department's Inspector General. For example, consular staffing needs 
are addressed through the funding of the salaries of approximately 
2,400 full time domestic and overseas consular personnel and support 
staff. The program provides all consular staff with modernized consular 
systems. Hardware and software is replaced on a routine basis, while 
systems training of new consular hires and refresher training for 
existing personnel follows an 18 month training schedule. The Consular 
Lookout and Support System (CLASS), which is a database of over 15 
million names, allows consular officers immediate access to information 
needed for visa and passport adjudication. This information is also 
shared with other government agencies involved in homeland security. 
The Border Security program also provides specialized consular training 
on all aspects of consular work through the Department's Foreign 
Service Institute.

    Question 3. Could you describe the role that you expect the 
Department of Homeland Security to play in our embassies overseas?

    Answer. Discussions are still underway between the Department of 
State and the Department of Homeland Security (DHS) concerning the role 
of DHS personnel in our embassies overseas. From January 16-24, a DHS 
assessment team accompanied by a DOS officer traveled to Saudi Arabia 
to address specifically the requirement of section 428(I) of the 
Homeland Security Act regarding the mandatory DHS review of visa 
applications in Saudi Arabia. The team's report is under review within 
DHS. The Department of State stands ready to help DHS personnel take up 
overseas duties that would enhance our ability to ensure that visas are 
not issued to terrorists or others who would harm us.

    Question 4. How successful are consular officers in gaining access 
to the intelligence information they need to make decisions? Do they 
have the benefit of both CIA and FBI input? What would be your reaction 
if the Committee wrote into the bill language stating that consular 
officers should have immediate access to U.S. government information on 
individuals and groups who wish harm to U.S. citizens in order to 
better inform their decisions on visa adjudication?

    Answer. Significant progress has been made in the past year to 
increase the amount of information available to visa officers overseas 
and, conversely, to INS and other law enforcement and intelligence 
agencies in the United States. The State Department's Consular Lookout 
and Support System (CLASS), a comprehensive database which integrates 
information from State, FBI, INS, DEA and intelligence sources, is a 
principal example of this progress. The Department has been able to 
leverage the provisions of the Enhanced Border Security Act and USA 
Patriot Act to make CLASS an ever-stronger tool in our efforts to 
protect our national security. CLASS uses sophisticated search 
algorithms to match lookout information to individual visa applicants. 
Every single visa applicant is run through CLASS, and, in fact, our 
automated processing systems will not print a visa until the consular 
officer has checked and resolved ``hits'' of the applicant's biodata 
against the lookout system data. CLASS is only as good, however, as the 
data that it contains. Since 9/11 this situation has improved 
dramatically.
    CLASS records have doubled since September 11. Per USA Patriot Act 
mandate, approximately eight million names of persons with FBI records 
were added to the CLASS database by August 2002, augmenting 5.8 million 
name records from State, INS, DEA, and intelligence sources. These NCIC 
records include the FBI's Violent Gang and Terrorist Organization File, 
a particularly valuable resource. When a visa applicant ``hits'' 
against NCIC records in CLASS, consular sections can obtain 
fingerprints to pass to the FBI for purposes of obtaining a full 
criminal record if necessary. The fingerprints also help guard against 
any identification problems.
    20,000 Customs serious violator name records have been added to 
CLASS since September 11, 2001. CLASS now has over 78,000 name records 
of suspected terrorists, up 40% in the past year. Most of this 
information has entered CLASS through TIPOFF, a program run through the 
Department's Bureau of Intelligence and Research that acts as a 
clearinghouse for sensitive intelligence information provided by other 
agencies throughout the U.S. government. The TIPOFF staff is able to 
review and evaluate information concerning suspected terrorists and 
pass sanitized index information to CLASS. Since September 11, 2001, 
approximately 31,000 new terrorist lookouts have been entered in the 
TIPOFF database.
    As should be clear from the preceding discussion, consular officers 
in the field need immediate, comprehensive access to the index or 
watchlist information concerning persons of concern to the United 
States. We strongly believe that a robust and comprehensive 
watchlisting system such as that represented by the TIPOFF and CLASS 
databases is the key to effective screening of visa applicants. It 
would not be helpful to push more detailed intelligence into the hands 
of consular officers in the field, who are operating largely in an 
unclassified environment under conditions that do not allow detailed 
analysis. Rather, analysis and review should be completed in 
Washington, with watchlist details provided to TIPOFF and, through that 
mechanism, to CLASS.

    Question 5. What is the current backlog in visa applications (both 
immigrant and non-immigrant) and what is the principal cause of that 
backlog?

    Answer. Processing times for visas vary considerably among our 
embassies and consulates. For nonimmigrant visas, applicants at most 
posts are able to obtain appointments for interviews within two weeks 
from the date of the request. Once a nonimmigrant visa application is 
submitted at the interview, processing for most cases is completed 
within 48 hours. At a few posts, the number of applicants seeking 
interviews is such that applicants must wait considerably longer to 
obtain an appointment.
    The main reasons for a wait for an interview are staffing 
shortages, staffing gaps, or drawdowns of staff for security reasons. 
In some cases, an unanticipated increase in the number of applications 
may produce a backlog of applicants seeking interviews. In some 
countries, such as Colombia, dramatic increases in the number of 
persons seeking to apply for visas has been caused by changes in the 
local political and economic situation that increase out-migration 
pressure. Cutbacks in the hiring of Foreign Service officers in recent 
years have had a severe impact on our ability to keep nonimmigrant visa 
sections fully staffed. In recent months, we have significantly 
increased hiring of Foreign Service officers; an additional 90 junior 
officers have been hired in the past year to fill much needed consular 
officer positions worldwide. This increase in officer staffing will 
greatly assist in eliminating any current visa processing backlogs.
    For immigrant visas, the goal of our embassies and consulates is to 
schedule appointments for immediate relative cases within 30 days of 
applicants' informing the consular section that they have all the 
required documents and are ready for interview. The consular section 
must also have received the case from the National Visa Center and have 
completed all required clearances. Preference category immigrant cases 
are generally scheduled within 60 days once applicants notify post that 
they are ready for interview and the post has obtained the required 
visa number from the Department and completed any necessary clearances.

                        ADDITIONAL FUNDING NEEDS

    Question 1. Which regions might you anticipate a need for funding 
that are not in the current budget request?

    Answer. We are closely following developments in conflicts around 
the world. Based on current assessments, our budget request includes 
the funding needs we anticipate for FY 2004.

    Question 2. Are there emergency UN peacekeeping missions that might 
be in the offing? What do you see as the likelihood that we will need 
increased funding for the UN peacekeeping mission in the Democratic 
Republic of the Congo (MONUC) in FY 2004, particularly given logistical 
difficulties in the region, continuing instability, and dissent over 
the recent peace accord? What about Cote d'Ivoire? Are the French 
likely to want to turn over responsibilities to the UN if the peace 
holds?

    Answer. We are closely following developments in conflicts in 
Burundi, Cote d'Ivoire and Sudan for the possibility of a new UN 
mission.
    Both the Government of Burundi and the African Union (which just 
deployed an initial 36 observers to Burundi) have expressed desire for 
the UN to take over from the tri-nation (South Africa, Ethiopia, 
Mozambique) Mission which is to be sent under AU sponsorship. Since 
there is no comprehensive cease-fire or disarmament, neither we nor the 
UN believe that conditions are right for a UN peacekeeping mission. If 
those conditions are fulfilled, and if the parties were to show full 
commitment to a viable political process, the African parties would 
expect the Security Council to establish a UN Peacekeeping Mission. 
Burundi remains at risk for a resurgence of genocidal violence, and we 
need to work with our partners in Africa, Europe and the UN to avoid 
this.
    The current ECOWAS mission in Cote d'Ivoire, supported by French 
troops, has UN Security Council support. There is no proposal on the 
table for a UN peacekeeping operation in Cote d'Ivoire, and we do not 
believe that one is necessary now. If, at some time in the future, 
there is a comprehensive ceasefire and a viable peace process in place, 
we would consider the establishment of a UN observer mission for Cote 
d'Ivoire. We expect the French will propose a UN Peacekeeping Mission 
for Cote d'Ivoire at some point in the future.
    We are seeing mixed progress on peace in the Sudan. If and when 
there is a firm peace agreement, there may be a role for the UN, but it 
is too soon to speculate what that role might be.
    The UN is in the process of implementing the expansion of MONUC 
authorized in December. We have requested sufficient funds in FY 2004 
for MONUC's current mandate and size.

                   MILLENNIUM CHALLENGE ACCOUNT (MCA)

    Question 1. Critics of the proposed MCA have suggested that this 
will be simply another new bureaucracy, rife with some of the same 
problems we have faced in our existing foreign assistance programs. Why 
should we create a separate agency?

    Answer. The MCA represents the President's vision of an innovative 
way for the United States to spur lasting development. The MCA is a 
truly new approach.
    First, the MCA is selective, targeting those countries that ``rule 
justly, invest in the health and education of their people, and 
encourage economic freedom.'' By selecting only those countries that 
have adopted policies that encourage growth, MCA assistance will more 
likely result in successful sustainable economic development. It will 
also create a powerful incentive for countries wishing to qualify to 
adopt growth-enabling policies.
    Second, the MCA establishes a true partnership in which the 
developing country, with full participation of its citizens, proposes 
its own priorities and plans.
    Finally, the MCA will place a clear focus on results. Funds will go 
only to those countries with well-implemented programs that have clear 
objectives and benchmarks.
    A new institution is the best hope to implement this targeted 
initiative, and to provide visible evidence of U.S. leadership and 
high-level engagement. USAID and other agencies will need to continue 
to deliver the important humanitarian and regional assistance of 
interest to the United States, to address complex emergencies, and to 
work both with countries that are MCA ``near misses'' as well as with 
failed and failing states. The MCA is designed to complement existing 
assistance by focusing on growth and demonstrating a new way of working 
with countries that have reached a high level of development-readiness.
    The MCA needs flexibility and focus to carry out its innovative 
mandate and should start with a clean slate to give it the best chance 
to succeed and show that this approach works. If it is to respond to 
developing country priorities, the MCA cannot be restricted to specific 
areas of funding. If it is to operate with a lean staff and draw from 
the best and brightest in the public, private and nonprofit sectors, 
the MCA must have special personnel authority. If it is to be 
effective, it must also have the ability to contract and procure 
broadly. If it is to succeed in its mission, the MCA must be open to a 
new way of operating.
    That is why the Administration has proposed the establishment of a 
Millennium Challenge Corporation (MCC) headed by a Chief Executive 
Officer nominated by the President and confirmed by the Senate. He or 
she would report to a cabinet board, chaired by the Secretary of State, 
which would provide policy and operational oversight as well as 
facilitate coordination among all foreign assistance programs.
    Our goal is a new, flexible, effective and visible organization 
that complements other assistance activities but operates in, a new way 
to achieve lasting economic growth in countries most ready for active 
partnership.

    Question 2. In its deliberations to authorize and fund the MCA, the 
Committee will want to consider how it can be organized to ensure 
success. Making sure that the organization chooses recipient countries 
and makes funding grants that are in the foreign policy interest of the 
United States while, at the same time, giving the organization 
independence and flexibility are both important goals. The 
administration's draft legislation is expected to make the Secretary of 
State the chairman of the MCA board. How important is it to you to hold 
that position? Is it compatible with the constraints on your time? Are 
there other ways that we can be assured that MCA decisions will be in 
the foreign policy interests of the United States?

    Answer. The Secretary of State should chair the MCA Board for 
several reasons. First, the Foreign Assistance Act of 1961 provides 
that the Secretary of State shall supervise and coordinate U.S. 
economic assistance.\1\ The Secretary takes this responsibility 
seriously. Second, the MCA is a high priority for the President and 
this Administration, and placing the Secretary of State in a role that 
will provide overall policy guidance reflects this high-level 
commitment. Third, it is from this position that the Secretary can best 
ensure that the programs and policies of the MCA work to promote the 
foreign policy interests of the United States. Finally, the President 
and the Congress rightly insist on strict accountability for the MCA. 
Secretary Powell sees his role as Chairman of the MCA Board as 
essential to ensuring there is strong Cabinet-level accountability for 
the MCA.
---------------------------------------------------------------------------
    \1\ Section 622(c) of the Foreign Assistance Act of 1961 (as 
amended) provides that ``the Secretary of State shall be responsible 
for the continuous supervision and general direction of economic 
assistance to the end that such programs are effectively integrated 
both at home and abroad and the foreign policy of the United States is 
best served thereby.'')

    Question 3. We obviously have learned some valuable lessons over 
our many years in the economic development business. One of those 
lessons is that U.S. assistance must be coordinated in the field with 
other bilateral programs, multilateral programs and with other donor 
nations. How can we ensure that the MCA and the U.S. Agency for 
International Development do not compete, overlap, or duplicate one 
another either in Washington or in the field? How will NCA programs be 
---------------------------------------------------------------------------
coordinated with multilateral programs or third country donors?

    Answer. The Administration completely agrees that coordination with 
other U.S. programs as well as international efforts is key to 
successful development funding. The MCA will have a precise mandate to 
spur long-term economic growth, operating in a limited number of 
countries, as opposed to USAID, which has many mandates in many 
countries. In the field, MCA staff will be under chief of mission 
authority, as are AID staff, which will facilitate in-country 
coordination. The MCA will have a lean field staff, and will therefore 
rely on the Ambassador and Aid Director and their staffs to assist in 
monitoring and implementing the MCA. The Secretary of State, as 
Chairman of the Board, will provide the necessary policy oversight in 
Washington and the field to avoid duplication, ensure coordination, and 
make effective use of greater resources.
    Because MCA funds represent a major increase in a country's 
development assistance, USAID would likely undertake a strategic review 
of its programs in those countries. Some USAID programs may well be 
continued, such as regional programs or those fighting HIV/AIDs or 
trafficking in persons, while others logically would be phased out or 
incorporated in the MCC program. Some USAID assistance might also be 
redirected from new MCA countries to countries that barely miss the 
list of better performers to improve their chances in future 
competitions.
    The MCA will be able to coordinate with multilateral agencies and 
other donors providing assistance and financing in MCA countries. This 
coordination will primarily happen through the country's own MCA 
contract, which will reflect the country's priority development needs. 
Encouraging and supporting greater responsibility by the recipient 
country to coordinate among its donors is an important aspect of making 
aid more effective. Therefore, attention to this coordination will be a 
key part of the Millennium Challenge Corporation's (MCC'S) approval of 
MCA proposals.

    Question 4. What do you see as the optimal relationship between 
USAID and the MCA? Does the relationship need to be made clear in the 
legislation authorizing the MCA?

    Answer. From a policy perspective, the work of the MCA and USAID 
should complement each other in Washington, D.C. and in the field. 
USAID will, for example, help poor countries to make the reforms and 
policy changes necessary to qualify for MCA funds. USAID can also fund 
critical regional initiatives, humanitarian needs and support for 
strategic partners and failed or failing states, which the MCA is not 
designed to address. The MCA will remain targeted on increasing 
economic growth in a select number of countries, and embody a new 
approach to development, which could also influence USAID's approach to 
its own programs.
    In view of the need for flexibility and effectiveness in 
implementing a new concept in assistance, it could be disadvantageous 
to legislate the details of how USAID and the MCA interact. The 
Secretary of State, in his capacity as Chairman of the MCC's Board and 
as supervisor of the Administrator of USAID, will ensure establishment 
of an organizational structure and relationship that promote 
complementarity and cooperation between the MCA and USAID.

    Question 5. If the MCA is successful, do you see it serving as the 
model for our other international foreign assistance programs?

    Answer. The MCA will have a major impact on the way the United 
States delivers its foreign assistance. It helps clarify our 
development objectives and create an integrated strategy for achieving 
them. Its focus on building business-like partnerships with developing 
countries while encouraging countries to create the policy environment 
for economic growth is a major new step in lifting poor countries out 
of poverty.
    Even those countries that do not yet have the required policies in 
place can benefit from the model the MCA presents, and USAID can help 
those countries develop the capacity and commitment to enact these 
policies. Our other assistance will also remain critical to address a 
host of essential foreign assistance needs, such as humanitarian 
tragedies, assisting in post-conflict situations, fighting the spread 
of disease, and improving conditions in countries not qualifying for 
the MCA. Ultimately, the MCA could be an important tool for promoting 
results-based assistance, thereby enhancing the efficacy of all 
development assistance.

    Question 6. The emphasis of the MCA will be on developing the 
potential for growth and development in countries where good government 
and economic freedom provide the best chance for progress. To what 
extent do you think the MCA will create incentive to make the changes 
needed to qualify as an MCA designated country?

    Answer. The challenge to create the right policy environment for 
economic growth is the heart of the MCA. We established transparent, 
rigorous indicators so each country can see where it stands and target 
its efforts to meet the qualification criteria. We believe that the 
potential to harness the substantial amount of funding available 
through the MCA will serve as a strong incentive for countries to 
develop these policies. The success of MCA countries should also have a 
strong demonstrative effect. In this way the MCA will leverage its 
actual funding to assist even those countries not yet in the program.
    Indeed, we are already seeing this happen. We have already received 
requests from countries to discuss their eligibility for the program 
and where they might need to improve in order to increase their chances 
of participating in the MCA.

    Question 7. Is our understanding correct that USAID's budget would 
not be cut to pay for the MCA and, further, that other development 
funding such as World Bank contributions would not be reduced?

    Answer. The MCA does not reduce the need for other assistance and 
the President has made clear that the MCA is in addition to current 
assistance. We are committed to global development. We have recently 
seen this commitment deepen through the newly pledged $10 billion 
dollar increase in HIV/AIDS funding, the additional $200 million 
pledged for famine relief, the $100 million requested to address 
complex emergencies, and the 7.3 percent increase in overall 
development assistance funding in the 2004 budget sent to the Hill last 
week. We have also increased our pledges to the Multilateral 
Development Banks--18% increase for IDA, 18% for the AfDF, and 16% for 
GEF. We are asking for $1.3 billion new dollars to fund the MCA, and we 
urge Congress to authorize that amount.

                     INTERNATIONAL TRADE EXPANSION

    Question 1. Could you describe the Department's role in these 
negotiations? What is the division of labor between the Department and 
the U.S. Special Trade Representative?

    Answer. State and USTR and other interested U.S. agencies share a 
strong common objective of demonstrating continued U.S. leadership in 
the WTO's Doha Development Agenda negotiations and other international 
trade negotiations, while at the same time vigorously promoting U.S. 
economic interest abroad. State and other agencies actively support 
USTR, which takes the lead in developing interagency consensus on most 
trade policy issues and in conducting most trade negotiations.
    Moreover, the Department has the added responsibility of ensuring 
that U.S. trade policy decisions are consistent with our wider foreign 
policy objectives.
    State, with its extensive global network of economic, commercial, 
political and public diplomacy officers who have expertise in both 
local affairs as well as U.S. negotiating objectives, is uniquely 
placed to advise interagency policy deliberations. Officers, up to and 
including our ambassadors, at our embassies and constituent posts work 
on the front lines on a daily basis to explain and build support for 
U.S. trade policies. They also are the U.S. Government's eyes and ears 
around the world, keeping Washington informed about the trade policies 
of host governments and advising Washington on ways to influence key 
players in host governments to advance U.S. interests and to find 
solutions to trade and commercial problems.

    Question 2. Does the Department have adequate resources to support 
these current and future negotiating efforts or do you foresee the need 
for additional funding and personnel for this purpose in future years?

    Answer. The passage of the Trade Act of 2002 authorizing Trade 
Promotion Authority has led to a surge of trade related activities. The 
Department, like the U.S. Trade Representative's office, is working 
hard to take full advantage to secure the international economic 
opportunities created by that legislation.
    To support the demands of the various trade negotiations, the 
Department has asked for additional economic officers overseas and in 
Washington in our budget requests for FY-2002, FY-2003 and FY-2004. In 
addition, we will continue to evaluate whether reallocation of existing 
current resources or a request for additional resources will be 
necessary.

    Question 3. Can you discuss efforts to link trade and aid so that 
they are mutually reinforcing in their economic development impact? 
This is now apparently being tried in the Morocco negotiations.

    Answer. The Doha, Monterrey and Johannesburg Conferences, as well 
as development goals in the Millennium Declaration, have changed the 
dialogue on development. The global community now has an 
internationally agreed agenda on the steps to take in the trading 
system and in international development finance cooperation to create 
the requisite conditions for sustained and rapid growth. Though aid 
surely plays a role in alleviation of poverty and economic growth, an 
even bigger impact will come from sound market-oriented economic 
policies (including trade liberalization) and creation of a welcoming 
environment for investment. Statistics repeatedly show that private 
sector resources far outstrip the amounts and effects of official 
development assistance. For example, the World Bank estimates that 
removing all barriers to trade in goods would expand the global economy 
by $832 billion by 2015, a 2.5% increase or $136 for every man, woman 
and child on earth each year. Of this $539 billion would accrue to 
developing countries. In furtherance of this goal, many U.S. agencies, 
most importantly USAID, have significant programs designed to enhance 
the capacity of developing countries to reap the benefits of the rules-
based global trading system. This will include aid designed to help not 
only Morocco, but also southern African countries and Central American 
countries participate with greater confidence in the ongoing FTA 
negotiations. More broadly, our trade-related technical assistance 
programs will help all our trade partners build capacity through such 
programs as the World Trade Organization's Global Fund for Technical 
Assistance.

                            PUBLIC DIPLOMACY

    Question 1. To what extent are we shifting resources in our public 
diplomacy effort to the Arab world?

    Answer. After 9/11, public diplomacy resources shifted to support 
the war on terrorism worldwide, with a significant emphasis on foreign 
Arab and Muslim audiences. This resulted in increases of funds of 34% 
in FY 2002 and 13% in FY 2003 for the South Asian geographic bureau and 
increases of 15% in FY 2002 and 19% in FY 2003 for the Near Eastern 
geographic bureau. [FY 2003 figures are drawn from the President's 
request.]
    These bureau increases reflect the priority attention given to the 
Afghanistan war and the war on terrorism in both these important 
regions of the world. They also demonstrate the large adjustments that 
we made immediately following 9/11 and are continuing in FY 2003 to 
reflect public diplomacy priorities in those regions. As there is no 
program increase for public diplomacy requested for FY 2004, our shifts 
for FY 2004 reflect a more modest increase of 3% for the Near Eastern 
bureau and 5% for the South Asian bureau.
    An additional $35 million in supplemental funding for public 
diplomacy initiatives has also been directed to foreign Arab and Muslim 
audiences. These activities included broadcasts, speakers, and foreign 
journalist tours on values and religious tolerance; English language 
programs, English teaching, and educational reform projects; American 
studies programs in universities; and programs on Iran and Iraq. They 
also included exchanges involving youth, women, the Fulbright program, 
media training, English language instruction, and American studies.
    In addition, a number of programs and activities were initiated at 
Headquarters and provided to field posts in those regions. For example, 
we have initiated publication of a magazine meant for young Arabic 
speakers. This pilot project entails four initial print versions, the 
first due out in April. We have expanded translations of our print and 
electronic publications into Arabic and other languages, including 
``Network of Terrorism'' and ``Muslim Life in America.'' We initiated a 
Farsi Web site and have increased foreign journalist tours and 
briefings and television co-operative productions with broadcasters 
from countries with significant Muslim populations. These are just a 
few of the products reflecting our shift of resources to the Arab and 
Muslim world.
    As for exchanges, in FY 2002 the Bureau of Educational and Cultural 
Affairs redirected 5% of its base exchange resources ($12 million) to 
engagement with the Muslim world and the war on terrorism. The FY 2003 
exchanges plan maintains this emphasis, increasing the Middle East's 
share of worldwide exchange resources to 15%, compared to 11% in FY 
2002 and 10% in FY 2001. The bureau's Partnerships for Learning 
exchanges funded by the supplemental funds target specific world 
regions, focusing 50% on the Middle East, 20% on South Asia, and 
approximately 10% each on East Asia, Africa, and Eurasia.

    Question 2. The President's budget requests $30 million to build on 
the Middle East Radio Network established in 2002 to establish an 
Arabic language TV network in 2004. Do you have any evidence that our 
programming is well received? Do you think we can compete with Al-
Jazeera?

    Answer. The weekly and monthly research returns and focus groups 
indicate that where Sawa has a strong AM and FM presence it has had a 
positive impact. Sawa results indicate listenership and audience 
demographics have exceeded initial projections. I am working with my 
colleagues on the BBG to expand Sawa's network of AM and PM 
transmitters. Where Sawa does not have a strong signal, it does not 
have the same impact. Placement of State and BBG TV products on Arab 
and non-Arab satellite and terrestrial systems indicates that our 
current programming is very well received.
    Al-Jazeera is influential but we have to remember there are more 
than thirty satellite systems in the region and many terrestrial 
broadcasters as well. Television is different from radio. The situation 
with regard to satellite and terrestrial TV systems in the Middle East 
is very fluid right now. A number of major commercial and national 
investors are eager to build networks that will challenge Al-Jazeera. I 
think that if we have the capacity to purchase products that reflect 
the best of American culture and society and to commission compelling 
programs that focus on our foreign policy goals, objectives, and 
achievements, we can compete with any broadcaster. This could be either 
through the Middle East Television Network or through placement on Arab 
and non-Arab networks throughout the world.

    Question 3. Are we giving financial support to responsible media 
outlets to try to counter the influence of Al-Jazeera?

    Answer. We do not financially support private or government-owned 
Arabic television stations. Rather, we work closely with them, as well 
as with journalists throughout the region, to ensure that U.S. 
government policy is effectively represented and explained on Arab 
media. Access to the Arab media is not a problem. They actively seek 
our views and senior officials to articulate them.
    State Department officials appear on pan-Arab TV or grant 
interviews to the pan-Arab newspapers several times a week. The 
Secretary has granted eight interviews to Arab media since August 2002, 
all of which have been front-paged or aired in prime time. Others, 
including Deputy Secretary Armitage, Under Secretary Grossman, 
Assistant Secretary Burns, Ambassador Richard Haass, and Ambassador 
Christopher Ross, have actively engaged Arab TV, radio and print media.
    Our embassies in the region also engage the local or regional print 
and electronic media on a sustained basis. These efforts include 
interviews by Ambassadors and other appropriate speakers. Moreover, our 
embassies, working with ECA and lIP, have been engaged in a number of 
long-term efforts such as programs that are designed to increase the 
professional skills of Arab journalists and to promote the freedoms as 
well as responsibilities of the press.
    Al-Jazeera's influence has been particularly strong because, up 
until now, it was the only all-news Arabic media outlet and the first 
to introduce controversial talk shows. As of February 20, 2003, that 
changed with the emergence of MBC's new all-news station, Al-Arabiyya. 
This Saudi-funded station, which has a much more moderate tone than Al-
Jazeera, may well make inroads into Al-Jazeera's market. Secretary 
Powell granted this station a highly publicized interview that aired on 
its second day on the air. The State Department will continue to work 
with Al-Arabiyya and other Arab media outlets to ensure that our 
policies are communicated directly and without distortion.

    Question 4. What are we doing to make certain that our foreign 
service personnel are adequately trained both in language and cultural 
skills not only to explain U.S. policy to government officials in 
various Foreign Ministries but also to get out of their embassies and 
listen carefully to the concerns of others, particularly in countries 
where extensive segments of the population are of the Muslim faith?

    Answer. At the Department of State we believe that in order for 
foreign affairs personnel to carry out their mission, they must have an 
understanding of the values and beliefs that exist in their region of 
assignment. As well, they must have a level of language competence in 
the countries in which they are serving. Training programs conducted by 
the Foreign Service Institute reflect this philosophy.
    Foreign language proficiency remains one of the key tools to enable 
communication and understanding, and the Department's Foreign Service 
Institute (FSI) provides language programs in some 60 plus languages 
including ``superhard'' ones such as Arabic, Chinese, Japanese, and 
Korean, and what we term ``enduring freedom'' languages such as Arabic, 
Persian/Farsi, Dan, Pashtu, Tajiki, Urdu and Uzbek. In FY02, PSI 
provided 1,229,575 hours of language training to 2,764 students (an 
enrollment increase of 28%), with a success rate (those who reach their 
designated target proficiency level when enrolled for the recommended 
period of training) of 75%.
    To enable officers to better communicate America's story overseas 
we have included public diplomacy modules in foreign language classes 
at all levels with a special emphasis on Arabic and other Middle 
Eastern languages. Language and Culture Instructors receive public 
diplomacy training to help them better understand the importance of 
this function. Increased funding for post language programs supports 
this effort as well. PSI has launched a curriculum development effort 
specifically targeting listening skills for more sophisticated levels 
of understanding to help foreign affairs professionals grasp the 
nuances in conversations with foreign diplomats and host country 
nationals. FSI is also exploring partnerships with regional educational 
institutions in the Middle East to provide further 
opportunities.opportunities for officers to be immersed in the culture 
while acquiring more advanced language skills. All long term language 
programs at FSI also include an integrated area studies component.
    Presentations on Islam have long been core components of Area 
Studies courses, and since 9/11, we have added an Afghan 
Familiarization Course and sessions on Islam to the European Area 
Studies Program. Students hear from academic specialists on Islam and 
Muslim speakers discussing their beliefs; the curriculum is 
consistently updated to reflect emerging issues.
    FSI Public Diplomacy training has included content on Understanding 
Islam and the role of public diplomacy in the successful implementation 
of U.S. foreign policy, but a significant effort is being made 
Department wide to strengthen PD awareness. This fall, we will 
introduce an expanded series of training courses aimed at employees who 
will serve in PD positions overseas (two new eight-week courses in 
addition to the revamped three-week PD tradecraft basics course), 
designed to help ensure that the U.S. government is able to effectively 
communicate its foreign policy message and build long term mutual 
understanding with foreign audiences. The courses will cover media 
relations and community outreach as well as the management of the 
Department's exchange, education and cultural programs.

                  UNITED NATIONS OVERSIGHT AND FUNDING

    Question 1. As you are aware, the United States pays its yearly 
dues to the United Nations at least ten months late each year--in 
October rather than January--due to a change in timing of the payment 
made in the Reagan administration. Officials in the Administration, in 
particular Assistant Secretary Holmes, have expressed support for the 
language in FY 2003 State Department Authorization Act that ``the U.S. 
should initiate a process to synchronize payment of U.S. assessments 
over a multi-year period.'' Does the President's budget request contain 
funding to begin the process of synchronization? How do you propose to 
rectify the issue of the U.S. paying late?

    Answer. No, the request contains no such funding. The State 
Department has considered options to move off the practice of making 
deferred payments to the United Nations and other major organizations. 
It would be helpful to the U.N. and other major international 
organizations if funds could be provided early in their January-to-
December fiscal year, so that it is no longer necessary for them to 
borrow from other internal accounts to cover the part of their 
assessments that come from the United States. Deferral is a practice 
that engenders some frustration from these organizations and the other 
Member States without appreciably adding to U.S. leverage to influence 
the course of their financial and management practices.
    However, we estimate that such synchronization would require some 
$700 million in one-time additional funding. As a way to lessen the 
funding burden, we have examined plans to resynchronize payments on an 
incremental basis. However, even spread over four or five years, the 
level of additional annual funding would be quite significant. We 
continue to look into this issue, but given competing demands for 
resources, there is no assurance that funding for this purpose can be 
accommodated in upcoming budget requests.

    Question 2. Do we now consider UN management improved? What has 
changed and what further improvements can we expect?

    Answer. The UN has recently made significant management 
improvements advocated by the U.S. These improvements include the 
establishment of the Office of Internal Oversight Services, 
implementation of results based budgeting, adoption of a code of 
conduct for UN personnel, and reform of the scales of assessment.
    In December 2002, the UN General Assembly adopted a resolution 
giving the Secretary General (SYG) the go ahead to pursue his newest 
set of management reforms. These include a major review of the 
Department of Public Information, as well as the creation of regional 
information hub centers that will improve the flow of information and 
save money (e.g., by consolidating some offices) . The SYG has also 
committed to implementing better evaluations of programs, establishing 
a more efficient budget process, and instituting management 
improvements in several key departments/offices.
    We will continue to work with the SYG and press for these and other 
new management improvements such as a reduction in travel costs, 
elimination of obsolete activities and outputs, and modernization of 
the Department of Public Information.

    Question 3. How can we ensure that the UN continues to be an asset 
and ally towards winning the war on terror?

    Answer. The UN is fully engaged in the War on Terrorism, most 
notably through the Security Council's Counterterrorism Committee (CTC) 
and other specialized UN agencies. In a global response to terrorism, 
most Member States are cooperating to some extent with the CTC in 
undertaking a wide range of counterterrorism activities mandated by 
UNSCR 1373, including suppressing terrorism financing and prohibiting 
any other form of material support for terrorists. Moreover, all the 
various regional groupings have developed programs for fighting 
terrorism and are beginning to coordinate their efforts with other such 
organizations.
    The U.S. is taking a leading role in encouraging other countries 
and the regional and international organizations to redouble their 
efforts. The U.S. can best ensure the success of these international 
efforts by assisting and encouraging regional and functional 
organizations to continue their efforts, and by working to coordinate 
its bilateral assistance programs with other donors. Working through 
the UN and other regional organizations will ensure continued 
commitment to our common goal, spurring other countries to increase 
their contributions and at the same time more efficiently coordinating 
operations, targeting assistance, and avoiding duplication of efforts.

    Question 4. Ambassador Soderberg, in a recent Washington Times Op-
Ed column, and a report sponsored by Freedom House and the Council on 
Foreign Relations recommend creating a ``democracy caucus'' of UN 
member organizations to cooperate on issues of human rights, advancing 
democracy and fighting global terrorism. Do you believe this is a good 
idea? Has any groundwork been laid in this regard?

    Answer. The United States firmly believes in the strength of 
democracies and is active in the creation of a coalition of democratic 
countries. We have spoken with countries in numerous international 
contexts about the importance of like-minded countries working closely 
together to advance principles enshrined in international documents, 
such as the Universal Declaration of Human Rights. Democracies, which 
are committed to these rights, are well positioned to work together to 
protect these principles.
    At the Second Ministerial Conference of the Community of 
Democracies held in Seoul last November, the U.S., along with all other 
countries participating in this important event, endorsed a Plan of 
Action that included increased cooperation among democracies. The Plan 
renewed the Community's commitment to the promotion of democracy 
regionally and globally, recognizing the universality of democratic 
values, and the protection that democracy affords to human rights and 
fundamental freedoms. In addition, the countries agreed to cooperate to 
coordinate diplomatic or other efforts, particularly within 
international fora.
    We have discussed this with allies in Africa, Latin America, and 
other regions. There is broad support and recognition of the important 
benefit that can be gained from increased coordination among 
democracies.
    We are examining whether trying to create a formal democracy caucus 
is feasible. We are also considering alternative mechanisms to achieve 
the desired result.

    Question 5. Has any progress been made in increasing the number of 
U.S. citizens employed by UN agencies and organizations overseas?

    Answer. The Department is beefing up its efforts to attain 
equitable representation of Americans in UN agencies and other 
international organizations (IOs) . We have instructed our Missions to 
increase the pressure on IOs under their purview to appoint Americans. 
To enhance our Missions' efforts, over the past two years we sent a 
recruitment expert from Washington to urge agencies in Rome and Geneva 
to increase their employment of Americans. In addition, we are taking 
steps to work more closely with other U.S. Government agencies to 
leverage their resources to better identify and promote potential 
candidates for 10 employment.
    We expect that these and other efforts underway will result in 
increased American employment in international organizations.

    Question 6. What is your vision of our UNESCO re-entry? How can we 
make the most out of our joining this organization after twenty years? 
What is your view on the adequacy of UNESCO's budget? What is the State 
Department's diplomatic strategy to make certain that the U.S. wins a 
seat on UNESCO's Executive Board, once it has become eligible to run? 
Does the Administration plan to have a separate new Ambassador to 
represent our interests at UNESCO?

    Answer. President Bush announced U.S. re-entry into UNESCO ``as a 
symbol of our commitment to human dignity'', and he promised that 
America will participate fully in UNESCO's mission to advance human 
rights, tolerance, and learning. His announcement has been greeted with 
enormous enthusiasm by UNESCO and by UNESCO Member States. We will work 
to strengthen the management and budgetary reforms set in place by 
UNESCO Director General Matsuura and to influence the programs UNESCO 
will pursue in the future.
    After 19 years outside the organization, we plan to make the most 
out of our rejoining by promoting the hiring of qualified Americans, by 
ensuring that a broad range of American expertise is brought to bear in 
the programs and other activities of UNESCO, and by helping UNESCO 
address priority areas like ``Education For All'' in as efficient and 
effective manner possible.
    UNESCO has operated under a flat nominal budget for the past six 
years. The UNESCO secretariat has proposed expanding specific programs 
to be funded through an increase in the assessed budget. We are 
evaluating these proposals with an eye to U.S. substantive priorities 
in rejoining UNESCO and consulting other member states consistent with 
a U.S. commitment to prudent fiscal discipline in UN bodies. Our 
ultimate position will be consistent both with U.S. substantive 
priorities and with the U.S. commitment to budget discipline in 
international organizations, including UNESCO.
    The United States is seeking a seat on the UNESCO Executive Board 
during the election tentatively scheduled for October 10 during the 
UNESCO General Conference. Our primary goal is to work with Group I 
countries (Europe plus Canada and Israel) to agree on a consensus slate 
of five candidates, including the U.S. Alternatively, we will need to 
win support from the 188 Member States of UNESCO in an election by 
secret ballot. As a first stage, we have notified the UNESCO Members 
States of our candidacy and have begun a worldwide diplomatic effort to 
secure support.
    The Administration is currently looking intensively at the question 
of how to structure the new U.S. Mission to UNESCO when the U.S. 
rejoins in October 2003.

                                 ______
                                 

   Responses of Hon. Colin Powell, Secretary of State, to Additional 
   Questions for the Record Submitted by Senator Joseph R. Biden, Jr.

                        BUDGET-RELATED QUESTIONS

    Question 1. In the FY 2004 budget request, there is no funding 
requested for the U.S. contribution to Korean Peninsula Energy 
Development Organization (KEDO), requiring the Administration to return 
to the Congress with a supplemental request if the United States and 
its allies reach a future agreement with North Korea. At the same time, 
the Nonproliferation and International Security account in the 
Department of Energy budget request ``has been significantly increased 
over FY 2003 levels for restructuring of the program to take account 
for recent events in the Democratic People's Republic of Korea and take 
steps to bring a `toolkit' of verification technologies to bear on the 
clear and present danger of the DPRK nuclear program.''

    a. In ruling out future funding for KEDO, what message is the 
Administration sending out to our South Korean and Japanese allies who 
have always shouldered the lion's share of the financial burden of the 
Agreed Framework?

    b. What is the nature of the funding increase and ``restructuring'' 
in the Nonproliferation and International Security account in the 
Department of Energy budget request as related to North Korea? Please 
explain how these changes promotes our nonproliferation goals and 
whether they lay the groundwork for adequate verification of any 
possible future agreement with North Korea on its nuclear programs.

    Answer a. Congress appropriated up to $5 million for KEDO in FY03, 
provided the President determine that such a contribution is vital to 
the national security interests of the U.S. Preserving our ability to 
contribute to KEDO provides us flexibility to work with our allies to 
achieve our shared non-proliferation goals. The U.S. is consulting with 
the other members of KEDO's Executive Board (South Korea, Japan, and 
the EU) about the future of the organization, including the future of 
the light water reactor project. We are not prejudging any decisions in 
this regard. We will keep in close touch with Congress as we proceed.
    We do not know now what role, if any, KEDO will play next year, so 
the Administration did not request FY04 funding for KEDO. If we find it 
is in our interest to fund KEDO's administrative or other costs, we 
will request as necessary. We are working closely with our KEDO 
partners and continuing to consult on KEDO's future activities and 
financial commitments.

    Answer b. The re-establishment of safeguards in the DPRK and the 
eventual verification of North Korea's nuclear materials declaration 
would have to be immediately undertaken by the international community 
if the DPRK were to refreeze its nuclear program and/or decide to 
remain party to the Nuclear Non-Proliferation Treaty (NPT). The already 
difficult IAEA verification task in North Korea has been further 
complicated by the following recent events:

          1. Removal of IAEA inspectors from North Korea, which has 
        resulted in the loss of monitoring and surveillance of the DPRK 
        frozen facilities at Yongbyon.
          2. Unfreezing the plutonium production facilities at 
        Yongbyon. The 5 MW (e) reactor, which was restarted on February 
        26, will produce additional spent fuel. If North Korea proceeds 
        to reprocess existing canned spent fuel, now no longer under 
        safeguards, it would provide significant quantities of 
        undeclared plutonium along with production of large quantities 
        of reprocessing waste.
          3. Knowledge of a clandestine uranium enrichment program. 
        Reestablishing safeguards will require significant effort. The 
        United States provides a wide range of technical support for 
        IAEA safeguards worldwide. We have already delivered a 
        specialized spent-fuel measurement instrument requested by the 
        IAEA for use in the DPRK. We anticipate a need for further 
        high-priority technical support for any renewal effort in the 
        DPRK. The Nonproliferation and International Security account 
        in the DOE budget request, therefore, has been increased over 
        FY03 levels to provide needed support.

    Question 2. I understand that Secretary General Annan asked 
President Bush and you to make a firm commitment to provide financing 
for the UN Capital Master Plan for renovating its headquarters. I also 
understand that there has been some discussion of the United States 
providing a $1 billion interest-free loan to the UN for construction, 
as was done when the current facilities were built fifty years ago.

    a. Has the United States taken a position with regard to the 
Capital Master Plan?

    b. What is your view on the prospect of the United States giving 
the UN a $1 billion interest-free loan?

    c. What other options are under consideration for financing the 
renovation plan? What are the relative merits and demerits of each?

    Answer. The Administration supports the concept of the UN Capital 
Master Plan (CMP) for renovation of the UN headquarters complex in New 
York. The complex is aging, does not meet current building codes and 
fire and safety standards, is not energy efficient, and is in need of 
significant security upgrades. In its initial review of the CMP in 
2001, the U.S. General Accounting Office (GAO) indicated that the UN 
complex ``clearly needs to be renovated'' and the UN's initial plans 
for the renovation were ``reasonable.'' The GAO is currently conducting 
a follow-up review of the CMP, which, we understand, should be 
available this spring.
    No decision has been made regarding an interest-free loan to the 
UN. It is estimated that a $1 billion interest-free loan would cost the 
U.S. government approximately $550-600 million at current interest 
rates. This cost clearly presents a major hurdle.
    The UN General Assembly has not yet considered the issue of 
financing the CMP, including the potential options. Other UN members 
have indicated in various venues their expectation of significant host-
country support by the U.S., including provision for an interest-free 
loan. We expect the issue of U.S. support and CMP financing options, in 
general, to be major discussion topics in future sessions of the 
General Assembly.

    Question 3. When were the exchange rate calculations for the 
Contributions to International Organizations (CIO) account made? Please 
provide an updated calculation of the request for the CIO account 
reflecting current exchange rates.

    Answer. The exchange rate calculations reflected in the FY 2004 
request for the CIO account were based on rates in effect at the end of 
April 2002, when the request was initially formulated. Since that time, 
the value of the dollar has declined about 20 percent against major 
foreign currencies (i.e., the Euro and Swiss franc) that are used for 
the assessments billed by a number of organizations.
    Based on updated exchange rates and other adjustments related to 
the recent enactment of the FY 2003 CIO appropriation, the CIO request 
would now total $1,070.2 million, up about $60 million from the 
President's request.

    Question 4. There is a discrepancy in the request for the UN 
regular budget set forth in the appendix of the President's budget (at 
page 691 of the appendix), which calls for $322 million, and the Budget 
in Brief, which requests $340.7 million.

    --What is the correct amount of the request?

    --What are the reasons for the significant increase in the request 
for the UN regular budget as compared to the FY 2003 request.

    Answer. The Contributions to International Organizations (CIO) FY 
2004 request for the UN regular budget is $340.7 million. This reflects 
the full amount of the U.S. assessed requirements for calendar year 
2003.
    The lower figure shown in the appendix ($322 million) relates to a 
technical adjustment in the presentation of the account. It is based on 
the full requirement level of $340.7 million, as adjusted for a ``buy-
down'' of $18.7 million to take account of actual or potential funding 
gains in the overall contributions to International Organizations (CIO) 
account. The same adjustment figure also appears in the Budget in 
Brief, but is shown at the end of the dollar tally for the full CIO 
request (page 99). At present, the amount of the potential ``buy-down'' 
is in doubt. The level of the recently enacted FY 2003 appropriation, 
in the face of exchange rate losses, has likely eroded by $11.7 million 
our ability to reduce (or ``buy-down'') our funding requirements for FY 
2004.
    The increase in the CIO FY 2004 request for the UN regular budget 
is attributable to the increase in the revised level of the overall 
2002-03 UN budget. The overall UN budget increase, $266 million, 
relates to several initiatives that the U.S. strongly supports. These 
include enhancement of security measures of UN facilities following the 
events of September 11th, the establishment of a new UN operation in 
Afghanistan, additional costs relating to special political missions 
approved by the Security Council, and the work of the UN's new Counter-
terrorism Committee. The budget increase also reflects the impact of 
``uncontrollables'' such as higher inflation and exchange rate costs 
and the approved salary adjustment for UN staff.
    Following nearly a decade of no-growth budgets in the UN, we view 
last year's increase of $266 million to be a necessary aberration to 
respond to a host of unforeseen events, including September 11th. Our 
position remains to ensure strict budget discipline in the UN.

    Question 5. The FY 2004 budget requests $97 million for the D&CP 
account for 399 positions, the third phase of the Diplomatic Readiness 
Initiative. This is $3 million less in nominal terms than the FY 2003 
request for the same number of positions.

    a. What accounts for this reduction?

    b. Specifically, in what areas will savings be accrued?

    Answer. The D&CP estimate for the Diplomatic Readiness Initiative 
is less in the FY 2004 request than in the FY 2003 request due to 
refinements--based on more recent actual costs and experience--in 
calculating and allocating the costs of first assignments. These costs 
include initial assignment travel and outfitting expenses, such as 
furniture, equipment, lease, and support costs.

    Question 6. The FY 2004 Budget in Brief for the State Department 
(at page 31) asserts that there is $35.6 million in decreases in the 
D&CP account which represents funding for ``one-time hiring plan costs 
for 399 new hires under the Diplomatic Readiness Initiative.'' The FY 
2003 Budget in Brief (at page 29) asserts a similar decrease--a 
reduction of $33.3 million in funding for ``one-time hiring plan costs 
for 360 new hires under the Diplomatic Readiness Initiative.''

    a. Are these ``one-time'' costs referenced in the FY 2003 budget 
request the same ``one-time'' costs referenced in the FY 2004 budget 
request?

    b. Please provide specific details on the ``one-time'' costs 
incurred in each of FY 2002 and FY 2003 which will not recur under the 
Diplomatic Readiness Initiative.

    Answer a. Yes, the one-time costs referenced are the same types of 
costs.

    Answer b. The one-time hiring costs include security clearances and 
medical exams for new officers and their families and office and 
residential furniture, fixtures, and equipment. This expense also 
consists of costs defined as ``make ready move in costs.'' This 
includes improvements to new housing stock to cover increased security 
needs and generators that are required in less-developed countries.

    Question 7a. The budget request for the Millennium Challenge 
Account anticipates $25 million in administrative expenses for a 
separate corporation to administer the program.

    --Why is a separate corporation necessary to administer this 
program?

    Answer. The MCA represents the President's vision of an innovative 
way for the United States to spur lasting development. The MCA is a 
truly new approach.
    First, the MCA is selective, targeting those countries that ``rule 
justly, invest in the health and education of their people, and 
encourage economic freedom.'' By selecting only those countries that 
have adopted policies that encourage growth, MCA assistance will more 
likely result in successful sustainable economic development. It will 
also create a powerful incentive for countries wishing to qualify to 
adopt growth-enabling policies.
    Second, the MCA establishes a true partnership in which the 
developing country, with full participation of its citizens, proposes 
its own priorities and plans.
    Finally, the MCA will place a clear focus on results. Funds will go 
only to those countries with well-implemented programs that have clear 
objectives and benchmarks.
    A new institution is the best hope to implement this targeted 
initiative, and to provide visible evidence of U.S. leadership and 
high-level engagement. USAID and other agencies will need to continue 
to deliver the important humanitarian and regional assistance of 
interest to the United States, to address complex emergencies, and to 
work both with countries that are MCA ``near misses'' as well as with 
failed and failing states. The NCA is designed to complement existing 
assistance by focusing on growth and demonstrating a new way of working 
with countries that have reached a high level of development-readiness.
    The MCA needs flexibility and focus to carry out its innovative 
mandate and should start with a clean slate to give it the best chance 
to succeed and show that this approach works. If it is to respond to 
developing country priorities, the MCA cannot be restricted to specific 
areas of funding. If it is to operate with a lean staff and draw from 
the best and brightest in the public, private and nonprofit sectors, 
the MCA must have special personnel authority. If it is to be 
effective, it must also have the ability to contract and procure 
broadly. If it is to succeed in its mission, the MCA must be open to a 
new way of operating.
    That is why the Administration has proposed the establishment of a 
Millennium Challenge Corporation (MCC) headed by a Chief Executive 
Officer nominated by the President and confirmed by the Senate. He or 
she would report to a cabinet board, chaired by the Secretary of State, 
which would provide policy and operational oversight as well as 
facilitate coordination among all foreign assistance programs.
    Our goal is a new, flexible, effective and visible organization 
that complements other assistance activities but operates in a new way 
to achieve lasting economic growth in countries most ready for active 
partnership.

    Question 7b. The budget request seeks $12 million--nearly half the 
administrative budget--for ``other services'' (Budget appendix, page 
903). What are these services? Please provide detailed information.

    Answer. Estimates for the administrative expenses of the Millennium 
Challenge Corporation are highly notional. They are based on 
organizations (such as OPIC and USTR) that have similar administrative 
costs in terms of travel and personnel. The $12 million in ``Other 
Services'' would cover expenses such as the transportation of items, IT 
contracts, legal services, and other services associated with the 
start-up of the MCC. The Millennium Challenge Corporation envisions a 
lean staffing model. We envision tapping current government resources 
where appropriate and contracting out a good portion of its 
administrative support. Any funds not used for administrative expenses 
will be used for assistance.

    Question 7c. The legislative proposals submitted by the President 
do not include the eligibility criteria in the draft statutory 
language. Should not the criteria be put in statute? If not, why not?

    Answer. The proposed legislation defines the policy criteria, which 
must be used to determine MCA eligibility, in Section 102(2)A, B and C. 
The legislation is clear that the MCA should select only those 
countries that have a ``demonstrated commitment to ruling justly, 
investing in the health and education of their citizens and encouraging 
economic freedom.'' The proposed legislation does not specify the 
methodology or indicators to be used, although they are described in 
the accompanying sectional analysis. We chose not to put the 
methodology or indicators in legislation, since neither is set in 
stone, nor should they be. No indicator or methodology is perfect and 
the MCC will regularly review the system to ensure it is selecting 
countries with the policies that will enable development results. As 
the program proceeds, as necessary, certain indicators may be dropped 
in favor of better data, or other indicators may be added if it is 
determined they will help the Board of the MCC choose the most 
qualified countries. The process will continue to be dynamic, 
transparent, and rigorous.

    Question 7d. What is the estimate of obligations of $800 million in 
FY 2004 based on?

    Answer. This is an estimate of the proportion of the $1.3 billion 
budget request, which we expect would actually be obligated in FY 2004, 
based on the careful selection system we will set up. The MCA will rely 
on contracts developed in large part by the MCA country itself and then 
negotiated with the Millennium Challenge Corporation. This is an 
innovative approach with no precedent to guide us. We anticipate that 
it may take some time to develop the first proposals and then hone them 
into acceptably detailed and accountable contracts. We thus did not 
believe it likely that all MCA money appropriated in FY 2004 would be 
obligated in the fiscal year. We would anticipate that any remaining 
funding would be obligated in FY 2005 for programs in countries 
selected in FY 2004.

            MIDDLE EAST PARTNERSHIP INITIATIVE: ESF REQUEST

    Question. The proposed legislative language for the Economic 
Support Fund (ESF) account would provide authority to establish 
enterprise funds in the ``Middle East region.'' In which countries does 
the Administration anticipate establishing such funds? Please define 
what constitutes the ``Middle East region'' under this provision. What 
is the estimated cost for establishing such funds?

    Answer. The Bureau of Near Eastern Affairs (NEA), working with 
capital market experts in the Department, USAID and the White House, is 
developing recommendations for an enterprise fund in the region. 
Several options are under consideration for designation of the funds. 
One option would establish country-specified funds, each with a 
different board. Another option would be to set up an umbrella 
enterprise fund for all Middle East and North Africa countries with a 
single board that has the authority to set-up country-specific sub-
funds, each managed independently by in-country experts with relevant 
professional experience.
    In December, NEA sent out an interagency assessment team to 
undertake the first of several country-specific due diligence reviews 
of the region's receptivity to an enterprise fund type vehicle. The 
team met with financial service professionals, entrepreneurs, business 
leaders and other investors to assess capital needs, areas of business 
opportunity, as well as the regulatory and legal climate. We are 
incorporating the team's findings into our design of potential funds 
for the region.
    All Middle East and North African countries are eligible, with the 
exception of Iran, Iraq, Libya, and Syria because of legal 
restrictions.
    The Department and relevant USG agencies are still reviewing 
individual country needs in the region. The success of these funds will 
depend upon having a capital base adequate to induce regional 
governments to undertake the institutional changes needed to facilitate 
fund investment. For this very reason, we are likely to apply the 
entire FY04 request of $30 million to set up a fund in Morocco. In 
Egypt, we are considering a fund of at least $100 million, financed 
over several years from existing ESF sources to be reprogrammed.

               EMERGENCY FUND FOR COMPLEX FOREIGN CRISES

    Question. The budget requests authority for $100 million in FY 2004 
for a new ``Emergency Fund for Complex Foreign Crises.''

    a. Why is current authority under Sections 451 and 614 of the 
Foreign Assistance Act insufficient to meet crises?

    b. Would the use of funds be subject to any conditions or legal 
restrictions, such as restrictions baring aid to state sponsors of 
terrorism?

    Answer. Sections 451 and 614 of the Foreign Assistance Act permit 
the waiving of restrictions but do not authorize new funds, and hence 
require the drawdown of existing resources. This is not the concept 
behind the establishment of this new emergency account. Similarly, both 
Sections 451 and 614 have yearly caps and in the case of Section 614, 
country caps, that would hamper our ability to respond.
    We have drafted the provision for the ``Emergency Fund for Complex 
Foreign Crises'' so that it would enable us to provide assistance 
``notwithstanding any other provision of law'', much like authorities 
to provide disaster assistance and other forms of assistance with 
respect to which there is general recognition that assistance is needed 
without regard to usual limitations that under normal circumstances 
would operate to prevent assistance.

                             BUDGET-RELATED

    Question 1. Please provide information on the current Diplomatic 
(DS) Special Agents, including--

    --the number of DS special agents expected to retire in the next 
three years;

    --the number of DS special agents hired in the last three years;

    --the number of FTEs for DS special agents and the number of 
positions unfilled (with a breakdown between domestic and overseas 
positions).

    Answer. Over the course of the next three years (2003-2005), a 
total of 173 DS special agents will become eligible for Retirement. Of 
those, 25 will face mandatory retirement. In 2003, 100 special agents 
will be eligible to retire with an additional 9 special agents reaching 
the mandatory retirement age. In 2004, 26 special agents will become 
eligible to retire and 9 special agents will achieve the mandatory 
retirement requirements. In 2005, 22 special agents will be eligible to 
retire and 7 additional special agents will face mandatory retirement.
    In the last three fiscal years, 452 special agents have been hired: 
52 in FY-2000, 82 in FY-2001, and 318 in FY-2002. Of the 452, 87 were 
for attrition and 365 were new authorizations.
    At present, there are a total of 1,229 DS special agents, of whom 
786 are assigned domestically and 443 are overseas. Of the 121 special 
agent positions that are not filled, 62 are domestic and 59 are 
overseas.

    Question 2. The Budget of Worldwide Security Upgrades (in the D&CP 
account) requests $36.7 million to upgrade security at Embassy Kabul 
and Embassy Dushanbe.

    a. What is the estimate of the number of contractor guards at 
embassy Kabul based on? Is there a comparable number of Marines 
providing security now?

    b. Is the cost estimate based on a similar contract for American 
guards now in place in Afghanistan (i.e. the protection detail of 
President Karzai)? If not, what is it based on?

    Answer. From July 25 to 27, 2002, a Diplomatic Security program 
officer visited post to determine the contract guard requirements to 
replace the assigned U.S. Marine Company. A survey of the Embassy 
compound, Embassy Annex, review of the U.S. Marines resources and 
capabilities and consultations with the DCN, TDY RSOs, and Marine 
Company commander was conducted. The information obtained from the 
consultations, surveys and analyzing the current U.S. Marine 
capabilities and resources was used to determine the estimated 
resources, within the parameters of a contract guard force 
capabilities, to adequately replace the U.S. Marine Company and provide 
security. The estimated number of contractor guards was also based on 
providing coverage to the entire Embassy compound and allowing for 
increased vehicular and pedestrian traffic as the Embassy assumes 
normalized operations. It provides contract guards for the mobile 
patrols, off site offices, and the Ambassador's residential security 
that are not currently provided by the Marine Company.
    To adequately replace the U.S. Marine Company with a contract guard 
force employing American citizens, Diplomatic Security has estimated 
that 273,640 guard hours per year would be required at an annual cost 
of $6,204,000 in FY-04.
    Currently, a reinforced company of U.S. Marines, approximately 80 
personnel, is providing security for the American Embassy in Kabul. 
More contract personnel will be required. The U.S. Marines are better 
equipped with weapons capabilities and resources, which provide them 
with the ability to react to threats with a smaller contingent of 
personnel than can be provided under a commercial guard contract. Also, 
an increase in contract guards is required to account for mission 
operations and other security services that are not currently being 
provided by the U.S. Marines.
    The cost estimate for the guard service is based on a similar 
contract for the protection of President Karzai in Afghanistan. The 
proposal is to use American guard personnel hired through a commercial 
guard contract.

    Question 3. With regard to the request for Athens Olympics 
Security, will the United States Olympic Committee or the host 
committee provide any reimbursement of the projected costs to the 
United States government for providing security to the U.S. Olympic 
Team? Is there a precedent for providing special agents to protect the 
Olympic Team at an Olympics held outside the United States? From where 
would the 150 special agents be assigned to temporary duty be drawn? 
What would be the consequent effect on security at the U.S. missions or 
domestic offices from which the special agents would be drawn?

    Answer. Neither the Athens Olympic Organizing Committee nor the 
U.S. Olympic Committee will provide reimbursement for the costs 
associated with providing security for the U.S. Olympic Team. The 
Organizing Committees do not fund security for each nation's Olympic 
team but will provide basic security for all participants.
    Special Agents from the Bureau of Diplomatic Security (DS) have 
provided protective security support for the U.S. Olympic team for the 
1988 Seoul, 1992 Barcelona, and the 2000 Sydney Games. DS has also 
provided coverage for U.S. Athletes at the World Cup and other 
international sporting events.
    We expect to draw some of the 150 Special Agents from Washington 
DC, various DS field offices throughout the United States and from 
volunteers at overseas posts where their temporary travel will not 
adversely affect mission security. We will also ask other U.S. Federal 
Law Enforcement agencies to provide their Special Agents in support of 
this operation. This is done at the UN General Assembly (UNGA) every 
year. U.S. Marshals, ATF Agents and other Federal law enforcement 
personnel work with DS to protect foreign dignitaries attending the 
UNGA.
    The 150 Special Agents assigned to provide security for the U.S. 
Olympic Team will be in Greece no longer that four weeks: most for only 
two to three weeks. We believe this will not produce long term adverse 
affects on the operations of our domestic offices. No DS agent from an 
overseas mission will be used if that mission's security will be 
adversely affected by the agent's absence.

    Question 4. What are the number of ETEs devoted to INR-TIPOFF/
Terrorism program? Are these positions all filled? Does the request for 
FY 2004 provide for additional positions? If not, why not?

    Answer. There are currently five positions devoted to INR's TIPOFF 
program. All of these positions are filled. These positions are 
supplemented by contract support as required.
    The Department's FY 2004 request includes an additional 399 
positions to complete the Diplomatic Readiness Initiative (DRI). These 
positions, as well as contractor resources, will be prioritized to help 
close existing staffing gaps and meet the dynamic staffing requirements 
for the Department, including those that are identified for the TIPOFF 
program.

    Question 5. Why are the Fulbright Exchanges and Professional 
Exchanges being reduced in the FY 2004 request? How many fewer exchange 
participants will receive funding as a result?

    Answer. The President's FY 2004 request for Educational and 
Cultural Exchanges is $345 million. The Department can do more in 
exchanges. However, the overall federal budget constraints did not 
allow funding above the levels we are requesting.
    The FY 04 request consists of:
    $245 million for exchanges, which is straight-lined from the FY 03 
level and $7 million below the current services level of funding. We 
estimate that this will result in 2,450 fewer exchanges in FY 04. Given 
that, ECA will pursue prioritization of effort and achievement of 
efficiencies to maximize the utilization of our funds.
    The request also includes $100 million for the merger of FSA/SEED 
exchanges from the Foreign Assistance appropriation into the 
Educational & Cultural Exchanges (ECE) appropriation. In the past, the 
Department has used Foreign Assistance transfers from USAID to support 
these key education, international visitor, and citizen exchange 
activities in the NIS and southeastern Europe.
    We need ways to reach the youth of the world, to quell hostility 
towards us, and to engage in constructive dialogue that increases 
mutual respect, and change antiAmerican attitudes. Exchanges are 
central to that longterm effort.

    Question 6. What is the unobligated balance in the K Fund as of 
February 1, 2003? What are the projected obligations in FY 2003?

    Answer. As of February 1, 2003, the unobligated balance in the 
Emergencies in the Diplomatic and Consular Service account (K Fund) was 
$43.3 million.
    Projected FY 2003 obligations for the K Fund are estimated to total 
$30 million.
    As a contingency account, the K Fund is utilized to meet unforeseen 
emergencies in State Department operations. Given the war on terrorism 
and campaign against the spread of weapons of mass destruction, it is 
highly likely that we will need to draw down the balance of this 
account in FY 2003 to meet requirements for rewards and evacuations.

                   INTERNATIONAL DISASTER ASSISTANCE

    Question. The request for International Disaster Assistance is $50 
million below the request for FY 2003 and $186 million below the actual 
spending in FY 2002. Why is the request reduced so significantly?

    Answer. The basic funding level for the International Disaster 
Assistance (IDA) account has not been reduced from traditional levels.
    The FY 2003 request included a budget amendment of $53 million for 
humanitarian, refugee, and reconstruction assistance specifically for 
the West Bank and Gaza.
    The FY 2002 actual level included a total of $186 million from the 
Emergency Response Fund (P.L. 107-38) and the FY 2002 Supplemental 
Appropriations Act (P.L. 107-206) to address specific post September 11 
requirements.
    As Secretary Powell indicated in his hearing, additional funding, 
including IDA, will likely be needed in FY 2003 to address additional 
unfunded needs.

                             BUDGET-RELATED

    Question 1. What were the number of passports issued in FY 2001, FY 
2002, and the first quarter of FY 2003?

    Answer. The Department issued 7,119,506 million passports in FY 
2001; 7,143,345 million in FY 2002; and 1,463,770 in the first quarter 
of FY 2003.

    Question 2. What were the number of NIV applications in FY 2001, KY 
2002, and the first quarter of FY 2003?

    Answer.


----------------------------------------------------------------------------------------------------------------
                                                                                                  Oct.-Dec.  FY
                                                                   FY 2001          FY 2002           2003
----------------------------------------------------------------------------------------------------------------
Issued.......................................................        7,588,778        5,769,638        1,204,822
Refused......................................................        2,870,799        2,587,230          603,461
                                                              --------------------------------------------------
    Total....................................................       10,459,577        8,356,868    \1\ 1,808,283

----------------------------------------------------------------------------------------------------------------
\1\ This figure represents a 2.76% increase over the same period during FY 2002.


    Question 3. The Budget-in-Brief for the State Department (page 21) 
projects that 6 million persons will apply for non-immigrant visas and 
will generate an MRV fee in FY 2003, which will also apply in FY 2004. 
The projected fee collections (set forth in the appendix), however, 
differ by $200 million (projected $582 million in FY 2003 and $782 
million in FY 2004).

    --Please explain the difference in the projected MRV fee 
collections.

    Answer. The FY 2004 budget assumes a visa workload of 7 million 
non-immigrant visa applicants, of whom approximately 6 million are 
required to pay the $100 Machine Readable Visa Fee. Certain categories 
of visa applicants, such as those seeking diplomatic visas, are not 
subject to the MRV fee. Against this MRV demand base of 6 million 
applicants, we have FY 2004 budgetary requirements that total $736 
million. Enhanced visa processes and the requirements under the 
Enhanced Border Security Act and the PATRIOT Act largely drive these 
requirements. Among the program that we must continue and/or initiate 
during KY 2004 is the collection of biometric data from all applicants. 
We are also conducting longer and more extensive interviews of all visa 
applicants.
    In order to fund these activities, the FY 2004 budget assumes that 
we will increase the MRV fee beyond $100. The Department has embarked 
on a comprehensive cost of service study to determine what this new fee 
would be. From a budgetary standpoint, we estimate that the new fee 
would be $130 to $140 per applicant, thereby generating net revenues of 
approximately $782 million.

    Question 4. The Budget-in-Brief for the State Department (at page 
35) indicates that the Department will establish 68 new positions in KY 
2004 by shifting responsibility for visa adjudication currently held by 
Consular Associates to Foreign Service Officers. The next paragraph 
indicates that ``in addition, the Department of State will establish 
additional positions as part of the Border Security Program funded by 
MRV fees.''

    --How many such positions will be established? At what cost?

    Answer. In FY 2004, the Department will establish 193 new positions 
to support the delivery of consular services. include:

  <bullet> 68 positions funded as part of the Department's D&CP 
        program. These positions will allow the Department to continue 
        to meet its commitment to shift visa adjudication 
        responsibilities from consular associates to commissioned 
        Foreign Service Officers. The total costs of these positions is 
        $22.572 million.

  <bullet> 125 new positions funded through the Department's Border 
        Security Program. This includes 80 overseas positions and 45 
        domestic positions. The overseas positions will deal with both 
        workload requirements and the need to begin collecting 
        biometrics from foreign visa applicants. The domestic positions 
        will address staffing needs associated with the domestic 
        passport function and the overall management of the Bureau of 
        Consular Affairs. The total cost of these 125 new positions is 
        estimated at $26,400 million.

    Question 5. What would be the cost of ending the charge imposed on 
passport applications for telephone inquiries to the National Passport 
Center? Please provide an estimate which assumes retaining the services 
of the contractor operating the Center.

    Answer. The Department of State depends upon the National Passport 
Information Center (NPIC) to answer inquiries from American citizens 
seeking information about the U.S. passport application process. The 
NPIC is currently operated by a private sector firm at no-cost to the 
Department of State; the NPIC charges callers a fee that recovers the 
cost of its service.
    The Department of State, consistent with our commitment to continue 
to improve service to our passport customers, is currently reviewing 
proposals from vendors interested in taking over the NPIC function and 
operating it as a service that would be largely funded by the 
Department of State. The actual cost of this contract will be 
determined through both the procurement process and based on actual 
usage of this service by passport applicants. The Department's FY-03 
and FY-04 Border Security Program budget includes $5 million for Public 
Information Support to fund a consular information program that will 
answer telephone inquiries about visas, passports and American citizen 
services. The new contract will be funded from this budget source.

 CONVENTION ON THE ELIMINATION OF ALL FORMS OF DISCRIMINATION AGAINST 
                             WOMEN (CEDAW)

    Question. On July 8, 2002, you wrote me indicating that the 
Administration was conducting a review of the Convention on the 
Elimination of All Forms of Discrimination Against Women (CEDAW), and 
that the review was proceeding as ``expeditiously as possible.'' Over 
seven months have now passed.

    a. What is the current status of that review?

    b. When does the Administration expect to complete it?

    Answer. The Administration is firmly committed to the advancement 
of women, in the United States and abroad. However, we continue to 
review unresolved questions related to the Convention on the 
Elimination of All Forms of Discrimination Against Women (CEDAW). We 
have at this point no timetable for the conclusion of the review, and 
therefore are not prepared to commit to concluding our work under a 
particular time frame. As the review proceeds, we will continue to 
advocate for women and children using a wide range of diplomatic tools 
including foreign assistance, bilateral negotiations, and at 
multilateral fora.

   ALLEGATIONS OF TORTURE BY USG PERSONNEL IN CONNECTION WITH WAR ON 
                               TERRORISM

    Question. On December 26, 2002, the Washington Post reported on 
treatment of terrorists suspects detained overseas by U.S. officials. 
The article alleges that such suspects are ``subject to what are known 
as `stress and duress' techniques,'' and further alleges that suspects 
who do not cooperate are rendered to foreign intelligence services 
whose ``practice of torture has been documented by the U.S. government 
and human rights organizations.''

    a. Please comment on these allegations as presented by the 
Washington Post article.

    b. What is U.S. policy and practice with regard to interrogation 
and treatment of such suspects?

    Answer. The United States, does not permit, tolerate, or condone 
torture. Torture is a violation of U.S. law. Allegations of torture are 
thoroughly investigated. Enemy combatants detained in U.S. control are 
treated consistent with applicable United States law and international 
law against torture, without regard to the conduct of our attackers. A 
number of these detainees are Senior al-Qaida operatives or others 
committed to killing Americans and others. They have been, and will 
continue to be, questioned aggressively in order to protect the lives 
of Americans and others. However, U.S. Government personnel are not 
permitted to torture detainees or participate in torture by others. 
They must conduct themselves in a manner that complies with applicable 
law. In any cases where the United States transfers detainees to other 
countries for detention, we seek and receive assurances that detainees 
will not be tortured.

                    POLICY OR LEGISLATIVE QUESTIONS

    Question 1. What instructions, if any, have been provided to posts 
with regard to implementation of Section 505 of the Foreign Relations 
Authorization Act, FY 2003 (P.L. 107-228) (related to travel by Voice 
of America correspondents)?

    Answer. The Department of State and our Ambassadors overseas 
recognize the vital role VOA correspondents play in bringing objective 
coverage of critical stories to the world. However, VOA correspondents, 
as all IRE, BBG and VOA employees, are federal employees subject to the 
same constraints, privileges, and responsibilities as are all federal 
employees overseas. Therefore, VOA correspondents are subject to Chief 
of Mission authority and must request country clearances when traveling 
abroad. They are also subject to Ambassadorial instructions in times of 
crisis.
    The Department and Administration feel there cannot be two separate 
systems of accountability--one for the employees of all overseas USC 
agencies and one specifically tailored to VOA correspondents. Uniform 
treatment of all public servants is crucial to the discipline and 
security of all our personnel, as was made clear in the President's 
signing statement of September 30, 2002.
    When other global media representatives are present, VOA 
correspondents have been allowed to remain in-country even in cases of 
an ordered departure. Ambassadors do not count VOA correspondents 
towards the mandated personnel levels during an authorized or ordered 
departure. In addition, in cases of mandatory evacuation, the 
Department of State follows the Department of Justice's direction that 
correspondents must evacuate with all other USC personnel, but the 
journalists should be the last employee to depart before the 
ambassador.
    These precepts have served well and maintain the correspondents' 
ability to cover a story, the President's authority and requirement to 
have a uniform overseas public service, and the Ambassador's 
responsibilities as Chief of Mission and Presidential representative.

    Question 2. In August 2002, in West Papua, Indonesia, two Americans 
were killed and eight others injured in an ambush while driving on a 
mountain road. There is evidence that senior members of the Indonesian 
military may have been behind this attack, which occurred less than 
half a mile from an Indonesian military post. The senior Indonesian 
police official in charge of the investigation said last December that 
there is evidence that soldiers from the army's strategic reserve force 
(KOSTRAD) were involved in the shooting. This same police official also 
reported last November that a witness to the ambush reported seeing 
members of the Indonesian army's special forces (KOPASSUS) 
participating in the attack. The Indonesian police report on the 
murders concludes, quote: ``there is a strong possibility that the case 
was perpetrated by members of the Indonesian National Army Force, 
however, it still needs to be investigated further.'' The Indonesian 
police authorities who conducted the first investigation into the 
murders have been transferred, removed from all authority over the 
case.
    In January 30, the New York Times reported that ``senior Bush 
administration officials'' have determined that Indonesian soldiers 
carried out the deadly ambush.

    Question a. Has the United States government reached any 
conclusions about who is responsible for the murders in West Papua? Has 
the Indonesian government? If so, what are the conclusions?

    Answer. The United States Government has not yet reached 
conclusions about the identity of individuals who are responsible for 
the murders in Papua, pending completion of the investigation into this 
incident. We believe that the same holds true for the Government of 
Indonesia.

    Question b. Is the Indonesian government providing the FBI with 
full, unobstructed access to potential suspects and witnesses to the 
killings? Specifically, has the FBI been permitted to interview General 
Raziman and Assistant Senior Police Commissioner Sumarjiyo, the police 
authorities who first investigated the murders?

    Answer. While we cannot speak for the FBI, we understand that the 
cooperation provided to Indonesian Government officials did not meet 
the full expectations of the FBI investigators who recently returned to 
Papua for further investigation of this case. Indonesian military 
authorities allowed the FBI agents to interview military personnel, but 
only in the presence of an Indonesian Army Brigadier General who had an 
intimidating effect on the soldiers. While the Indonesian Government 
authorities initially promised to allow the FBI to take evidence to the 
United States for testing, they later conditioned such an action on FBI 
funding of GOI personnel to accompany the evidence to the United 
States. Subsequently, during a February 19 meeting with FBI Director 
Mueller, Indonesian Police General Pastika stated that the FBI would 
have to send investigators and testing equipment to Indonesia in order 
to run tests on the evidence. The FBI investigators did not request to 
meet with Brigadier Raziman during their most recent trip to Papua. The 
FBI worked closely with Assistant Senior Police Commissioner Sumarjiyo 
during a previous visit and asked to meet with him upon their return to 
Papua but were told that Sumarjiyo had been removed from the case.

    Question c. On January 22, the State Department expressed the 
Administration's opposition to an amendment to the FY 2003 omnibus 
appropriations bill that would have conditioned some IMET assistance to 
Indonesia. The Assistant Secretary of State for Legislative Affairs 
asserted, ``The President has directed that we emphasize to the 
Government of Indonesia that there must be a credible investigation and 
process of justice to avoid damage to our entire bilateral 
relationship.'' Assistant Secretary Kelly, described, however, 
``repeated demarches'' from Washington which led the Indonesian 
Government to permit the FBI to participate in a new investigation of 
the West Papua killings.
    Would you describe the Indonesian Army's investigation into its own 
role in the West Papua murders as ``credible?'' Why does it take 
repeated demarches in order for the FBI to be permitted to investigate 
a crime in which 10 of the victims were American?

    Answer. The Indonesian government's summary of the various 
investigations, including those conducted by the Indonesian Army, was 
provided to the FBI. We understand that the FBI review of this summary 
found information pointing to possible involvement of individuals 
associated with the Indonesian military, however, the FBI also noted 
that the Indonesian government has not yet followed up on this 
information in a credible manner. Senior officials of the Indonesian 
Government quickly grasped the importance of this case; that we 
presented ``repeated demarches'' was due to the fact that we raised 
this issue in each and every encounter between senior U.S. and 
Indonesian Government officials.

    Question d. If the Indonesian military is found to have 
orchestrated the attack or had prior knowledge of it, what will be the 
consequences with regard to the U.S.-Indonesian relationship?

    Answer. Anything short of a full accounting and punishment for 
those responsible for this crime would be unacceptable and would have a 
negative impact on the bilateral relationship. At this time we are not 
prepared to speculate on the specific consequences of such a failure.

    Question 3. Please provide information on implementation of Section 
606(a)(1)(A) and (4) of the Admiral James W. Nance and Meg Donovan 
Foreign Relations Authorization Act, Fiscal Years 2000 and 2001 
(related to Emergency Action Plans at U.S. missions and crisis 
management training for Department personnel) since enactment. How is 
oversight exercised of post compliance with regard to the requirements 
for training or drills of measures under the Emergency Action Plans? 
What is the compliance record of posts in this regard?

    Answer. Foreign Affairs Handbooks (FAH) are the Department's 
regulatory authority and all posts are expected to be in compliance. 
The Emergency Planning Handbook, requires every post to conduct the 
following drills each year: Fire, Bomb, Emergency Destruction, Internal 
Defense, Duck and Cover, and Warden System Exercise for Notification of 
both Official Personnel and Non-Official U.S. citizens. Posts listed as 
high or critical on the Security Environment Threat List must conduct 
these drills twice a year. The Handbook specifically states that Posts 
will report the dates and results of the drills as they are conducted 
via cable to the Department. The Bureau of Diplomatic Security's Office 
of International Programs tracks the status of Drills through Quarterly 
Status Reports.
    Since 1999, the Department has provided instruction in crisis 
management to personnel at U.S. diplomatic posts by conducting Crisis 
Management Exercises (CMEs) at a minimum of 100 posts per fiscal year. 
On average, each post will participate in a CME once every 30 months. 
All posts had completed at least one CME by March 2001. The number of 
CMEs conducted through FY02 is as follows: FY 2000: 103; FY 2002: 105; 
FY 2002: 110.

    Question 4. How many overseas facilities, in percentage terms, 
currently do not meet security standards for setback?

    Answer. We currently have 248 overseas posts with facilities 
located in stand-alone buildings or compounds and 86.6% of the posts do 
not fully meet security standards for setback.
    Department long-range plans call for the replacement of fifty-four 
of our current overseas office facilities with new buildings through FY 
2007. Should these plans be achieved, the percentage of our overseas 
office facilities not meeting setback standards would be reduced from 
86.6% to 65%. Relocating more of our smaller facilities into commercial 
space in multi-tenant office buildings, as 9.5% of our office 
facilities are currently located, will improve our security as well. 
While offices in commercial space generally do not meet setback 
standards, this alternate execution strategy for small posts provides a 
reasonable level of security at an affordable price.

    Question 5. Section 606(a)(7) of the Admiral James N. Nance and Meg 
Donovan Foreign Relations Authorization Act, Fiscal Years 2000 and 2001 
requires the Secretary of State to enter into a memorandum of 
understanding (MOU) with the Secretary of Defense on rapid response 
procedures for mobilization of personnel and equipment in times of 
emergency with respect to U.S. diplomatic facilities. Has this MOU been 
concluded?

    Answer. The MOU has not yet been concluded. However, the Executive 
Secretariat (S/ES) has begun internal preparations for negotiations 
with the Department of Defense on rapid response procedures. According 
to the January, 2001, Security and Intelligence Oversight Report, 
stakeholder bureaus in State met and reviewed existing documents 
defining responsibilities for crisis response.
    Although the MOU process was initiated in early 2001, an MOU has 
not yet been completed. Summer 2001 personnel turnover and the events 
of September 11, 2001, delayed progress. Since 2001, S/ES has 
experienced a complete changeover in staff. A November 20, 2002, memo 
from the OIG to the S/ES executive office, requesting a status report 
on the MOU, brought the matter to the attention of the new Executive 
Secretary and S/ES staff, who were previously unaware of the 
requirement.
    To advance progress on the MOU, the Executive Secretary has 
designated the Office of Crisis Management Support (S/ES-O/CMS) as the 
action office for negotiating and drafting the MOU. The Director of CMS 
has reestablished dialogue with the Department of Defense to that end.
    S/ES will advise the Committee when the MOU with the Department of 
Defense is finalized.

    Question 6. Please provide information on attrition by grade, in 
the Foreign Service in Fiscal Years 2001 and 2002. Please provide 
information both in the aggregate and as a percentage of each grade. 
Does the Department conduct exit interviews of officers who resign or 
retire voluntarily? If so, what are the common reasons for departure 
from the Service?

    Answer. We are continually gratified by the fact that attrition in 
the Foreign Service remains very low. We do collect information and 
whenever possible conduct exit interviews with Foreign Service 
employees who resign. In these interviews, the reasons most often cited 
are related to incompatibility with the Foreign Service lifestyle due 
to employee or family medical issues, children's educational needs, or 
difficulty in finding employment for a spouse.
    In addition, in our employee survey last year, employees most often 
cited those same reasons as the ones that might prompt them to consider 
leaving the Department. We have a variety of programs and initiatives 
to address these concerns so that employees and families can remain 
with the Department. This includes our spousal employment assistance 
program and our efforts to manage ``tandem'' couples where both are 
employees of the Department.

    Question 7. As of January 1, 2003, what is the current average 
caseload of officers in the Office of Children's Issues?

    Answer. As of January 1, 2003, the average caseload in the 
Abduction Unit of the Office of Children's Issues is currently fifty-
four active cases per officer.

    Question 8. What is the status of consolidating all public 
diplomacy personnel at Main State? How long will State continue to use 
SA44?

    Answer. Under the State-USIA Reorganization, the office of the 
Under Secretary for Public Diplomacy and Public Affairs was established 
at Main State. In addition, the public diplomacy staffs from the 
regional bureaus moved to Main State from SA-44. In addition to ECA and 
lIP personnel, the legal public diplomacy staff remain at SA-44 pending 
on-going major renovations that will result in the consolidation of the 
Bureau of Legal Affairs at Main State.
    The lease for SA-44 was renewed on January 3, 2003 for ten years, 
through January 2, 2013. We are planning to consolidate most/all of the 
ECA and lIP personnel to the Foggy Bottom area when the American 
Pharmaceutical Association completes a proposed building addition 
across the street from Main State. Due to site transfer and building 
height limitations, we expect this addition will not be completed until 
2007/2008. We can give GSA notice and vacate all or a portion of SA-44 
when we are able to move staff to the new site.

    Question 9. The backlog of pending Freedom of Information Act 
(FOIA) or Privacy Act requests continues to increase, according to the 
most recently available reports from the Department. At the end of FY 
2000, there were 5,782 requests pending. At the end of FY 2001, there 
were 6,214 requests pending. The Congressional Presentation Document 
for the Department for FY 2003 indicates ``23 additional FTEs were 
provided to the Bureau of Administration in the third quarter of FY 
2001 to eliminate the backlog during FY 2002 and FY 2003.''

    a. What is the current backlog of FOIA and Privacy Act requests, as 
of January 1, 2003?

    b. Are those 23 additional FTEs still filled?

    c. What are the reasons the backlog continues to increase?

    Answers:

    a. As of January 1, 2003, there was a backlog of 4420 FOIA and 
Privacy Act cases.

    b. Nineteen of the 23 additional FTEs have been filled; the 
remaining four positions will be filled as soon as background 
investigations are completed for the TOP SECRET security clearances 
required for the positions. These 23 FTP will remain filled as part of 
the permanent FOIA program infrastructure that has been established to 
reduce the current backlog and prevent its build up in the future.

    c. The backlog is no longer increasing, but decreasing as evidenced 
by the fact that as of March 1, 2003, we had 3,762 FOIA and Privacy Act 
cases in the backlog.

                        BUDGET-RELATED QUESTIONS

    Question. The Congressional Presentation Document for the 
Department for FY 2003 indicates that the ``Department has embraced the 
use of alternative fuel and natural gas vehicles for the domestic motor 
pool . . . (w)e have exceeded our goal for energy efficient vehicles, 
in that they now comprise 84 percent of the applicable inventory.''

    a. What is the goal for ``energy efficient vehicles?'' What is the 
Department's definition of such a vehicle?

    b. What efforts are being made or have been made to procure such 
vehicles overseas?

    Answer a. The Department of State's goals for energy efficient 
vehicles are set forth in the Agency Fleet Energy Strategy Plan. 
Although the Department has not established a ``percentage'' for energy 
efficient vehicles, the Department's strategy includes: the use of 
biodiesel (B-20) instead of conventional diesel powered vehicles; 
continued acquisition of alternative-fuel vehicles (AFVs) and use of 
alternative fuels in AFVs; acquisition of light-duty vehicles with 
higher fuel economy; and improvements in the efficiency with which DOS 
vehicles are operated.
    The Energy Policy Act of 1992 (EPAct) requires that 75 percent of 
all covered light-duty vehicles (where the fleets have 20 or more 
vehicles, are capable of being centrally fueled, and are operated in a 
metropolitan statistical area with a population of more than 250,000 
based on the 1980 census) acquired for Federal fleets must be 
Alternative Fueled Vehicles (AFVs). In FY 2002 the Department acquired 
43 AFVs (6 CNG bi-fuel, 4 CNG dedicated buses, and 33 E-85 flex-fuel) 
for a total of 51 AFV credits. This resulted in an AFV-acquisition 
percentage of 340% for FY 2002 (based on the Department's acquisition 
of 15 light-duty non-exempt or ``covered'' vehicles).
    The Department's definition of ``energy efficient vehicles'' is 
defined as any vehicle that meets, or exceeds, the fuel economy values 
for a specific make and model of motor vehicle as established by the 
Environmental Protection Agency (EPA). When acquiring vehicles, the 
Department strives to purchase fuel efficient vehicles as published in 
EPA's ``Fuel Economy Guide''.

    Answer b. Currently, there are no energy efficient alternative fuel 
vehicles in the overseas fleet, primarily because most countries do not 
have alternative fuels available. We have purchased 50 American-
manufactured model year 2003 sedans and 30 model year 2003 station 
wagons that can use either ethanol or gasoline fuel which will be used 
to replace gasoline only powered vehicles where practical.

                                 ______
                                 

   Responses of Hon. Colin Powell, Secretary of State, to Additional 
   Questions for the Record Submitted by Senator George V. Voinovich

                   STRATEGIC HUMAN CAPITAL MANAGEMENT

    Question 1. Secretary Powell, the U.S. GAO, the Nation Commission 
of Public Service, the U.S. Commission on National Security 21st 
Century, the John F. Kennedy School of Government at Harvard University 
and numerous other organizations have observed that the federal 
government is experiencing a pervasive set of strategic human capital 
management challenges. What is the Department of State doing to address 
these issues especially in the case of its Civil Service workforce?

    Answer. The Department of State has already embarked on its most 
ambitious management reform ever in the area of human capital. We have 
made people a top priority in the Department for both resources and 
attention.
    The Diplomatic Readiness Initiative (DRI)--begun in FY2002--is our 
plan for ensuring the Department has enough staff to respond to crises 
and emerging priorities, fill critical overseas staffing gaps, and 
allow for training, especially in language and leadership and 
management, without leaving us understaffed. We have successfully 
completed the first year and are well on our way to completing year 
two. With continued Congressional support we will be able to complete 
the DRI in FY2004.
    As part of the DRI, we have reformed our recruitment and hiring, 
making significant gains in attracting talented applicants to the 
Department. We increased all of our outreach and targeted the skills we 
needed as well as minorities. With additional resources, we have 
successfully streamlined the Foreign Service hiring process and have 
turned our attention to the Civil Service hiring process. While much of 
that process is governed by statute and managed by the Office of 
Personnel Management, we want to ensure that what is within our control 
is effective, efficient, and encourages talent to join the Department.
    In addition to recruitment and hiring, we have also concentrated on 
better methods of workforce planning, developing a Domestic Staffing 
Model as a complement to our Overseas Staffing Model. As we use the 
results from our initial assessments and begin to refine that model, we 
will be able to better project skill needs within our domestic 
operations. We are also working with the Department of the Army to 
revise their civilian succession planning model for our use.
    One of the goals of the DRI is to ensure we have an adequate 
``personnel complement'' that can allow us to send people to the needed 
training while not leaving day-to-day responsibilities understaffed. 
The Army budgets a significant percentage of its workforce for 
transfers and training and we want to be in a position to plan for 
dealing with the unexpected rather than always taking it out of hide.
    As part of the emphasis on training, we have instituted a plan to 
train all Foreign and Civil Service mid-level employees over four years 
in critical leadership and management skills. This is mandatory. We 
also increased the emphasis on those skills in our Junior Officer 
training and established a new training requirement for employees 
entering the Senior Executive Service or the Senior Foreign Service.

    Question 2. Please describe the State Department's rate of use of 
the following title 5 authorities, which are designed to recruit and 
retain a high-quality Civil Service workforce: (1) recruitment, 
retention and relocation allowances; and (2) student loan repayments.

    Answer. (1) The Department of State has implemented a structured 
program of financial incentives to facilitate recruitment and retention 
of individuals who possess critical Information Technology skills. A 
panel of subject matter experts from throughout the Department 
established the professional training and certification criteria, based 
upon the skills needed to meet mission requirements. The program 
provides one-time recruitment bonuses of up to 25% of base pay and on-
going retention allowances of up to 15% of base pay, depending upon the 
level of the individual's credentials. To date, approximately 50% of 
the current IT workforce have attained the necessary credentials to 
receive some level of retention allowance. And 250 employees have been 
approved for a recruitment bonus. Incentives have also been paid to 
recruit and retain Civil Service employees in positions which require 
skill in such difficult to staff languages as Japanese and Arabic.
    Although the Department does not utilize the relocation bonus 
incentive, we do pay permanent change of station allowances in 
accordance with the Federal Travel Regulations to all Civil Service 
employees who are relocated either from another Federal agency or 
within the Department. We have also implemented written policies and 
procedures which allow individual bureaus to pay certain travel 
expenses for new hires who are relocating to accept employment with the 
Department.
    (2) The Department's Student Loan Repayment program has been 
recognized as one of the most advanced and ambitious in the Federal 
Government. In Fiscal Year 2002, 137 Civil Service employees in 
positions in 26 occupational series were offered Student Loan Repayment 
incentives. Of the 26 occupational series, 17 were identified as 
chronically difficult to fill with or retain high-quality employees. 
The employees in the remaining nine occupational series have unique 
skills, knowledge, or abilities the Department has determined it is 
essential to retain.
    Two hundred and seventy Foreign Service employees in positions in 
90 overseas locations were also offered Student Loan Repayment 
incentives.

    Question 3. Please comment on the State Department's use of the 
Presidential Management Intern (PMI) Program in recent years. 
Specifically, please respond to the following questions:

  <bullet> How does the PMI Program fit into the Department's short- 
        and long-term recruitment and hiring goals? Will the Program be 
        included in the management and/or human capital portion(s) the 
        Department's strategic and/or performance plans, which are now 
        required by the Government Performance and Results Act (GPRA)?

  <bullet> What role does the PMI Program play in helping the 
        Department prepare for the imminent dynamic increase in federal 
        workforce vacancies that will be created by ``Baby Boomer'' 
        retirements over the next decade?

  <bullet> What is the retention rate of PMIs who convert to the 
        competitive service after completing their two-year 
        internships? How long do such former PMIs remain with the 
        Department?

    Answer. The PMI Program plays a significant role in both our short- 
and long-term recruitment goals. Since 1997 we have been averaging over 
50 PMI hires per year for a total of 307 to date. OPM has recognized 
the Department as being among the top three Federal employers for PMI's 
over the past several years.
    While the PMI program is considered a part of our succession plan 
and its use is encouraged at the highest levels, it is primarily a tool 
for Bureaus to use to meet their skill needs. The yearly process of 
determining what PMI positions to authorize is part of the regular 
budgeting and planning process that allocates human resources.
    Having a vibrant PMI program helps us to have significant numbers 
of trained and experienced mid and senior level managers ready to 
assume the responsibilities of our departing Baby Boomers. To this end, 
we have instituted a centrally managed and structured program agenda 
that:

  <bullet> Brings the PMIs on board as a group in September

  <bullet> Provides a dedicated week-long orientation at FSI

  <bullet> Requires mandatory periodic submissions of Individual 
        Development Plans that are monitored by the central PMI program 
        manager

  <bullet> Identifies specific management courses to be taken at FSI

  <bullet> Provides opportunities for two 4-month rotations which can 
        include serving at an embassy or consulate abroad.

    Since 1997, we have converted 148 PMIs into Federal Service. Of 
this number, 123 (83%) are still working at the Department, with 17 
having entered the Foreign Service. Of the 25 who left after their 
conversion, 5 transferred to other federal agencies. We currently have 
over 150 PMIs progressing through their two-year internship.

    Question 3. The Foreign Service Institute has an excellent 
reputation for training the National's diplomats in foreign languages 
and offering many beneficial courses to civilians as well. Is language 
training available for those civilians who wish to gain such skills?

    Answer. The Foreign Service Institute (FSI) provides language 
training primarily to U.S. foreign affairs professionals in preparation 
for assignment abroad. It does not have the authority to provide 
language training to civilians in general. FSI can provide training to 
individuals under a Personal Services Contract (PSC) with the 
Department of State when there is a job-related need connected to an 
overseas assignment.
    FSI, like the Defense Language Institute, does make some of its 
language training materials (such as language tapes and texts and 
multimedia CD-ROM tools) available, at a reasonable cost, to the public 
through the National Technical Information Service which is under the 
Department of Commerce.

    Question 4. What new legislative authorities, if any, would be 
useful to the improved management of the State Department's Foreign 
Service, Foreign Service National and Civil Service workforces?

    Answer. It is important that the issue of the dislocation of the 
locality pay system be addressed especially as it relates to overseas 
pay where employees receive the base pay scale and not even the ``rest 
of the U.S.'' locality pay rate. For employees required to spend large 
portions of their careers overseas, this is a major inequity and 
disincentive with cumulative effects over a career. It has eroded the 
value of hardship differentials and retirement contributions. The 
longer this situation persists the more it affects morale as we ask 
employees to do challenging work in ever more difficult situations 
overseas.

                          SITUATION IN KOSOVO

    Question 1. What is your assessment of the situation of ethnic 
minorities in Kosovo? What constructive steps can the United States 
take to end ethnic violence and encourage respect for all people in 
Kosovo, including Serbs, Roma, Egyptians, Bosniaks, Croats, Turks and 
other minorities?

    Answer. The status of ethnic minorities in Kosovo varies widely by 
municipality and even from village to village. The situation generally 
is improving, but needs further progress.
    Overall, violent acts against ethnic minorities have decreased but 
ethnic minorities continue to face less visible forms of aggression as 
well as serious restrictions on their freedom of movement. Some areas 
have opened up for Serbs, but they still face pressure to sell 
property, encounter difficulty traveling outside Serb-populated areas, 
and are sometimes subject to arbitrary violence and intimidation. Roma, 
Ashkali, Egyptians, Bosniaks and Gorani have freedom of movement in 
parts of Kosovo. Turks are generally well integrated and face few 
problems. A number of municipal leaders are actively working to improve 
the situation for minorities in their communities, but indifference and 
hostility toward ethnic minorities remains a significant problem. Lack 
of economic opportunity is a serious problem for both Albanian and 
minority communities.
    The U.S. continues to push the leaders of Kosovo's ethnic 
communities to end ethnic violence and intimidation, as well as make 
clear that Kosovo must become a multiethnic society in which all of 
Kosovo's citizens, including Serbs, can live safely. Positive 
statements in support of returns and multi-ethnicity, such as those of 
February 28 by President Rugova, Prime Minister Rexhepi, and Kosovo 
Assembly President Daci, are helpful.
    In addition to its substantial funding to support returns and the 
work of the Housing and Property Directorate in 2003, the U.S. will 
leverage funds for municipalities, setting local officials' public 
support for tolerance and minority returns in their communities as a 
precondition for obtaining U.S. assistance.
    The U.S. Office in Pristina also coordinates closely with the UN 
Interim Administration Mission's (UNMIK) Office of Communities and 
Returns, and promotes an activist agenda on returns and multi-ethnicity 
through its contacts with Kosovo leaders and through an active public 
diplomacy program.

    Question 2. During my visit to Kosovo last May, I was impressed 
with the ``benchmark goals'' outlined by Head of UNMIK Michael Steiner, 
which call for progress in key areas, including respect for the rule of 
law, strengthening democratic institutions, and building a civil 
society. The benchmark goals also emphasize the need to address respect 
for minority rights and refugee return. What progress has been made in 
the areas outlined by UNMIK? What is the United States doing to further 
the implementation of these goals? I am particularly interested in the 
level of our involvement in efforts to facilitate refugee return in 
Kosovo.

    Answer. We share your support for UN Special Representative Michael 
Steiner's eight basic standards of a functioning democratic society. 
These standards, which are linked to tangible benchmarks, are designed 
to guide the Provisional Institutions of Self-Government toward 
democratization. Recently Mr. Steiner has pushed Kosovar leaders to 
engage more proactively on the benchmark process rather than focus on 
final status. While we support this approach of ``standards before 
status,'' Special Representative Steiner also needs to set out clear 
indices of compliance for the Kosovar authorities. To that end, we 
welcome Mr. Steiner's recent elaboration of actions local entities need 
to take to meet the benchmarks and his intention to engage municipal 
officials as well as the Provisional Institutions of Self-Government on 
their implementation.
    For your review, I have listed below the eight standards with a 
brief update on each.

  <bullet> Functioning Democratic Institutions: Since 1999, Kosovo has 
        conducted three successful elections under the guidance of the 
        international community. As a result, there are functioning, 
        representative institutions at both the central and municipal 
        levels. The provisional government and Assembly have worked 
        together with UNMIK to produce legislation on education, the 
        environment and economic development.

  <bullet> Rule of Law: Kosovo's multi-ethnic police service, the 
        Kosovo Police Service, while still a new force, is a success 
        story. Since its inception in 1999, the United States has 
        committed $54.9 million to train and equip this organization. 
        Additionally, the U.S. provides 555 U.S. police officers to the 
        UN police mission in Kosovo, who are both performing law 
        enforcement functions, and helping to develop the institution. 
        The rate of serious crimes in Kosovo declined sharply in 2002, 
        and the recent arrests of three former Kosovo Liberation Army 
        members in Kosovo indicted by the International Criminal 
        Tribunal for the Former Yugoslavia (ICTY) in The Hague 
        transpired without violence. However, ethnic violence and 
        organized crime continue to plague Kosovo. To help establish 
        the rule of law, the U.S. has contributed $2.5 million to 
        counter organized crime, including help establishing a Criminal 
        Intelligence Unit and Kosovo Organized Crime Bureau within 
        UNMIK police.

  <bullet> Freedom of Movement: In a few tense regions such as 
        Mitrovica and Pec/Peje, the freedom of movement for minorities 
        is limited; but, overall, there was a marked increase in 
        freedom of movement in some areas for Serbs and other minority 
        communities in 2002.

  <bullet> Returns and Reintegration: In the past year, we have seen 
        progress on the return of refugees and internally displaced 
        persons to Kosovo, but we are insisting on further, and faster, 
        progress. In 2002, nearly 2,700 minority individuals returned 
        to Kosovo, and minority returns exceeded departures for the 
        first time since the end of the conflict in June 1999. Nearly 
        6,000 refugees and displaced minorities have returned since 
        1999. In 2003, we anticipate returns on a larger scale as the 
        security situation improves and returns coordination between 
        UNMIK, international donors and Kosovo officials improves. The 
        difficult general economic situation in Kosovo and particularly 
        for minority communities remains a considerable obstacle to 
        sustainable returns.
    Ensuring people have the right to return to their homes is an 
important priority of the USG. In 2002, the State Department 
contributed $13 million to support the work of the United Nations High 
Commissioner for Refugees in Serbia and Kosovo and funded $5.5 million 
in NGO programs for returns to Kosovo. In 2003, there will be an 
increase in funding for State Department's Bureau of Population and 
Migration and USAID managed returns programs. The U.S. will also 
leverage funds for municipalities, setting local officials' public 
support for tolerance and minority returns in their communities as a 
precondition for obtaining U.S. assistance. We have also urged the 
Europeans to extend financial support long enough to encourage current 
positive trends to continue, and to work together with UNHCR to ensure 
a smooth handover of returns responsibilities to local authorities. We 
will continue to work closely with UNMIK, the international community, 
and the Kosovar leadership to ensure that everyone who wishes to return 
has the opportunity to do so.

  <bullet> Economy: Through significant U.S. support, Kosovo has 
        developed a sound macroeconomic and structural policy for 
        economic recovery. We are working closely with UNMIK and the 
        provisional Kosovo authorities to establish a market-friendly 
        legal framework to attract outside investment and spur job 
        growth. Privatization has now begun. We are actively seeking 
        ways to allow IFI support to Kosovo, and to enmesh Kosovo into 
        the larger regional economy in a way that does not prejudice 
        the outcome of its final status.

  <bullet> Property Rights: Unresolved property disputes continue to 
        hinder returns, but recent administrative changes in UNMIK's 
        Housing and Property Directorate have allowed this organization 
        to operate more efficiently and help clear away hurdles to 
        sustainable returns. The U.S. will continue to support property 
        rights in 2003.

  <bullet> Dialogue with Belgrade: The U.S., along with UNMIK, 
        continues to encourage a direct dialogue between Pristina and 
        Belgrade on practical issues such as energy, trade and freedom 
        of movement. Establishing direct talks remains a politically 
        sensitive issue for both parties at this time. We note with 
        approval Special Representative Steiner's invitation to 
        Belgrade and Kosovo leaders February 28 to participate in 
        technical talks.

  <bullet> Kosovo Protection Corps: From the outset, the United States 
        has funded training for the Kosovo Protection Corps to build 
        its capabilities in disaster relief and civil protection tasks, 
        improve discipline and bring about better compliance with its 
        mandate. Unfortunately, the Kosovo Protection Corps still lacks 
        significant minority participation.

                  REFUGEE RETURNS IN SOUTHEAST EUROPE

    Question. My interest in the issue of refugee return in southeast 
Europe traces back to my visit to the Stankovic refugee camp in 
Macedonia during the war in 1999. At that time, I was very concerned 
with the plight of Kosovar Albanian refugees, and I was glad that many 
of them were able to return to their homes. I have also been very 
concerned with human rights and refugee return throughout the region, 
whether in Bosnia, Croatia, or Kosovo. I believe continued progress on 
this issue is crucial to efforts to enhance security and stability in 
the region. What is the United States doing to promote refugee return 
in southeast Europe? Where has progress been made, and where do we need 
to raise our level of involvement in the region?

    Answer. The U.S. supports the return of displaced people in the 
Balkans in several ways. We provide substantial funding to 
organizations that promote returns; in 2002 the State Department 
contributed sixteen million dollars to non-governmental organizations 
and nearly twenty-four million dollars to the United Nations High 
Commissioner for Refugees to support their activities in the region. 
The United States Agency for International Development contributes 
substantial development resources in support of returns as well. We 
also use our diplomatic leverage with authorities in the region to push 
for progress on the issue of returns.
    Our efforts are yielding results. In Bosnia and Kosovo, we saw 
encouraging progress in 2002. More than 100,000 people returned to 
areas of Bosnia in which they will be part of the ethnic minority. This 
brings the total number of minority returns in Bosnia to nearly 
400,000, out of one million total returns, since the Dayton peace 
agreement. We expect similar numbers in the coming year. In Kosovo, 
minority returns have begun to exceed minority departures, and, while 
more needs to be done, this is a sign of progress. This past year saw 
nearly 2,700 such returns, for a total of nearly 6,000 since the end of 
the conflict in 1999. Non-Serb minorities such as Roma and Bosniaks 
still make up the bulk of these returns; however, we expect to see 
Kosovar Serbs returning in increasing numbers in the coming year.
    Progress has been slower in Croatia. Although more than 250,000 
Croatian Serb refugees remain displaced throughout the region, only 
17,000 returned to their homes in 2002. This number is unacceptably low 
and we, together with our European partners, continue to push the 
Croatian government to live up to its commitments to assist the return 
of these individuals.
    Given the success in Bosnia and the fact that the obstacles in 
Croatia are mostly political and do not require outside financial 
assistance, we will shift our funding priorities towards Kosovo in the 
coming year. We will also continue to press the region's governments to 
live up to their commitments to support returns.

              ANTI-SEMITISM IN EUROPE AND THE MIDDLE EAST

    Question. As we have discussed, I remain deeply concerned with the 
rise in anti-Semitic violence that has been seen in Europe and the 
Middle East. I believe it is crucial that the United States develop a 
strategic plan to raise the awareness of this growing problem. What is 
our national strategy to highlight the issue of anti-Semitism? What are 
we doing bilaterally on this matter, and how are we working with 
various international organizations such as the United Nations and the 
Organization for Security and Cooperation in Europe (OSCE)? What steps 
has the United States taken to encourage the OSCE to schedule a 
separate, human dimension implementation meeting on the subject of 
anti-Semitism this year?

    Answer. The Department of State also views with concern the rise of 
anti-Semitic violence in Europe and the Middle East. We have raised the 
point bilaterally with high-level officials of governments of affected 
countries, both here and abroad.
    Our strategy is to focus on measures that will encourage our 
European Allies to adopt programs to prevent anti-Semitism. One effort 
that has been particularly successful is the International Task Force 
on Holocaust Education, a group of 17 countries that is designing 
programs to prevent anti-Semitism and encourage tolerance.
    Bilaterally, we have been active in raising our concerns with host 
governments. We have underlined that anti-Semitism can not be dismissed 
as the action of hooligans, but must be seen as a challenge to 
democratic civil society. These demarches have often resulted in public 
statements issued by the Presidents of the countries involved, such as 
that of President Putin in 2002.
    We have also pressed the issue of anti-Semitism in the OSCE. Last 
year, the United States won agreement at the OSCE Ministerial in Porto, 
Portugal, to hold an OSCE meeting on anti-Semitism in 2003. We expect 
the meeting to be held in early summer. The United States will assemble 
a robust delegation of public and government members who will address 
the U.S. experience in dealing with anti-Semitism and share our best 
practices in dealing with this problem with other OSCE participating 
states.
    The UN addresses the general subject of religious intolerance, 
rather than anti-Semitism per se. An independent special rapporteur on 
religious intolerance with a mandate from the Commission on Human 
Rights submits periodic reports to the General Assembly and UN 
Commission on Human Rights, and decides which current problems (such as 
anti-Semitism) UN organizations and agencies will focus upon. We 
support those efforts.

                     ORGANIZED CRIME AND CORRUPTION

    Question. What is the United States doing to combat organized crime 
and corruption in southeast Europe? How is the U.S. government working 
with various non-governmental organizations and other members of the 
international community, such as the Southeast Europe Cooperative 
Initiative (SECI), the Stability Pact, the OSCE, and the European 
Union, among others? How, if at all, are the various initiatives of 
these groups being coordinated?

    Answer. Organized crime and corruption pose a serious threat to the 
Balkans, and by extension, to Western Europe and the U.S. Criminal and 
terrorist organizations are often connected and exploit the weakness of 
states in the region, in particular through trafficking in persons, 
small arms, drugs, cigarettes, and illegal financial flows. Together 
with the international community, the U.S. is working with these 
countries to improve their capacity to deal with organized criminal 
elements, which take advantage of a weak rule-of-law structure and a 
decade of conflict. We place a high priority on development of the rule 
of law in this region, and have provided significant assistance focused 
on bilateral law enforcement, judicial reform, and border control.
    The U.S. also supports regional initiatives and organizations such 
as the Southeast Europe Cooperative Initiative (SECI), the Stability 
Pact and the OSCE, which help to foster cooperation among states on 
these issues, and we work closely with these organizations, and our 
European partners, to coordinate efforts and maximize the benefit of 
our assistance. The Stability Pact has recently co-located the 
Secretariat for its Organized Crime initiative (SPOC) at the Regional 
Anti-Crime Center in Bucharest. These organizations work together with 
EUROPOL and other European structures to ensure their activities are 
coordinated. Several EU countries have sent observers to the Bucharest 
Center and some are also providing financial support to the SPOC. The 
SPOC and the Bucharest Center are also working to follow up on the 
conclusions of the November 25 EU Conference on Organized Crime that 
was held in London. The OSCE's emphasis on combating illegal 
trafficking also serves as a vehicle for developing further measures on 
organized crime and corruption.

                                  NATO

    Question. As we begin to discuss the issue of NATO enlargement 
during this session of Congress, there is continued dialogue regarding 
the role that the NATO Alliance will play during the next fifty years. 
How does the question of NATO enlargement fit into this debate? From 
your perspective, what is the role of NATO as we prepare to confront 
new challenges to global security post-September 11th? What 
contributions can aspirant countries make to enhance the overall 
security of the Alliance?

    Answer. The role of NATO for the next fifty years will be what it 
has been for the Alliance's first fifty years: to safeguard the freedom 
and security of all of its members by political and military means in 
accordance with the North Atlantic Treaty and the principles of the 
United Nations Charter. NATO will remain the key Transatlantic tie and 
the indispensable Euro-Atlantic security institution.
    However, the threats that are facing the Alliance in the 21st 
Century have changed dramatically since the Cold War years. The 
principal threats of today--terrorism and the proliferation of weapons 
of mass destruction--are transnational and global in nature, stemming 
in many instances from non-state actors and from regions outside of 
NATO's traditional area of operations.
    To address these threats, NATO has embarked on a revolutionary 
transformation of its military capabilities. This transformation, which 
was the focus of the Alliance's highly successful summit last November 
in Prague, will provide NATO with the means to rapidly deploy and 
sustain highly capable forces to wherever they are needed. This 
transformation is being led by the United States with the support and 
full participation of our Allies, seven new invitees to NATO and our 
partners.
    At Prague, our European Allies agreed to improve their military 
capabilities, through pooling resources and specialization, enabling 
NATO to undertake collective action against the new threats that we 
face around the globe. For their part, the seven invitees are already 
working to develop such specialized niche capabilities. At Prague, the 
Allies also endorsed a U.S. proposal to establish a NATO Response Force 
(NRF). The NRF will harness NATO's new capabilities into a cutting edge 
land, air and sea force that will be able to deploy at short notice to 
anywhere in the world and sustain itself in the field.
    NATO's decision at Prague to invite seven new members to join the 
Alliance will also transform the Alliance, extending our zone of 
security from the Baltic to the Black Sea. Committed Atlanticists, each 
of the seven new invitees is already functioning like a de facto Ally. 
Each has contributed in some capacity to Operation Enduring Freedom, 
and peacekeeping missions in the Balkans. And all seven have also 
supported publicly our call for Saddam to disarm or face the 
consequences.
    At Prague, the Alliance also rededicated itself to improved 
relations with its neighbors, especially to the east and south. This is 
particularly important given that many of the threats facing NATO today 
originate from these areas.
    Closer relations between NATO and neighbors such as Russia and 
Ukraine will enhance the political and economic stability, of these 
countries, and Alliance security, by encouraging military reform, good 
governance, rule of law, human rights, and economic development.

                                 ______
                                 

   Responses of Hon. Colin Powell, Secretary of State, to Additional 
     Questions for the Record Submitted by Senator Christopher Dodd

                               VENEZUELA

    Question. It would appear that the Government prefers Carter's 
referendum proposal as provided for in the Venezuelan Constitution 
while the opposition favors Carter's Constitutional amendment route and 
early elections. Where do we go from here?

    Answer. The dialogue process led by OAS SYG Gaviria aims to help 
the Venezuelan Government and opposition bridge the gap between the two 
viable electoral proposals tabled by former President Carter on January 
21. We strongly encourage both parties to avail themselves of this 
forum to break the current political impasse. The Venezuelan Government 
and the opposition need to reach agreement, at the dialogue facilitated 
by OAS SYG Gaviria, upon which electoral option--either the recall 
referendum or a constitutional amendment--to pursue to resolve 
Venezuela's crisis.
    The United States fully supports this dialogue effort and, along 
with the other members of the Group of Friends, is committed to monitor 
and verify the implementation of any agreement brokered by the OAS. In 
an effort to help this process, the United States will join the other 
members of the Friends group for a meeting on March 10 to explore 
concrete steps that can be taken to advance a ``constitutional, 
democratic, peaceful, and electoral'' solution in Venezuela.

MEXICO: RECENT DECISION BY THE INTERNATIONAL COURT OF JUSTICE ON BEHALF 
                               OF MEXICO

    Question. Earlier this week the ICJ called upon the United States 
to stay the execution of three Mexican nationals on death row while it 
adjudicates the charge brought by the Mexican Government against the 
United States that the U.S. violated its obligations under a Vienna 
Consular Convention to give these individuals access to Mexican 
consular officials prior to their trials. 11What will be the U.S. 
response to the ICJ order?

    Answer. Mexico's case on the merits seeks broad remedies in 
criminal cases in which a Mexican national allegedly was not advised 
without delay, as required by Article 36 of the Vienna Convention on 
Consular Relations, that he could request that his consular officials 
be notified of his arrest and detention. (There are no allegations that 
Mexican nationals have been denied access to Mexican consular officials 
when requested either by the detained national or a consular official.) 
All of the 54 Mexican nationals identified by Mexico application to the 
ICJ were sentenced to death, but three have recently had their 
sentences commuted to life imprisonment. The ICJ has set a schedule 
requiring that Mexico file its Memorial on June 6, 2003, and that the 
United States file its Counter Memorial on October 6, 2003.
    The ICJ provisional measures order of February 5, 2003, provides 
that the United States shall not execute three specific Mexican 
nationals who Mexico believes are closest to having an execution date 
set. None of the three in fact yet has an execution date. The 
Department of State is reviewing the order in consultation with the 
Department of Justice.

                              IMMIGRATION

    Question. What concrete progress has taken place since the November 
meeting? Realistically, what are the prospects for reaching an 
immigration accord with Mexico this year or next? What implications 
will this have on the Mexican Congressional elections scheduled for 
later this year? What further personal role do you plan to take in 
these negotiations?

    Answer. While ensuring our security concerns are addressed, the 
Administration remains committed to finding ways to advance the 
bilateral migration agenda with Mexico. During my discussions at the 
Binational Commission meeting in November in Mexico City, I conveyed 
this message to the Government of Mexico.
    As part of our examination of ways to improve and expedite the H2b 
visa application process, the Departments of State, Labor and Justice 
continue evaluating regulatory changes that would facilitate the 
matching of willing workers in Mexico with willing employers in the 
United States. The Department of State's Bureau of Consular Affairs has 
initiated a feasibility study on integrating data systems from agencies 
that have a role in the H2b application process.
    In addition, our bilateral migration agenda is closely linked to 
our efforts to enhance homeland security through our U.S.-Mexico Border 
Partnership agreement (signed March 2002). As part of this ``smart 
border'' initiative with Mexico, we are cooperating on such issues as 
sharing data on travelers to our countries and seeking greater 
harmonization of visa regimes.
    It is difficult to predict when a migration accord with Mexico 
might be reached, as there are many variables and a variety of complex 
legal and regulatory issues that must be carefully explored. However, 
it is an important issue that remains high on the bilateral agenda. 
Given the foregoing, I would prefer to avoid speculation on the 
implications of a migration accord, or the lack thereof, on the 
legislative elections in July.
    I am regularly updated on developments pertaining to Mexico and 
migration and intend to continue my direct involvement in this issue.
    Affairs has initiated a feasibility study on integrating data 
systems from agencies that have a role in the H2b application process.
    In addition, our bilateral migration agenda is closely linked to 
our efforts to enhance homeland security through our U.S.-Mexico Border 
Partnership agreement (signed March 2002). As part of this ``smart 
border'' initiative with Mexico, we are cooperating on such issues as 
sharing data on travelers to our countries and seeking greater 
harmonization of visa regimes.
    It is difficult to predict when a migration accord with Mexico 
might be reached, as there are many variables and a variety of complex 
legal and regulatory issues that must be carefully explored. However, 
it is an important issue that remains high on the bilateral agenda. 
Given the foregoing, I would prefer to avoid speculation on the 
implications of a migration accord, or the lack thereof, on the 
legislative elections in July.
    I am regularly updated on developments pertaining to Mexico and 
migration and intend to continue my direct involvement in this issue.

                           HAITI: AID EMBARGO

    Question 1. [OAS] Resolution 822 was passed in September 2002, and 
among other things, it called on Haiti to establish a neutral electoral 
council and for the normalization of relations between Haiti and the 
international financial institutions. At that time the U.S. pledged to 
provide $1 million to the OAS mission so that security could be 
improved in Haiti a precondition for the opposition participating in 
the electoral process. The OAS mission has seen none of that money and 
not surprisingly security remains a problem in Haiti. Is the U.S. going 
to support the efforts of the OAS or not?

    Answer. The U.S. has provided $1.6 million of the $3.2 million 
contributed to the OAS Special Mission to date. The EU has contributed 
600,000 Euros (US$641,160) with another 150,000 Euros (US$159,000) 
pledged; Canada $511,139, with an additional $2 million Canadian 
(US$1.3 million) pledged. The Mission has requested additional funding 
of $11-13 million based on its current mandates. The cost for elections 
security and observation could be as high as $35 million.
    The Special Mission's Work Program has five components--security, 
justice, human rights, governance and assistance for the 2003 
elections. While funding constraints have prevented us from providing 
for the full needs of the Special Mission, we have been actively 
looking for additional funds from both U.S. and foreign resources. We 
have been working with the Special Mission and UNDP on support of OAS 
Special Mission activities and projects in Haiti, especially in the 
areas of security and electoral assistance. We have also contacted 
other donors to encourage them to fund the same activities.
    The U.S. took the lead in creating the OAS Special Mission for 
Strengthening Democracy in Haiti in January 2002 via OAS Resolution 806 
and in expanding its mandate via OAS Resolution 822. We believe the OAS 
Special Mission offers the best opportunity for long-term 
democratization in Haiti.

    Question 2. Why, four months after the decision by the OAS to 
``normalize'' Haiti's relations with the IDB, have we seen little or no 
movement on these funds?

    Answer. OAS Resolution 822 supported normalization of economic 
cooperation between the Government of Haiti and the international 
financial institutions and urged those parties to resolve the technical 
and financial obstacles that preclude such normalization.
    The Inter-American Development Bank (IDB), the World Bank, and the 
International Monetary Fund (IMF) have each held discussions with the 
Government of Haiti since last September. However, before loan 
disbursements can begin from the IDB, Haiti needs to pay its IDB 
arrears, slightly over $20 million as of year-end 2002. The same holds 
for the World Bank. For IMF programs, Haiti needs to negotiate and 
implement an agreement with the IMF on basic economic reforms. An 
appropriate IMF agreement could also facilitate additional loans from 
the IDB and World Bank.
    To date the Government of Haiti has neither paid its arrears to the 
IDB or World Bank, nor reached an agreement with the IMF. All three 
institutions continue their talks with the government. We have 
encouraged the Government of Haiti to take the steps needed so that 
lending from these institutions can resume. We have also encouraged the 
institutions to work actively toward this goal.

                                 BRAZIL

    Question. On October 27, 2002, presidential elections were held in 
Brazil. These elections were noted as being free and fair, and resulted 
in the victory by a landslide of Luiz Inacio Lula da Silva--known as 
Lula--the leader of the left-wing Workers' Party. During the elections, 
Lula promised a set of pension, tax, and other reforms that he is now 
attempting to implement. However, due to his lack of political 
experience and his earlier radical positions, the elections campaign 
and results were marked by a panic in the financial markets. Recently, 
Lula presented an outline of his first major policy initiative, through 
which he hopes to ensure that in a country where 44 million people live 
on or below the poverty line, everybody has enough food to eat. 
However, some Brazilian officials and analysts have criticized this 
initiative for overstating the problem of hunger in Brazil, confusion 
over which regions will be helped, ill-preparedness, and lack of 
funding.
    How much weight do you give to these criticisms? Should the United 
States provide aid to the Brazilian government for the funding of this 
program? In your opinion, have the recent elections affected U.S.-
Brazil relations?

    Answer. Brazilian President Lula launched his centerpiece ``Zero 
Hunger'' program on January 30. We understand that the program is not 
yet in effect nationwide and that some elements of the program are 
still being designed. President Lula's goal of eliminating hunger in 
Brazil is a worthy humanitarian objective that deserves our praise and, 
where appropriate, support. The United States is examining how it might 
be able to provide technical support to the Government of Brazil in 
this initiative.
    Brazil is a friend of the United States and a key hemispheric 
partner. We consult regularly on regional and global issues. President 
Bush met with then President-elect Lula on December 10 in Washington. 
At that meeting, they agreed to hold a bilateral summit in 2003. The 
summit, which is yet to be scheduled, will be an opportunity for the 
United States to build upon and expand the already excellent bonds we 
share with Brazil.

                               ARGENTINA

    Question. What is the status of this funding? Besides supporting 
the IMF loan, what measures has the United States taken to prevent 
total economic collapse in Argentina? Are there additional measures 
that the U.S. should take to aid Argentina?

    Answer. With the strong backing of this Administration the 
Government of Argentina reached an interim agreement with the 
International Monetary Fund in late January. The January-through-August 
2003 agreement gives Argentina the opportunity to build a more stable 
foundation in the period before a new government can undertake more 
far-reaching reforms.
    Argentina has endured four years of recession. The economy declined 
sharply in the first quarter of 2002 and then began to bottom out in 
the second quarter of 2002, pointing the way to a possible modest 
recovery in 2003. Social suffering is widespread and intense with 
almost 60% of Argentines living in poverty.
    Argentina's crisis was caused in large part by poor domestic fiscal 
policy inconsistent with its rigid exchange rate regime. A key aim of 
the agreed IMF program is to help underpin macroeconomic stability and 
build a foundation for economic growth in Argentina. It is important 
that the Government of Argentina fully implement all of its commitments 
for the program to be successful and the IMF has just indicated that 
the program is on track and that quantitative performance targets are 
being met with comfortable margins.
    Over the longer term, we will support Argentina's efforts to 
develop a more comprehensive program to strengthen stability, the rule 
of law, the investment climate, and growth. In addition, we will 
encourage Argentina to engage cooperatively with creditors to resolve 
the country's defaulted debt.
    As you mentioned, the Administration has been a strong supporter of 
the interim IMF agreement concluded in January. In addition, the 
Administration has been a strong advocate of the World Bank's support 
for the Government of Argentina's Heads of Household program, a 
workfare program that pays 150 pesos per month (about $45) to the 
unemployed in exchange for community service or training. At the end of 
2002, 1.85 million Argentines had benefited from this program. We have 
also supported programs funded by the Inter-American Development Bank. 
Most recently, we supported a $1.5 billion emergency loan for a Program 
for Social Protection and Mitigation of the Impact of the Crisis on the 
Poor.
    At the request of the Government of Argentina, the U.S. Treasury 
has been providing short-term technical assistance missions in the 
areas of monetary policy and banking sector reform to help build the 
basis for future growth and prevent future financial crises. Treasury 
will consider providing further longer-term technical assistance in 
these areas.
    In the areas of trade, we have been seeking ways that are 
consistent with our trade laws to assist Argentine exporters. We meet 
regularly in the U.S.-Argentine Bilateral Council on Trade and 
Investment (BCTI). We are currently close to concluding an accelerated 
review of petitions for Argentine products under the Generalized System 
of Preferences. We also recognize that Argentina has been free of hoof 
and mouth disease for one year, paving the way for the USDA to conduct 
an assessment, which may allow renewed Argentine beef exports to the 
U.S. The Department of Commerce has accepted Argentina's request to 
conduct an administrative review of anti-dumping/countervailing duty 
margins, and will consider Argentina's severe currency devaluation and 
the drastic increase in U.S. domestic prices for honey as part of its 
normal review process.

                                 ______
                                 

   Responses of Hon. Colin Powell, Secretary of State, to Additional 
   Questions for the Record Submitted by Senator Russell D. Feingold

    Question. Is it your view that the Indonesian military has made 
significant progress in its reform efforts over the past two years? On 
what do you base your assessment? Will the Department link military 
assistance to our demand for cooperation and accountability in the 
investigation of the murder of American citizens in West Papua?

    Answer. Military reform in Indonesia is a mixed record. The 
military has accepted more changes in its status and role in the 
national life over the past four years than at any other time in its 
history. It did not intervene in the 1999 elections, and it resisted 
political pressure to violate constitutional norms during the turbulent 
period of President Wahid's impeachment and the succession to President 
Megawati. The military has formally relinquished its special, parallel 
function in government, and accepted a sharp reduction in appointed 
parliamentary seats and the end of appointed representation in 
legislative bodies by 2009. The five-year conviction on March 12, 2003 
of an Army General officer for East Timor human rights abuses 
represents a tangible step on the path to accountability.
    Fundamental problems remain, however. Progress on accountability 
has been slow; the military has grudgingly gone along with trials for a 
small number of officers for human rights abuses. Civilian control only 
exists in name only and discipline remains a problem. The military 
deals with inadequate central government funding through running 
unofficial businesses and foundations, and engaging in illegal 
activities. There are many other reasons for this lack of progress, 
including lack of political will, institutional resistance, budgetary 
constraints, and the fact that the decade-long absence of IMET-trained 
military officers constrains our interactions with key players in 
regards to both counter terrorism cooperation and comprehensive 
military reform. We continue to press the Indonesians for thoroughgoing 
reforms.
    We have conveyed in the strongest possible terms to the Government 
of Indonesia that we expect them to identify and punish all those 
responsible for the August 2002 murder of Americans in Papua. Anything 
short of a full accounting and punishment for those responsible for 
this crime would be unacceptable and would have a negative impact on 
the bilateral relationship. Indonesian Government actions in this case 
would be an important factor in our evaluation of future military 
assistance programs for Indonesia, along with other factors such as 
U.S. national security interests, respect for human rights, civil-
military relations, political developments in Indonesia, and the 
regional strategic environment.

    Question. Should the recent execution, following a secret trial, of 
an ethnic Tibetan accused of terrorist bombings in Sichuan, together 
with the closed-door prosecution in Shenzhen of a U.S. resident on 
apparently trumped up terrorism charges, cause us to be concerned that 
repressive governments whose support we are soliciting to combat global 
terrorism are themselves using the ``war on terrorism'' as an excuse to 
crack down on legitimate, peaceful dissent and persecute restive 
minority groups?

    Answer. The U.S. Government is committed to ensuring that adherence 
to international human rights norms is not sacrificed in the pursuit to 
advance the global war on terrorism. We have made it clear to the 
Government of China on many occasions that the United States strongly 
opposes any attempt to use the war on terrorism as an excuse to crack 
down on those who are peacefully expressing their political or 
religious views. We have expressed deep concern about the execution of 
Lobsang Dhondup without adequate due process and the recent detentions 
of dissidents on terrorism charges.
    We reiterated our views to the Government of China at the time of 
the Executive Order designation last September of the Uighur group 
ETIM. We continue to emphasize to all countries in which Foreign 
Terrorist Organization and Executive Order 13224 designees exist that 
human rights must be respected.
    In December, Assistant Secretary for Democracy, Human Rights and 
Labor Lorne W. Craner traveled to Xinjiang as part of the China Human 
Rights dialogue to deliver directly to Chinese officials the 
President's message that the war on terrorism cannot be used to 
crackdown on minorities. The message was reinforced during the recent 
visit to China by Ambassador Cofer Black, the State Department's 
Coordinator for Counterterrorism. He publicly stated that any response 
to terrorism must be carried out within the context of protecting the 
rights of all citizens under the rule of law.

    Question. What, based on your preliminary intelligence, do you 
expect the annual coca cultivation survey to show in terms of results 
of the 2002 fumigation campaign, and if it's not positive, what other 
alternatives will you begin to look at?

    Answer. The annual U.S. official estimate on Colombian coca 
cultivation for 2002 was released on February 27. The estimate showed a 
15 percent reduction in Colombian coca fields compared to 2001--the 
first decline in cultivation in a decade. The report also noted a 50 
percent reduction in coca fields for the Departments of Putumayo and 
Caqueta, the focus of our most aggressive coca eradication campaign.
    This estimate reflects the contribution that the aerial eradication 
program is making to our efforts to fight cocaine at its source.

    Question. Please provide an update on the status of targeted 
sanctions on officials in Zimbabwe. Is the asset freeze effective at 
this time?

    Answer. Travel restrictions remain in effect for those Zimbabwean 
government officials and others, including business figures, who 
continue to undermine Zimbabwe's democratic institutions. The IEEPA 
(International Emergency Economic Powers Act) Executive Order blocking 
the assets of key Zimbabwean government officials has been forwarded 
for the President's signature. If signed, the Order would block the 
assets in the United States or held by U.S. persons of key Zimbabwe 
government officials, and would complement similar action taken by the 
European Union.

    Question. Can you assure me that the United States will continue to 
support the Special Court for Sierra Leone?

    Answer. The United States was a leading supporter of UN Security 
Council Resolution 1315. The resolution called upon the Secretary 
General to establish with the government of Sierra Leone an independent 
Special Court, and was successfully passed in August 2000.
    The United States continues to be a strong supporter of the Special 
Court. We contributed $5 million in FY01 and $5 million in FY02 for the 
Court's operations and expect to make a similar contribution in FY03. 
The United States is fully prepared to support the Court in 
successfully completing its mandate, and to provide diplomatic support 
as needed.

    Question. I notice that the U.S. anticipates spending less on the 
peacekeeping mission in the Democratic Republic of the Congo in FY04. I 
certainly hope that a just and lasting peace can be found in the DRC, 
and I am very concerned about the extremely expensive nature of the 
MONUC mission. At the same time, I fear that the millions of taxpayer 
dollars already spent on MONUC will be money wasted if the U.S. rushes 
to paper over the gaping holes in the incomplete peace and allows Congo 
to sink back into chaos. I would also point out that credible reports 
continue to indicate that the scale and scope of grave human rights 
abuses rises to a level that demands an international response.
    What steps will the Administration take in the year ahead to ensure 
that we do not simply see more of the same appalling developments in 
the DRC?

    Answer. We share your concern and continue to stress to all parties 
to the conflict in the Democratic Republic of the Congo (DRC) how 
important it is to cease hostilities and implement a transitional 
government so that a just and lasting peace can be established in the 
DRC.
    We support full implementation of the 1999 Lusaka Cease-Fire 
Agreement and subsequent agreements in the peace process. We have been 
actively supporting implementation of these agreements as a means to 
securing a peaceful resolution to the conflict in the DRC. To this end, 
we have provided $800,000 to the South African/United Nations (UN) 
Third Party Verification Mission (TPVM) to oversee implementation of 
the July 30 Pretoria Agreement governing the withdrawal of Rwandan 
troops from the DRC and the disarmament, demobilization, and 
repatriation (DDR) of armed Hutu rebels. We have actively supported 
implementation of the December 17 agreement among Congolese parties to 
a transitional framework. We have encouraged DRC President Kabila to 
take steps to begin implementing this agreement. We are in the process 
of consulting with the UN and interested countries on ways to organize 
the international committee called for in the December 17 agreement.
    The United States has actively encouraged the other United Nations 
Security Council members, plus Belgium and South Africa (P5 + 2) to 
promote the Congolese peace process. Our collective efforts and those 
of the United Nations Organization Mission in the Congo (MONUC) 
succeeded in getting the Congolese parties fighting in northeastern 
Congo in late 2002 to sign a December 30 cease-fire agreement. We are 
strongly encouraging Uganda and the DRC, signatories to the September 6 
Luanda Agreement, to form the Ituri Pacification Committee called for 
in that agreement as a means to providing political and military 
stability in the Ituri region in order to prevent a further 
deterioration in the humanitarian situation there. We have also 
repeatedly condemned the violations of international human rights and 
humanitarian norms, both through the UN Security Council and through 
bilateral channels. We continue to impress upon other countries, 
particularly Rwanda and Uganda, the need to cease any and all military 
involvement in the DRC and any support for armed Congolese groups in 
the DRC.
    At the same time, we continue to provide humanitarian assistance to 
the DRC, to assist persons displaced and disadvantaged by the on-going 
conflict. Overall FY 2002 humanitarian assistance to the DRC is nearly 
$42 million, in addition to nearly $26 million in development 
assistance. This includes funds for child survival, maternal health, 
HIV/AIDS, infectious diseases, and emergency food assistance.

    Question. Why is the Administration hesitant to provide greater 
support to the Global Fund for AIDS, TB, and Malaria? Why would the 
U.S. decline to take an opportunity to leverage taxpayer dollars at the 
fund and take advantage of multilateral infrastructure rather than 
spending money on the bureaucratic demands of an almost entirely 
bilateral program? Are there specific criteria that the Fund could meet 
to address the Administration's concerns?

    Answer. U.S. political and financial support for the Global Fund is 
unrivaled. The U.S. has never been hesitant in its support for the 
Global Fund. The President made the first pledge by any government to 
the Fund, before it was formally established, and Congress funded that 
commitment when no structure yet existed. The President's recent 
promise of an additional one billion dollars is a continuation of that 
support, and means that the U.S. represents almost fifty percent of all 
pledges. The U.S. is the only government or donor to have announced a 
third pledge; indeed, only one other government has even made a second 
pledge. Secretary Thompson's position as Chair of the Fund's Board 
underscores our strong commitment and dedication to the Fund. We urge 
other potential donors to join us to make the Fund a success.
    The President, in his recent initiative, has in fact taken an 
historic opportunity to try to leverage taxpayer's dollars by giving 
generously to the Global Fund. As the Global Fund remains a very new 
mechanism, our generosity must be tempered by some prudence.
    We are optimistic about the Fund's prospects and committed to its 
success. At the same time, we believe that it must establish a track 
record. We also believe that our own bilateral programmatic and funding 
efforts, including the President's Emergency Plan, have a tremendous 
potential to complement these multilateral efforts.
    Because the Fund is a financing mechanism and not an implementing 
agency, it must rely on others with programmatic and technical skills 
to support the grants made. Our bilateral programs have provided 
technical assistance to Country Coordination Mechanisms in preparing 
proposals and will support implementation efforts. In many cases, it is 
successful bilateral programs that have provided the information and 
start-ups that have led to successful proposals to the Global Fund.
    The Global Fund and bilateral programs should be complementary. The 
President's Emergency Plan for AIDS Relief and our continuing bilateral 
programs contribute to the global efforts against AIDS by:

  <bullet> Assuring potential investors and recipients with a minimum, 
        stable five-year commitment to the Global Fund.

  <bullet> Helping countries prepare Global Fund proposals and to 
        implement projects through our bilateral programs.

  <bullet> Increasing the total resources available and thus making it 
        possible for the Global Fund to work with more countries more 
        effectively.

    Our criteria for judging the Global Fund remain as they have been 
from the time of our first commitment. The Fund has started well but 
has only just disbursed the first money to approved proposals The 
Secretariat has taken seriously the need for financial and programmatic 
accountability but it will take time to verify that the innovative 
structures will work as planned and to ensure that approved proposals 
will make a measurable difference. By contrast, U.S. bilateral programs 
have a record of success already.
    The Fund must remain true to the basic principles outlined by 
President Bush. While the U.S. has ensured those principles are part of 
the Fund's basic architecture, we face constant pressures from others, 
including recipient nations, to return to the old ways of doing 
business, including giving funds to governments directly, with little 
or no involvement of other stakeholders, and with little or no 
accountability.
    The President's principles remain:

  <bullet> The need for partnerships across borders and between the 
        public and private sectors. While representatives of the 
        private sector, including business, NGOs, and foundations, sit 
        on the Fund's Board, recipient countries have been slow to 
        include these important stakeholders in their proposals and 
        planning.

  <bullet> An integrated approach that emphasizes a blend of care, 
        treatment and prevention.

  <bullet> Concentrating efforts on programs that work to actually 
        benefit patients, based on proven best practices.

  <bullet> Review of proposals by medical and public health experts to 
        ensure effectiveness and technical soundness.

  <bullet> Respect for intellectual property rights, as an incentive 
        for vital research and development.

  <bullet> Put into place a strong and independent programmatic 
        monitoring and evaluation structure.

  <bullet> Demonstrate the ability to actually leverage U.S. 
        contributions by garnering more support contributions from 
        investors in the Fund.

                                 ______
                                 

  Response of Hon. Colin Powell, Secretary of State, to an Additional 
       Question for the Record Submitted by Senator Barbara Boxer

    Question. Can you assure the Committee that the Administration will 
not impose any restriction similar to those imposed on international 
family planning programs pursuant to the President's Memorandum of 
March 28, 2001 (``Restoration of Mexico City Policy'') on any program 
funding HIV/AIDS prevention and treatment?

    Answer. To be effective, the President's Emergency Plan for AIDS 
relief will have to involve coordination among many parties. As we work 
with Congress to develop this plan and as we implement it, we will 
ensure that any organization that wishes to participate in the core of 
the Emergency Plan for AIDS relief--the prevention, care, and treatment 
of HIV/AIDS--will be eligible to receive U.S. funds targeted for that 
purpose, provided that the assistance is not used to promote or perform 
abortions.

                                 ______
                                 

   Responses of Hon. Colin Powell, Secretary of state. to Additional 
       Questions for the Record Submitted by Senator Bill Nelson

                                 HAITI

    Question 1. I was recently in Haiti, and witnessed the abject 
poverty and inhuman conditions in which Haitians are living. In your 
view, what is President Aristide's level of compliance with OAS 
Resolution 822? What about the opposition?

    Answer. We share your concern about the plight of the Haitian 
people. A return to stability through settlement of the political 
crisis will help to improve the Haitian economy, and thus the lives of 
ordinary Haitians.
    We are deeply dissatisfied with the Government of Haiti's level of 
compliance with Resolution 822, which was adopted by unanimous 
consensus, including Haiti, in the OAS Permanent Council and which 
President Aristide has publicly committed to implement.
    While there has been progress on payment of reparations to 
political parties for damage suffered in the violence of December 17, 
2001, and the OAS Special Mission has been able to negotiate 
satisfactory terms for its activities with the government, on almost 
all other accounts there has been little or no substantive progress. 
This is particularly disappointing and worrisome in regard to the 
deteriorating security environment. A climate of security conducive to 
elections does not now exist. Armed gangs, many associated with the 
ruling party, continue to perpetrate acts of violence and intimidation 
against journalists, human rights activists, some businesses, and 
students. Some investigations are proceeding, but the murders of 
journalists Jean Dominique in April 2000 and Erignol Lindor in December 
2001 are unsolved. Disarmament, a key element in creating a climate of 
security, has consisted mainly of ineffective public gestures.
    If elections are to be held in 2003 as called for in Resolution 
822, it is vital that the Government of Haiti take immediate steps to 
meet its commitments under the Resolution. By meeting its commitments, 
the government can give the opposition the confidence to participate 
fully and meaningfully in the electoral process. The opposition and 
civil society must play more responsible roles. They must be prepared 
to participate in an electoral council once the government creates a 
more secure environment:

    Question 2. Has the Aristide government provided compensation to 
the victims of violence following the coup attempt of December 17, 
2001? What is the status of the appointments to the Provisional 
Electoral Council (CEP) and subsequent elections later this year?

    Answer. The Haitian government and the victims signed an agreement 
in July 2002 establishing procedures for the assessment and payment of 
claims. Prompted by OAS Resolutions 806 and 822, which called for 
timely payment of reparations, the government has paid reparations to 
some of the victims.
    It is, however, disappointing that the issue of reparations has not 
been finally resolved. Negotiations with one opposition party are still 
going on. Moreover, the government does not appear to be making any 
effort to address reparations claims of individuals named by the OAS 
Advisory Council on Reparations.
    Resolution 822 called for a new Provisional Electoral Council (CEP) 
to be formed by November 4, 2002, using procedures previously agreed to 
by the opposition and government, designed to create the kind of 
independent CEP that could oversee elections in a fair and impartial 
way.
    The CEP has not been formed. The government's hack of progress in 
improving security caused opposition parties and civil society to 
refrain from participation in the CEP. From November 2002 through 
January 2003, a series of anti-government protest strikes and attacks 
by government-supported gangs on opposition demonstrations have driven 
the two sides further apart.
    The ruling party and opposition agreed that the CEP would consist 
of nine members nominated by them, the churches, and civil society 
organizations. President Aristide on February 7 issued a presidential 
decree naming seven of the nine members, saying at the time he was 
leaving the other two positions open for opposition political parties 
to fill as originally agreed to. The seven names that Aristide put 
forward were already known to the public, having been previously 
nominated by the churches and civil society organizations. Opposition 
parties did not name any nominees in response to Aristide's decree, so 
there still is no CEP.
    It is disappointing that no CEP has been formed, but as noted in 
Resolution 822 the integrity of the CEP formation is essential. It 
would be a mistake for Aristide to act on his own in forming the CEP. 
No single party or organization should be able to block formation of 
the CEP, but it is essential to maintain the formula agreed to by all 
parties in order to have free and fair elections. The U.S. cannot 
support elections in Haiti unless they are free, fair, and reflect the 
will of the Haitian people. The joint high-level delegation of the OAS 
and CARICOM traveling to Haiti March 18-21 hopes to convince the 
government to meet its obligations under Resolution 822 and the 
opposition and civil society to participate in formation of a neutral, 
credible, and independent CEP.

    Question 3. Can you explain what steps the Administration is taking 
to bring the opposition parties to the table? I understand the OAS is 
involved, but what is the U.S. doing to encourage a resolution to bring 
relief to the Haitian people? Is the OAS mission adequately funded and 
supported by the U.S.?

    Answer. Before returning to a dialogue with the Haitian government, 
the opposition and civil society are deeply concerned about restoring a 
secure environment. Key to understanding this concern is the violent 
nature of Haiti's political history.
    We are urging the Government of Haiti to create the minimum levels 
of confidence required by the opposition and civil society by meeting 
the security commitments it made in Resolution 822, and by supporting 
the efforts of the OAS Special Mission to help the government do so. At 
the same time, we have repeatedly reminded the opposition of its 
responsibility to react positively and constructively when the 
government begins to meet its commitments.
    Special Presidential Envoy for Western Hemisphere Initiatives Otto 
Reich will represent the U.S. in a joint OAS-CARICOM delegation 
visiting Haiti March 18-21. The delegation will present a strong 
message to all actors in Haiti--government, opposition, civil society--
that now is the time for effective action in meeting security concerns 
and forming a credible CEP.
    Although the Special Mission has received pledges of approximately 
$5.5 million, it has serious cash flow problems. Actual contributions 
to date total slightly more that $3.2 million, consisting mainly of 
$1.6 million from the U.S. and $510,000 from Canada. Canada announced 
an additional contribution of approximately $1.3 million in January, 
which has yet to be received. The EU has contributed $640,000 with 
another $159,000 to follow. The Mission has requested an additional 
$11-13 million from the international community to fund its current 
mandates. Beyond that, the cost for elections security and observation 
could be as high as $35 million.

    Question 4. As U.S. and international assistance still cannot be 
directed to Haiti, the Haitian people are suffering. What is the U.S. 
doing to see that OAS Resolution 822 is complied with and that 
normalization of relations will take place between Haiti and 
international financial institutions and multilateral banks?

    Answer. In Resolution 822, the OAS supported normalization of 
economic cooperation between the Government of Haiti and the 
international financial institutions and urged those parties to resolve 
the technical and financial obstacles that preclude such normalization.
    The Inter-American Development Bank (IDB), the World Bank, and the 
International Monetary Fund (IMF) have each held discussions with the 
Government of Haiti since last September. However, before loan 
disbursements can begin from the IDB, Haiti needs to pay its IDB 
arrears, slightly over $20 million as of year-end 2002. The same holds 
for the World Bank. For IMF programs, Haiti must negotiate and 
implement an agreement with the IMF on basic economic reforms. An 
appropriate IMF agreement could also facilitate additional loans from 
the IDB and World Bank.
    To date the Government of Haiti has neither paid its arrears to the 
IDB or World Bank, nor reached an agreement with the IMF. All three 
institutions continue their talks with the government. We have 
repeatedly encouraged the Government of Haiti to take the steps needed 
so that lending from these institutions can resume. We have also 
encouraged the institutions to work actively toward this goal.
    The U.S. continues to provide assistance to Haiti through non-
governmental organizations addressing the urgent humanitarian needs in 
Haiti and promoting prosperity and democratic institutions. The U.S. 
has been and remains Haiti's largest donor. In the past two years, we 
have disbursed over $120 million in humanitarian assistance to Haiti.

    Question 5. In the President's budget for FY 2004, what kind of 
assistance do you expect to provide to Haiti through USAID and 
nongovernmental organizations?

    Answer. USAID's objective in Haiti is to alleviate poverty while 
building foundations for a prosperous, democratic society. Assistance 
is channeled through U.S. contractors and grantees to local and other 
U.S. non-governmental organizations. Principal USAID programs budgeted 
for FY 2004 include:

  <bullet> Health ($21.8 million): USAID uses a network of over 30 
        local organizations to provide services to some 2.5 million 
        Haitians, close to a third of the population. Child 
        immunization rates in USAID-assisted areas are nearly double 
        the national average, as high as 85 percent in some parts of 
        the country. Child malnutrition rates in USAID assisted areas 
        fell from 32 percent to 22 percent in 1995-2000. The percentage 
        of women nationwide seeking prenatal consultation has increased 
        from 68 percent to 79 percent.
    The national contraceptive use rate has gone from 9 percent to over 
15 percent, with even stronger gains--to 22 percent--among rural, 
illiterate women. This is part of our expanded AIDS prevention program. 
Haiti is also a beneficiary of the Global Fund against AIDS, 
Tuberculosis, and Malaria.

  <bullet> Food Security ($23.8 million): P.L. 480 Title II (food 
        assistance) improves the nutritional well-being and food 
        security of Haiti's poorest populations, especially children 
        under five and nursing mothers. An early warning system 
        developed to anticipate and prepare for food emergencies in the 
        Northwest region is now being replicated in other parts of the 
        country.

  <bullet> Democracy ($2.9 million): Democracy programs focus on 
        increasing the professionalism of political parties, 
        strengthening independent media and civil society organizations 
        and promoting judicial reform and human rights. Training and 
        other support is also provided for independent election 
        observation groups.

  <bullet> Education ($2.5 million): Programs increase pass rates for 
        third and fourth grade students through improved in-service 
        training for 4,000 teachers and school directors, radio 
        education in math and Creole, and the provision of books, 
        teaching aids, and curriculum guides.

  <bullet> Economic Growth ($1.75 million): Programs are aimed at 
        sustainable increases in income for the poor. They expand 
        availability of small business loans to urban micro-
        entrepreneurs; provide assistance to small farmers in marketing 
        valuable export crops such as coffee, cacao, and mangos; and 
        help Haitian artisans find niche export markets. Beneficiaries 
        include small entrepreneurs (80% of whom are female), 
        approximately 250,000 hillside farmers, and 2,000 artisans.

    Through these programs, we aim to alleviate poverty, illiteracy, 
and malnutrition and to promote respect for human rights and the rule 
of law. Effectiveness of U.S. assistance has been shown in the 
improvement of social indicators in the areas of intervention, despite 
a deteriorating economy overall.

                          USAID BILATERAL ASSISTANCE TO HAITI (INCLUDES P.L. 480 FOOD)
----------------------------------------------------------------------------------------------------------------
                                                  FY 2001          FY 2002          FY 2003          FY 2004
                   BUDGET                        Disbursed        Disbursed        Estimated         Budgeted
----------------------------------------------------------------------------------------------------------------
TOTAL IN MILLIONS...........................             $72              $54              $47              $53
----------------------------------------------------------------------------------------------------------------


    The above figures do not include programs funded by the U.S. 
Departments of State and Defense for training/equipping units of the 
Haitian National Police with counter-narcotics responsibilities, Peace 
Corps, or U.S. contributions to Haiti through international 
organizations, such as the OAS, UNDP, and the International 
Organization for Migration (IOM).


</pre></body></html>
